APPENDIX A
[PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-10249
D.C. Docket No. l:17-md-02800-TWT
In re Equifax Inc. Customer Data Security Breach Lit­
igation
SHIYANG HUANG, et al.
Movants-Appellants,
BRIAN F. SPECTOR, et al.,
Plaintiffs-Appellees,
versus
EQUIFAX INC., et al.
Defendants-Appellees.
Appeals from the United States District Court
for the Northern District of Georgia
(June 3,2021)
Before MARTIN, GRANT, and BRASHER, Circuit
Judges.
MARTIN, Circuit Judge:
This appeal arises from the 2017 data privacy breach
of Equifax Inc. and its affiliates (collectively "Equifax").
After the breach came to light, scores of class actions
against Equifax flooded the courts. The cases were con­
solidated in the Northern District of Georgia, where
Plaintiffs and Equifax eventually settled their dispute,

(la)

2a

resulting in "the largest and most comprehensive recov­
ery in a data breach case irT U.S) history^by several or­
ders of magnitude." But try as they might, the parties
could not please everyone. Of the approximately 147 mil­
lion class members, 388 people objected to the settle­
ment. Even so, the District Court approved the settle­
ment, certified the settlement class, awarded attorney's
fees and expenses, and approved incentive awards for
the class representatives. Several of the objectors ap­
pealed, challenging the District Court's approval order as
well as some related rulings.
This case highlights the role objectors play in the set­
tlement of class actions. We begin with the knowledge
that settlements are "highly favored in the law" because
"they are a means of amicably resolving doubts and un­
certainties and preventing lawsuits." In re Nissan Motor
Corn, Antitrust Litig., 552 F.2d 1088,1105 (5th Cir. 1977)
(quotation marks omitted).1 The settlement here is a
prime example. Absent the settlement, the class action
could have faced serious hurdles to recovery, and now
the class is entitled to significant settlement benefits that
may not have even been achieved at trial. And you need
not take our word for this. The Federal Trade Commis­
sion, the Consumer Financial Protection Bureau, and the
Attorneys General for 48 states, the District of Colmnbia,
and Puerto Rico all support the settlement.
Yet as we mentioned, not everyone bound by this
class action settlement agrees with it, and class members
1 In Bonner v. City of Prichard. 661 F.2d 1206 (11th Cir. 1981) (en
banc), we adopted as binding precedent all decisions of the former
Fifth Circuit handed down before October 1,1981. Id at 1209.

3a

who oppose the settlement have the right to object. See
Fed. R. Civ. P. 23(e)(5)(A). Often times-objectors play^a
"beneficial role in opening a proposed settlement to scru­
tiny and identifying areas that need improvement." Da­
vid F. Herr, Annotated Manual for Complex Litigation §
21.643 (4th ed. 2021) [hereinafter "Manual for Complex
Litigation"]. And because objectors have the right to ob­
ject, it is our obligation to closely review the issues they
present. Consistent with our obligation, we have studied
the hundreds of pages of briefing, sifted through the
flurry of Rule 28(j) letters, and familiarized ourselves
with the enormous record in this case. After this careful
consideration, and with the benefit of oral argument, we
affirm the District Court's rulings in full, subject to one
small asterisk. Specifically, after the District Court ap­
proved incentive awards for the class representatives, a
panel of this Court held that such awards are prohibited.
See Johnson v. NPAS Sols., LLC, 975 F.3d 1244, 1260
(11th Cir. 2020). As in NPAS Solutions, we must reverse
the District Court's ruling on the incentive awards alone
and remand this case to the District Court solely for the
limited purpose of vacating those awards. See id.
I. BACKGROUND
In 2017, Equifax, a consumer reporting agency, an­
nounced it had been subject to a data privacy breach af­
fecting the personal information of almost 150 million
Americans. The breach involved some of the most sensi­
tive personal information possible: all nine digits of
Americans' Social Security numbers, coupled with their
names, dates of birth, and addresses, among other things.
Over 300 class actions against Equifax were filed across
the nation, all of which came to be consolidated and

4a

transferred by the Judicial Panel on Multidistrict Litiga­
tion to then-Chief Judge Thomas W. Thrash in the
Northern District of Georgia.2 The District Court estab­
lished separate tracks for the consumer claims and the
financial institution claims. This appeal relates to the
consumer claims.
In 2018, Plaintiffs filed a 559-page consolidated class
action complaint against Equifax. The complaint included
96 named plaintiffs who brought a host of statutory and
common law claims under federal and state law. These
claims included violations of the Fair Credit Reporting
Act, the Georgia Fair Business Practices Act, and vari­
ous state consumer protection and data breach statutes.
Plaintiffs also brought claims for negligence, negligence
per se, unjust enrichment, and breach of contract. Plain­
tiffs alleged that, due to the data breach, they are "sub­
ject to a pervasive, substantial and imminent risk of iden­
tity theft and fraud." They also alleged that they have
spent time, money, and effort attempting to mitigate the
risk of identity theft and that many have already been
victims of identity theft.
Equifax filed a motion to dismiss the complaint in its
entirety, which the District Court granted in part and
denied in part. The District Court dismissed the Fair
Credit Reporting Act claims, the Georgia Fair Business
Practices Act claims, as well as some state statutory
claims. However, it allowed the negligence and negli­
gence per se claims under Georgia law, as well as other
2 Chief Judge Thrash ended his service as Chief Judge for the
Northern District of Georgia earlier this year. For consistency, we
refer to him by his former title.

5r

state statutory claims, to go forward. All the while, the
parties engaged in robustlsetftement~negbtiations. traynPhillips, a retired federal district court judge with expe­
rience in data breach cases, served as the mediator. The
parties' efforts paid off. After 18 months of negotiations,
they reached a settlement agreement. The parties then
consulted and negotiated with various federal and state
regulators and revised their agreement as a result of
those consultations. Ultimately, the Federal Trade
Commission, the Consumer Financial Protection Bureau,
and the Attorneys General for 48 states, the District of
Columbia, and Puerto Rico settled with Equifax, agree­
ing that the settlement fund in this case provides redress
to consumers. In July 2019, the parties presented their
final settlement agreement to the District Court.
The District Court described the parties' settlement
as "the largest and most comprehensive recovery in a da­
ta breach case in U.S. history by several orders of mag­
nitude." Under the terms of the settlement, Equifax
agreed to pay an initial $380.5 million into a fund to bene­
fit the class members and to pay attorney's fees and ex­
penses, incentive awards, as well as notice and admin­
istration costs. The settlement includes the following
benefits for each class member:3
• Reimbursement for up to $20,000 of documented,
out-of-pocket losses fairly traceable to the data

3 The settlement class includes the "approximately 147 million U.S.
consumers identified by Equifax whose personal information was
compromised as a result of the cyberattack and data breach an­
nounced by Equifax Inc. on September 7, 2017."

6a

breach (e.g., the cost of freezing a credit file, profes­
sional fees due to identity theft);
” ~
• Compensation of $25 per hour for up to 20 hours
(subject to a $38 million cap) for time spent taking
preventative measures or dealing with identity theft,
with no documentation needed for the first 10 hours;
• Four years of three-bureau credit monitoring and
identity protection services through Experian;
• An additional six years of one-bureau credit moni­
toring and identity protection services through
Equifax, which will be provided separately by
Equifax and not paid for from the settlement fund;
• Alternative cash compensation (subject to a $31
million cap) for class members who already have
credit monitoring and who do not wish to enroll in the
settlement's programs;4 and
• Seven years of identity restoration services
through Experian to help class members who believe
they may have been victims of identity theft.

4 When the settlement was first announced to the public, media re­
ports said consumers could get $125 in alternative cash compensa­
tion under the settlement. The original short-form notice was am­
biguous—it simply stated class members "can request" and "may be
eligible" for $125 if they already had credit monitoring. However, the
long-form notice, which was posted the same day that class mem­
bers could start making claims, stated in no uncertain terms that
consumers who already had credit monitoring could get up to $125,
which would be reduced on a proportional basis if the $31 million cap
was exceeded. After the media reports, class counsel cleared up this
confusion, and those who had already submitted a claim for the al­
ternative cash compensation were given the opportunity to instead
choose credit monitoring.

7a

_ Beyond these class benefits, Equifax will pay an addi­
tional $125 million if needed to satisfy claims for dut-of-pocket losses and potentially $2 billion more if all 147
million class members sign up for credit monitoring. In
no circumstance does money in the settlement fund re­
vert back to Equifax. Instead, if money remains in the
settlement fund after the claim periods, the settlement
provides ways in which the above class benefits are in­
creased. Equifax is also required to spend a minimum of
$1 billion on data security over five years and to comply
with certain data security requirements. Its compliance
will be audited by an independent assessor and subject to
the District Court's enforcement powers if it fails to
comply.
The District Court ordered that notice of the settle­
ment agreement be provided to the class, such that class
members had the opportunity to opt-out of the class or
object to the settlement. The District Court required
those who wished to object to provide certain information
about their objections in order to prevent a "chaotic" ob­
jection process. To provide notice of the settlement to the
class, class counsel adopted "an innovative and compre­
hensive program," including multiple emails, a social me­
dia campaign, newspaper and radio advertising, a set­
tlement website, and a call center to answer questions.
The response from the class was "unprecedented," as the
claims rate exceeded 10 percent of the class. By contrast,
in another recent data breach case, the claims rate was
only about 1.7 percent. As we've mentioned, out of the
approximately 147 million class members, 388 people ob­
jected.

8a

In December 2019, the District Court held a hearing
to consider the motions for final approval of the proposed
class settlement, attorney's fees and expenses, and incen­
tive awards for the class representatives. After hearing
arguments from Plaintiffs, Equifax, and the objectors
who wished to speak, the District Court issued its rulings
from the bench. The District Court approved the settle­
ment as fair, reasonable, and adequate under the factors
set forth in Federal Rule of Civil Procedure 23(e) and
Bennett v. Behring Corn., 737 F.2d 982 (11th Cir. 1984).
The District Court then approved the requested attor­
ney's fees and expenses as well as incentive awards for
the class representatives.
After issuing its oral rulings, the District Court di­
rected Plaintiffs' counsel to prepare a written order
"summariz[ing] [its] rulings on the motions and [its]
adoption basically of the arguments that have been made
by the Plaintiffs and by Equifax in the hearing today."
The District Court instructed Plaintiffs to obtain
Equifax's approval before submitting the proposed order
to the court, which it would then "consider signing." The
District Court later issued a written order memorializing
its rulings. The order approved the settlement; certified
the settlement class, finding that the class satisfied the
requirements of Rule 23(a) and (b)(3); and approved the
requested attorney's fees and expenses and incentive
awards for the class representatives. Finally, the order
overruled the objections to the settlement and made
findings that some of the objectors were serial objectors.5
5 Serial objectors are those who bring objections that are merely
"boilerplate and immaterial, while them true goal is to get paid some
fee to go away." 4 William B. Rubenstein, Newberg on Class Actions

9a

Several objectors appealed, and the District Court
granted Plaintiffs' motion to require the objectors to post
appeal bonds in order to ensure payment of costs on ap­
peal.
With the dust now settled,6 this consolidated case
presents five appeals filed by six objectors: George
Cochran, John Davis, Theodore Frank and David Wat­
kins (who filed a single appeal and are collectively re­
ferred to as "Mr. Frank"), Shiyang Huang, and Mikell
West. Collectively, we refer to the six objectors as the
"Objectors." This is their appeal.
II. DISCUSSION
The Objectors raise a wide array of issues for our
consideration. We start by addressing the jurisdictional
questions. From there, and in hopes of maintaining some
semblance of organization, we proceed in as close to
chronological order as this record permits. We begin our
discussion of the merits by addressing the Objectors'
challenge to the requirements the District Court im­
posed on them in its order directing notice of the settle­
ment to the class. We next consider the Objectors' vari§ 13:20 (5th ed. 2021) [hereinafter "Newberg"]. The District Court's
findings on this topic are largely unrelated to the merits of this ap­
peal and may be dicta in any event. We do not review those findings
here. See Keating v. City of Miami. 598 F.3d 753, 761 (11th Cir.
2010) ("[A]n appellate court 'reviews judgments, not statements in
opinions.'").
6 A total of nine objectors appealed the District Court's orders. Two
of those nine objectors filed a single appeal, so eight appeals were
filed in this Court. This Court sua sponte dismissed two of the eight
appeals for lack of jurisdiction. And in an order issued together with
this opinion, we now dismiss the appeal filed by Christopher An­
drews, leaving us with five appeals filed by six objectors.

10a

ous challenges to the District Court's approval order: the
process used in adopting^ the order and the court’s deci­
sions approving the class action settlement, certifying
the settlement class, awarding attorney's fees and ex­
penses, and approving incentive awards for the class
representatives. Finally, we address the Objectors' chal­
lenge to the appeal bonds imposed by the District Court.
A. Jurisdiction
We start now with two jurisdictional questions, which
we consider de novo. See Jacobson v. Fla. Sec'v of State.
974 F.3d 1236,1245 (11th Cir. 2020).7 First, we address
whether Plaintiffs had Article III standing to bring their
claims. Second, we consider whether Article Ill's caseor-controversy requirement ceased to be met once the
parties agreed to settle their dispute.

7 The parties do not dispute that we have jurisdiction over the Objec­
tors' appeals. This is for good reason. In Devlin v. Scardelletti. 536
U.S. 1, 122 S. Ct. 2005 (2002), the Supreme Court held that
nonnamed class members "who have objected in a timely manner to
approval of the settlement at the fairness hearing have the power to
bring an appeal without first intervening." Id. at 14, 122 S. Ct. at
2013. Otherwise, class members would be deprived of "the power to
preserve their own interests in a settlement that will ultimately bind
them, despite their expressed objections before the trial court." Id.
at 10, 122 S. Ct. at 2011. Although Devlin involved objectors to a
Rule 23(b)(1) settlement, which did not permit objectors to opt out of
the settlement, its logic also applies to objectors to a Rule 23(b)(3)
settlement who did not opt out (like those here) because they are
bound by the settlement. See, e.g., Fidel v. Farley. 534 F.3d 508,
512-13 (6th Cir. 2008).

11a

1. Article III Standing1
In order for a federal court to have jurisdiction under
Article III of the Constitution, a plaintiff must have
standing to bring the lawsuit. See Lujan v, Defs. of Wild­
life. 504 U.S. 555, 559-60, 112 S. Ct. 2130, 2135-36 (1992).
And for the plaintiff to have standing, he must "show that
the defendant harmed him, and that a court decision can
either eliminate the harm or compensate for it."
Muransky v. Godiva Chocolatier, Inc., 979 F.3d 917, 924
(11th Cir. 2020) (en banc). More to the point, the "irre­
ducible constitutional minimum" of standing contains
three requirements. Lujan, 504 U.S. at 560, 112 S. Ct. at
2136. First, the plaintiff must have suffered an "injury in
fact," which means the injury is "concrete and particular­
ized" and "actual or imminent," as opposed to "conjectural
or hypothetical." LL (quotation marks omitted). Second,
the plaintiffs injury must be "fairly traceable" to the
challenged conduct of the defendant and not the result of
some action by a third party not before the court. Id.
(quotation marks omitted and alterations adopted). Fi­
nally, it must be likely that the plaintiffs injury will be
redressed by a favorable court decision. LI at 561,112 S.
Ct. at 2136. These requirements apply with full force in a
class action, Muransky, 979 F.3d at 924± and even at the
settlement approval stage, as a "court is powerless to ap­
prove a proposed class settlement if it lacks jurisdiction
8 Mr. Huang says Plaintiffs were required to prove they had Article
III standing with evidentiary support at the final approval stage, yet
he says Plaintiffs failed to do so. However, Mr. Huang's cited cases
do not actually support his proposition. In any event, he does not
raise any factual doubt about Plaintiffs' standing, so we need not
decide this issue here.

12a

over the dispute, and federal courts lack jurisdiction if no
named plaintiff has standing." Frank v. Gaos, 586 U.S.~T
139 S. Ct. 1041, 1046 (2019) (per curiam). On the other
hand, only one named plaintiff must have standing as to
any particular claim in order for it to advance. Wilding v.
PNC Servs. Corn.. 941 F.3d 1116, 1124-25 (11th Cir.
2019).
Mr. Huang argues Plaintiffs lacked Article III stand­
ing to bring their claims for two reasons. First, he says
those Plaintiffs who have not had their identities stolen
have not suffered an injury in fact. Second, he says those
Plaintiffs who have not had their identities stolen cannot
have their injuries redressed by the settlement, as the
settlement does not stop third parties from committing
identity theft. We address each issue in turn.
i. Injury in Fact
We now turn to the question of whether Plaintiffs
who have not had their identities stolen suffered an inju­
ry in fact. We hold that they have. Again, to establish
standing, a plaintiffs injury must be (1) concrete, (2) par­
ticularized, and (3) either actual or imminent. Lujan, 504
U.S. at 560, 112 S. Ct. at 2136. Only the first and third
elements are at issue here, so \ye focus on them in more
detail.
An injury is concrete if the harm is "real." Muransky,
979 F.3d at 926 (quotation marks omitted). Economic in­
juries are "[cjertainly" concrete. Debernardis v. IQ For­
mulations. LLC. 942 F.3d 1076, 1084 (11th Cir. 2019). So
are identity theft and damages resulting from such theft,
See Resnick v. AvMed, Inc.. 693 F.3d 1317, 1323 (11th
Cir. 2012b as well as wasted time, Salcedo v. Hanna, 936

13a

F.3d 1162,1173 (11th Cir. 2019). A plaintiff can also satis­
fy the concreteness element by showing a "material" risk
of harm. Muranskv. 979 F.3d at 927 (quotation marks
omitted). This Court has said this is a "high standard"
that requires courts to consider the "magnitude of the
risk." Id. This Court has also addressed injuries incurred
while mitigating a risk of harm, such as purchasing a
credit freeze or spending time or effort to minimize a
risk of identity theft. "[A]ny assertion of wasted time and
effort necessarily rises or falls along with this Court's
determination of whether" a risk of injury is a concrete
harm. IcL at 931. For that reason, when a plaintiff faces a
sufficient risk of harm, the time, money, and effort spent
mitigating that risk are also concrete injuries.
We now turn to the actual-or-imminent element.
When there is no actual injury, an imminent injury must
be "certainly impending," as allegations of "possible fu­
ture injury are not sufficient." Clapper v. Amnesty Int'l
USA. 568 U.S. 398, 409,133 S. Ct. 1138, 1147 (2013) (em­
phases and quotation marks omitted). It need not be "lit­
erally certain" that the injury will come about, but there
must be a "substantial" risk. Id at 414 n.5, 133 S. Ct. at
1150 n.5 (quotation marks omitted).
Applying these principles to the case before us, Plain­
tiffs have plausibly alleged an injury in fact.9 Plaintiffs
alleged that "hackers obtained at least 146.6 million
names, 146.6 million dates of birth, 145.5 million Social
Security numbers, 99 million addresses, 17.6 million
9 Mr. Huang says Plaintiffs forfeited any arguments in support of
standing by not raising them in the District Court. But Plaintiffs
pled countless allegations of injury in their complaint. We therefore
reject Mr. Huang's argument.

14a

driver's license numbers, 209,000 credit card numbers,
and 97,500 tax identification numbers." With tbis infor­
mation, Plaintiffs alleged that "identity thieves can create
fake identities, fraudulently obtain loans and tax refunds,
and destroy a consumer's credit-worthiness." Plaintiffs
also alleged they "remain subject to a pervasive, substan­
tial and imminent risk of identity theft and fraud" due to
the "highly-sensitive nature of the information stolen,"
and that they spent time, money, or effort dealing with
the breach. Given the colossal amount of sensitive data
stolen, including Social Security numbers, names, and
dates of birth, and the unequivocal damage that can be
done with this type of data, we have no hesitation in hold­
ing that Plaintiffs adequately alleged that they face a
"material" and "substantial" risk of identity theft that sat­
isfies the concreteness and actual-or-imminent elements.
See Muranskv. 979 F.3d at 927; Clapper. 568 U.S. at 414
n.5,133 S. Ct. at 1150 n.5.
The actual identity theft already suffered by some
Plaintiffs further demonstrates the risk of identity theft
all Plaintiffs face—though actual identity theft is by no
means required when there is a sufficient risk of identity
theft. Here, dozens of Plaintiffs allege they have already
had their identities stolen and thus suffered injuries in
many different ways. Specifically, those who suffered
identity theft had numerous unauthorized charges and
accounts made in their name; incurred specific numerical
drops in their credit scores; had their ability to obtain
loans affected; purchased credit monitoring; and spent
time, money, and effort trying to mitigate their injuries,
including disputing fraudulent activity, filing police re­
ports, and otherwise dealing with identity theft. There is

15a

no dispute that these Plaintiffs' allegations of identity
theft and resulting damages "constitute[] arT Injury in
fact under the law."10 Resnick, 693 F.3d at 1323. As such,
the allegations of some Plaintiffs that they have suffered
injuries resulting from actual identity theft support the
sufficiency of all Plaintiffs' allegations that they face a
risk of identity theft. Indeed, in Tsao v. Captiva MVP
Restaurant Partners. LLC. 986 F.3d 1332 (11th Cir.
2021), our Court recently recognized that "some allega­
tions of actual misuse or actual access to personal data"
support Article III standing for "a data breach based on
an increased risk of theft or misuse." Id. at 1340 (collect­
ing cases); See also, e.g., McMorris v. Carlos Lopez &
Assocs.. LLC. 995 F.3d 295, 301-02 (2d Cir. 2021)
("[C]ourts have been more likely to conclude that plain­
tiffs have established a substantial risk of future injury
where they can show that at least some part of the com­
promised dataset has been misused.") (collecting cases).
Beyond the sufficient risk of identity theft and result­
ing injuries, a vast number of Plaintiffs who have not yet
suffered identity theft also allege they have spent time,
money, and. effort mitigating the risk of identity theft.
Their efforts include purchasing credit freezes, monitor­
ing their financial accounts, and purchasing credit moni10 These Plaintiffs' allegations of this sort of "injury in fact" provide
them with Article III standing. And as noted, only one named plain­
tiff must have standing for any particular claim to advance. Wilding,
941 F.3d at 1124-25. This means we could also undertake a claim-byclaim analysis of the many claims in this case to determine if there is
at least one named plaintiff with the sort of injury required to bring
each claim. But because we conclude that all Plaintiffs have ade­
quately alleged a sufficient risk of identity theft, we need not under­
take this additional task.

16a

toring, among other things. As explained above, because
the risk of harm here is a sufficient injury, the^allega1
tions of mitigation injuries made by these Plaintiffs are
also sufficient. See Muranskv. 979 F.3d at 931 ("[A]ny
assertion of wasted time and effort necessarily rises or
falls along with this Court's determination of whether the
risk posed ... is itself a concrete harm.").
Plaintiffs have easily shown an injury in fact.
ii. Redressability
With the issue of injury now resolved, we move on to
address whether Plaintiffs' injuries are redressed by the
settlement. Mr. Huang says those Plaintiffs who have not
had their identities stolen cannot have their injuries re­
dressed by the settlement because the settlement does
not stop third parties from committing identity theft. We
need not linger on this issue, as Mr. Huang's argument
misunderstands the allegations of the complaint as well
as the nature of the settlement. The Plaintiffs who have
not suffered identity theft did not sue Equifax in order to
stop third parties from committing identity theft. In­
stead, they sued Equifax because of their injuries associ­
ated with the risk of identity theft. As discussed, these
injuries include the time, money, and effort spent miti­
gating the risk of identity theft, including purchasing
credit freezes, monitoring their financial accounts, and
purchasing credit monitoring, among other things.
The settlement redresses the injuries resulting from
these mitigation efforts. Specifically, for each class
member, the settlement includes reimbursement for up
to $20,000 of documented, out-of-pocket losses fairly
traceable to the data breach (e.g., the cost of purchasing

17a

credit freezes and credit monitoring), and compensation
of $25 per hour for up to 20 hours for time spent taking
preventative measures against identity theft. And while
the additional settlement benefits of 10 years of credit
monitoring and seven years of identity restoration ser­
vices might not stop a third party from committing iden­
tity theft, these benefits will help limit Plaintiffs' injuries. *
Credit monitoring can quickly alert Plaintiffs to an iden­
tity theft, and identity restoration services will help min­
imize the time and money spent by Plaintiffs to combat
an identity theft. The settlement thus redresses Plain­
tiffs' injuries. See Lujan, 504 U.S. at 561, 112 S. Ct. at
2136.
2. Case-or-Controversy Requirement
With the issue of standing resolved, we now consider
Mr. Huang's other argument concerning Article III ju­
risdiction. In his view, the District Court lacked jurisdic­
tion to approve the settlement because once the parties
agreed to settle their dispute, there was not a case or
controversy between the parties. Of course, Article III
permits federal courts to address only "cases and contro­
versies," which limits their jurisdiction to "questions pre­
sented in an adversarial context." Graham v. Butterworth, 5 F.3d 496, 498-99 (11th Cir. 1993) (citing Flast v.
Cohen. 392 U.S. 83, 94-95, 88 S. Ct. 1942,1949-50 (1968)).
The controversy must exist at all stages of the litigation.
Preiser v. Newkirk. 422 U.S. 395, 401, 95 S. Ct. 2330,
2334 (1975).
1

We are aware of no court that has adopted Mr.
Huang's idea that a district court is somehow divested of
jurisdiction (and thus lacks authority to approve the set-

18a

tlement) once parties agree to settle a class action. As we
understand Mr. Huang's position, no class action could
ever be approved, because as soon as the parties decide
to settle, the case or controversy would vanish, and the
court would therefore lack jurisdiction to approve the
settlement.
To the contrary, we hold that Article Ill's case-orcontroversy requirement is satisfied throughout the set­
tlement process because the litigation remains in an ad­
versarial posture during that process. First, the parties
themselves remain in adversarial positions until the dis­
trict court approves the settlement. Rule 23(e) states a
class action "may be settled . . . only with the court's ap­
proval." Fed. R. Civ. P. 23(e). This means the parties' de­
cision to settle a class action is not consummated until
the district court actually approves it. Cf. Haven Realty
Corn, v, Coleman. 455 U.S. 363, 371 n.10,102 S. Ct. 1114,
1120 n.10 (1982) (holding that a settlement agreement
did not moot certain claims because the agreement was
"still subject to the approval of the District Court"). In­
deed, the parties remain adversaries all throughout the
settlement approval process because until approval, the
settlement is not final, and if the district court rejects the
settlement, the parties would continue their litigation.
See In re Asbestos Litig., 90 F.3d 963, 988 (5th Cir. 1996)
(holding Article Ill's case-or-controversy requirement
was satisfied, notwithstanding a settlement, in light of
the "the adversarial positions which the parties occupied
before settlement negotiations and the positions to which
they will return if the settlement is not approved"), va­
cated on other grounds, Ortiz v. Fibreboard Corn.. 521
U.S. 1114,117 S. Ct. 2503 (1997) (mem.).

19a

Second, because the district court acts as a fiduciary
for the class,-there remains adversity between the classand the defendant. Rule 23(e) requires the district court
to ensure the settlement is "fair, reasonable, and ade­
quate." Fed. R. Civ. P. 23(e)(2). The district court thus
takes on a type of fiduciary role for the class, NPAS Sols..
975 F.3d at 1253* and works to ensure the settlement is
"noncollusive in nature," 4 Newberg § 13:40; See also
Manual for Complex Litigation § 21.61 ("[T]he judge
must adopt the role of a skeptical client and critically ex­
amine . . . the proposed settlement terms[.]"). Our Court
directs district judges to exercise "careful scrutiny" in
order to "guard against settlements that may benefit the
class representatives or their attorneys at the expense of
absent class members." Holmes v. Cont'l Can Co.. 706
F.2d 1144, 1147 (11th Cir. 1983) (quotation marks omit­
ted). Third and finally (and as this case demonstrates),
objectors cause the settlement process to be more adver­
sarial. While the settling parties may agree about the
prospect of settlement, class action settlements are rou­
tinely subjected to objections that "provide the court an
adversarial presentation of the issues under review,
bringing the decision-making process closer to a familiar
judicial decision." 4 Newberg § 13:40.
B. Requirements Imposed on the Objectors
Having established jurisdiction, we now turn to the
Objectors' various challenges to the District Court's deci­
sions in this case. After Plaintiffs and Equifax presented
their final settlement agreement to the District Court,
that court ordered notice of the settlement agreement to
be provided to the class, such that members of the class
had the opportunity to opt-out of the class or object to

20a

the settlement. In the order directing notice to the class,
the District Court imposed a number of administrative
requirements on those class members who wished to ob­
ject. The District Court explained that it imposed these
requirements because in a class action case it previously
handled, an objector came in "out of the blue" and creat­
ed a "really chaotic process." It also found that such re­
quirements can help "expose objections that are lawyerdriven and filed with ulterior motives."
Among other things, the District Court required that
each objection include: the objector's name and address;
the objector's personal signature; the grounds for the ob­
jection; previous objections in recent class actions; and
dates on which the objector was available to be deposed.
In addition, if the objector had counsel who intended to
speak at the fairness hearing, the objection needed to
include the legal and factual basis for the objection and
the evidence to be offered at the hearing. Finally, if the
objector had counsel who sought compensation from an­
yone other than the objector, the objection needed to in­
clude counsel's previous objections in recent class actions,
counsel's experience in class action litigation, and infor­
mation on the fees sought. Mr. Davis says these adminis­
trative requirements infringed on the objectors' right to
be heard and to be represented by counsel in their objec­
tions. More to the point, he says that by imposing these
requirements on objectors, including those with counsel,
the District Court limited their right to object and de­
terred objections.11

11 Mr. Davis also says the requirements allowed the District Court to
reject objections on technical grounds. However, the District Court

21a

We review-a-district- court's management—of-a- class
action for abuse of discretion. See Oppenheimer Fund.
Inc, v. Sanders. 437 U.S. 340, 342, 98 S. Ct. 2380, 2385
(1978) (applying abuse of discretion standard to a district
court's order "concern[ing] the conduct of class actions"
under Rule 23). Rule 23 grants district courts broad dis­
cretion to manage class actions. See Nissan Motor Corp.,
552 F.2d at 1096 ("In the management of class actions,
[Rule] 23 necessarily vests the district courts with a
broad discretion to enable efficacious administration of
the course of proceedings before it."); Gulf Oil Co. v.
Bernard. 452 U.S. 89, 100, 101 S. Ct. 2193, 2200 (1981)
("Because of the potential for abuse, a district court has
both the duty and the broad authority to exercise control
over a class action and to enter appropriate orders gov­
erning the conduct of counsel and parties."). For instance,
Rule 23 authorizes district courts to "prescribe measures
to prevent undue repetition or complication in presenting
evidence or argument," to "impose conditions on the rep­
resentative parties or on intervenors," and to "deal with
similar procedural matters." Fed. R. Civ. P. 23(d)(1)(A),
(C), (E). At the same time, district courts' discretion is
"not unlimited." Gulf Oil. 452 U.S. at 100, 101 S. Ct. at
2200.
Mr. Davis has failed to show the District Court
abused its discretion here. The District Court explicitly
imposed the requirements outlined here, not to deter ob­
jections or for some arbitrary purpose, but for the ex­
press purpose of avoiding a "chaotic process" in evaluatconsidered and rejected all objections on their merits "whether or
not the objections [were] procedurally valid."

22a

ing the objections. The District Court said it found these
requirements help "expose objections that are lawyerdriven and filed with ulterior motives." The District
Court was well within its broad discretion to impose the
requirements for these stated purposes. See id.; See also,
e.g., In re Deepwater Horizon, 739 F.3d 790, 809 (5th Cir.
2014) (requirement imposed on objector a "legitimate ex­
ercise" of court's discretion to minimize abuse); Manual
for Complex Litigation § 21.662 (courts may be "inclined
to find [discovery from objectors] useful to assess the va­
lidity of the objections"); 4 Newberg § 13:33 ("[C]lass
counsel may seek discovery from objectors on issues
such as the objectors' . . . relationships with the profes­
sional objector counsel.").12
Beyond that, the requirements the District Court im­
posed were not particularly burdensome. Most require­
ments were clerical in nature, such as simply providing
information. The most potentially burdensome require­
ment was being deposed, yet in many instances that was
12 Mr. Davis notes that a recent amendment to Rule 23 requires dis­
trict courts to approve any agreement between an objector and class
counsel in which payment is "provided in connection with" a decision
to forgo or withdraw an objection. See Fed. R. Civ. P. 23(e)(5)(B). In
his view, this means objectors no longer bring meritless objections
with the hope of being paid off, and thus the District Court's re­
quirements were unnecessary. But Mr. Davis's argument assumes
the amendment completely eliminated this type of extortion, which
may not be a settled question. See, e.g.. In re Foreign Exch. Bench­
mark Rates Antitrust Litig.. 334 F.R.D. 62, 64 (S.D.N.Y. 2019) ("Ap­
proving agreements in these circumstances would serve only to en­
courage objectors or their attorneys to extract this type of pay­
ment!.]"). And even if the question is settled, this District Court did
not abuse its discretion when it imposed the requirements for the
other reasons discussed.

23a

no more than a possibility. And of course, depositions are
a normal part of litigation. See Fed. R. Civ. P. 30, includ7
ing for objectors to class settlements, See In re Cathode
Ray Tube (CRT) Antitrust Litig., 281 F.R.D. 531, 532,
534 (N.D. Cal. 2012) (ordering objector to sit for deposi­
tion regarding the "bases for his objection" and his "rela­
tionship with 'professional' or 'serial' objector counsel");
See also Granillo v, FCA US LLC, 2018 WL 4676057, at
*7 (D.N.J. Sept. 28, 2018) ("[Cjourts across the countryhave approved .. . depositions of objectors who have vol­
untarily inserted themselves into [an] action[.]" (quota­
tion mark omitted)); In re Netflix Privacy Litig., 2013
WL 6173772, at *5 (N.D. Cal. Nov. 25, 2013) ("[WJhile ab­
sent class members are not normally included in discov­
ery, Objectors have voluntarily inserted themselves into
this action, and as such, depositions of the Objectors are
relevant and proper.").13
To be sure, discovery requirements may in some cas­
es "dissuade class members from exercising their right to
object." 4 Newberg § 13:33. But here, the District Court
found that any concerns about requirements deterring
objections were "at odds with the number of objections
received" and the fact that "few objectors had difficulty
meeting these criteria." Mr. Davis has not shown the Dis­
trict Court erred in making this finding, especially given
that the requirements were not particularly burdensome.
13 There seems to be a dispute about whether all objectors were sub­
ject to depositions or just those that were represented by counsel.
But Mr. Davis, who was not represented by counsel in his objection,
admits that Plaintiffs sought to depose him. Thus, it appears both
represented and non-represented objectors were subject to deposi­
tions.

24a

Of course, district courts must remain mindful that
burdensome requirements could-deter-objectors~fronr
exercising their right to object while also fulfilling their
obligation to manage class actions. This can be a difficult
task. Whether a district court abuses its discretion in
striking the right balance will invariably depend on the
facts of each case, and the breadth of a court's discretion
in this regard will tend to ebb and flow with the size and
administrative difficulties of the class action. With this
class of approximately 147 million members, the District
Court acted well within its discretion to impose the re­
quirements it did.
C. Order Certifying Class and Approving Settlement
At the final hearing, after hearing arguments from
Plaintiffs, Equifax, and various objectors, and after giv­
ing its oral rulings, the District Court directed Plaintiffs'
counsel to draft a proposed order "summariz[ing] [the
District Court's] rulings on the motions and [its] adoption
basically of the arguments that have been made by the
Plaintiffs and by Equifax in the hearing today." The Dis­
trict Court instructed Plaintiffs' counsel to obtain
Equifax's approval before submitting the proposed order
to the court, which it would then "consider signing." The
District Court acted pursuant to its local rule, which
states, "[u]nless the Court directs otherwise, all orders ...
orally announced by the district judge in Court shall be
prepared in writing by the attorney for the prevailing
party." N.D. Ga. R. 7.3. There is no indication in the rec­
ord that the proposed order was ever disclosed to the
class or filed on the docket. In fact, Plaintiffs
acknowledge they emailed the proposed order directly to
the District Court.

25a

---- Some_Obj.ectors_challenge this procedure on various
grounds. These challenges include the assertions that:
the District Court erred in adopting a proposed order
"ghostwritten" by Plaintiffs' counsel; engaged in imper­
missible ex parte communications and violated various
rules by failing to disclose the proposed order to the
class; and erred by not including the proposed order in
the appellate record. The Objectors also request that this
case be reassigned to a different judge on remand.14 We
consider each of these issues in turn after addressing one
preliminary matter. Specifically, it is unclear how much
of the proposed order— none at all, only some, or even
verbatim—the District Court adopted. The Objectors
ask us to assume that the District Court adopted the
14 Independently, Mr. Frank also argues that the District Court im­
properly relied on a declaration filed by Professor Robert Klonoff,
who writes on class actions. Mr. Frank says the declaration was in­
admissible under Federal Rule of Evidence 702 because Professor
Klonoff provided a legal opinion. This issue is ultimately unrelated
to the District Court's decision to adopt a proposed order, but Mr.
Frank raises this issue in passing when discussing the proposed or­
der issue, so we address it briefly here. Courts have held that Rule
702 is flexible at the final approval stage. See, e.g., Int'I Union. Unit­
ed Auto., Aerospace, and Agric. Implement Workers of Am. v. Gen.
Motors Corn.. 497 F.3d 615, 636-37 (6th Cir. 2007); see also 4 Newberg § 13:42 ("[Traditional rules of evidence do not necessarily ap­
ply to the fairness hearing."). However, we need not decide whether
Rule 702 applies at the final approval stage because even if Rule 702
applies—and even if Professor Klonoffs declaration violated Rule
702—Mr. Frank fails to show the error was anything other than
harmless. See Furcron v. Mail Ctrs. Plus, LLC. 843 F.3d 1295. 1304
(11th Cir. 2016) ("[E]ven a clearly erroneous evidentiary ruling will
be affirmed if harmless."). Although the District Court said Profes­
sor Klonoffs declaration was "particularly helpful," it expressly stat­
ed its rulings were "not dependent upon his declaration."

26a

proposed order in full, and Plaintiffs and Equifax don't
ask us to-db otherwiserForThe~purposes"of our review,
we therefore assume the District Court adopted the pro­
posed order verbatim.
1. Ghostwritten Order
Mr. Frank and Mr. West say the District Court erred
in adopting a proposed order "ghostwritten" by Plaintiffs'
counsel. This Court has "repeatedly condemned the
ghostwriting of judicial orders by litigants," and cases
admonishing courts for the verbatim adoption of such
orders are "legion." In re Colony Square Co.. 819 F.2d
272, 274-75 (11th Cir. 1987). When such a practice is
permitted, the drafting party has an "overwhelming"
"temptation to overreach and exaggerate." Id. at 275. Be­
yond that, the "quality of judicial decisionmaking suffers
when a judge delegates the drafting of orders to a party,"
as "the writing process requires a judge to wrestle with
the- difficult issues before him and thereby leads to
stronger, sounder judicial rulings." Id.15
Even so, as the parties acknowledge, our Court has
not enforced a per se rule prohibiting this practice. Even
though this Court has sharply critiqued the practice of
having the prevailing party author court orders, we have
continued to approve courts' adoption of proposed orders,
some even verbatim. See, e.g., In re Dixie Broad.. Inc.,
871 F.2d 1023, 1029-30 (11th Cir. 1989) (refusing to va­
cate "ghostwritten" order when judge told all counsel "in
open court" that he asked a party's counsel to draft the
15 We note that Northern District of Georgia Rule 7.3 does not ap­
pear to be in keeping with the admonitions of our Court about this
practice.

27a

order, the other parties did not request the opportunity
-t-o-review-t-he-dra-ft- order- ormakeobjections -to-it^'and'
the parties had ample opportunity to argue their case);
Colony Square, 819 F.2d at 276-77 (practice "not funda­
mentally unfair" because the judge "reached a firm deci­
sion" before asking counsel to draft the proposed order,
which the judge said must reach a particular result and
discuss specific points, and because the losing party "had
ample opportunity to present its arguments"); Fields v.
City of Tarpon Springs. 721 F.2d 318, 320-21 (11th Cir.
1983) (per curiam) (district judge "did not abdicate his
adjudicative role" in the "wholesale adoption of plaintiffs
proposed order" because the judge "had command of the
legal issues and the evidentiary proceedings," "ruled on
the scope and manner of the evidence presented," and
was "an active arbiter of the dispute"); See also Anderson
v. City of Bessemer City, 470 U.S. 564, 572, 105 S. Ct.
1504, 1510-11 (1985) (noting criticism of "courts for their
verbatim adoption of findings of fact prepared by prevail­
ing parties" yet stating "that even when the trial judge
adopts proposed findings verbatim, the findings are
those of the court").
Our guiding principle in determining whether to va­
cate the adoption of a proposed order is whether "the
process by which the judge arrived at [the order] was
fundamentally unfair." Colony Square. 819 F.2d at 276. If
a process was fundamentally fair, then the concerns or­
dinarily associated with a ghostwritten order are greatly
tempered. Without a per se rule, we determine whether a
process was fundamentally unfair by evaluating the facts
of each case. Also, we glean some relevant considerations
from our precedent, including: whether the losing party

28a

had "ample opportunity" to present its arguments, id at
-27-7; -See-akoJDixieJBroad.. 871 F.2d at 1030; whether the
court independently "reached a firm decision" before re­
questing a proposed order, Colony Square, 819 F.2d at
276; See also Fields, 721 F.2d at 320-21; whether the
court, in directing a party to draft the proposed order,
instructed that the order "reach[] a particular result and
discuss[] specific points," Colony Square, 819 F.2d at 276;
whether the court directed a party to draft the proposed
order in open court or otherwise publicly, Dixie Broad.,
871 F.2d at 1030; whether other parties requested the
opportunity to review the proposed order or make objec­
tions to it, id.; and whether the court "had command" of
the issues and proceedings and was an "active arbiter"
throughout the litigation, Fields, 721 F.2d at 320-21.
1

- •

Applying these considerations, we conclude the pro­
cess by which the District Court adopted the proposed
order was not fundamentally unfair. Mr. Frank and Mr.
West both had ample opportunity to present their argu­
ments. Both lodged detailed written objections to the
settlement agreement. Both appeared through counsel at
the final hearing and presented arguments. And contrary
to their assertions, they did have an opportunity to re­
spond to the order. After the District Court adopted the
proposed order, Mr. West moved to amend it. And it's
not as if these opportunities to present their arguments
were hollow procedures; the District Court heard from
Mr. Frank and Mr. West at the fairness hearing, consid­
ered their written objections, and rejected their objec­
tions on the merits. Ultimately, the District Court grant­
ed Mr. West's motion to amend the order over Plaintiffs'

29a

objections and issued a revised order based on West's
^arguments.—
"
The District Court reached a firm decision before ev­
er directing Plaintiffs' counsel to draft a proposed order.
And the District Court instructed that the order reach a
particular result and discuss specific points: the court
told Plaintiffs' counsel that the order should "summarize[]
[its] rulings on the motions and [its] adoption basically of
the arguments that have been made by the Plaintiffs and
by Equifax in the hearing today."16 It even informed
Plaintiffs' counsel that it would only "consider signing"
the proposed order, meaning its instruction to prepare a
proposed order was not a blank check. The District
Court did all this in open court for everyone to hear, in­
cluding the Objectors, and not one of them objected to
the process nor requested the opportunity to review the
proposed order or make objections to it. There is also no
question the District Court was an active arbiter of this
litigation and had great command of the proceedings.
16 We don't find it significant that the District Court's written order
was more detailed than its oral ruling. District courts often provide a
summary ruling from the bench, which is later memorialized in a
longer written order. And in any event, it is ultimately the District
Court's written order that controls in civil cases. See, e.g., Billinp-sley v. Jefferson County, 953 F.2d 1351, 1354 (11th Cir. 1992) ("[T]he
district court's memorandum opinion constitutes its findings of facts
and conclusions of law," as the district court was not bound by its
"findings of fact, rulings, or conclusions of law made during the
course of [the] trial."); Mercantel v. Michaeh& Sonia Saltman Fami­
ly Tr„ 993 F.3d 1212, 1239 & n.23 (10th Cir. 2021) (approving ghost­
written summary judgment order, even though "the final written
decision cover[ed] additional issues not explicitly addressed at the
hearing," because "at least in civil cases, a court's written decision
generally controls over ... an earlier oral ruling").

30a

For instance, the District Court-issued a detailed- ruling
on Equifax's motion to dismiss and engaged with the is­
sues at the fairness hearing. Finally, the fact that the
District Court granted the motion to dismiss in part and
denied it in part, and that it granted Mr. West's motion
to amend the approval order over Plaintiffs' objections,
shows us the court was not beholden to any party. Be­
cause the process by which the District Court adopted its
order was not fundamentally unfair, we will not vacate
the order.
We caution that courts should not view this decision
as condoning the District Court's practice. Judicial
ghostwriting remains most unwelcome in this Circuit.
For this reason, and pursuant to our supervisory power,
we strongly urge the District Court to reconsider the lo­
cal rule, See N.D. Ga. R. 7.3, that brought about this
problem in the first place. See Piambino v. Bailey, 757
F.2d 1112, 1145-46 (11th Cir. 1985) (stating this Court
has the "power to supervise the district courts" in a "wide
variety of situations," including in formulating rules of
civil litigation, in order to "ensure that the judicial pro­
cess remains a fair one").
2. Ex Parte Communications
Mr. Frank and Mr. West next argue there were im­
permissible ex parte communications in the District
Court because Plaintiffs' counsel failed to disclose the
proposed order to the class. They say the ex parte com­
munications violated Canon 3(A)(4) of the Code of Con­
duct for United States Judges and various local rules.

31a

Any ex parte communications were harmless srror.ll
See Colony Square. 819 F.2d at 276 (citing Rushen v.
Spain, 464 U.S. 114,104 S. Ct. 453 (1983)) (noting that ex
parte communications can be upheld when the error is
harmless). We reach this conclusion for four reasons.
First, at the Objectors' request, we assume the District
Court adopted the proposed order verbatim, so for the
purposes of our review the Objectors are privy to the ex­
act communications they claim were made ex parte. Se­
cond, as discussed above, the District Court's process
was not fundamentally unfair, and thus we can affirm its
decision notwithstanding any ex parte communications.
See id. at 276-77. Indeed, it appears that the District
Court in Colony Square engaged in more obvious ex
parte communications than what the Objectors assert
here, and yet this Court held there was no fundamental
unfairness and thus upheld the order at issue there. In
Colony Square, the judge called the prevailing party's
lawyer after the hearing and asked him to draft the or­
der. RL at 274. The lawyer's firm delivered the draft or­
der to the judge, and the losing party was not notified of
any ex parte communications. Id. Here, by contrast, the
District Court requested that Plaintiffs' counsel draft a
proposed order in open court, and no one objected to the
process or requested to see a copy of the proposed order.
Third, as discussed throughout this opinion, we iden­
tify no errors made by the District Court, so we cannot
say any ex parte communications caused the court to err

17 Because we hold that any ex parte communications were harmless
error, we need not address whether the communications violated
Canon 3(A)(4) or any local rules.

32a

in a way that prejudiced the Objectors.18 See United
States v. Adams. 785 F.2d 917, 921 (11th Cir. 1986) (hold­
ing ex parte communications were harmless error when
there was no prejudice). Finally, the record demon­
strates that the Objectors had the opportunity to take up
with the judge any problems they identified. After the
District Court issued the approval order, about which
these Objectors complain, Mr. West moved to amend it.
The District Court granted Mr. West's motion and issued
a revised order based on his arguments. This too shows a
lack of prejudice and thus, at most, harmless error. See
id.
3. Record on Appeal
In the District Court, some of the Objectors moved
for the appellate record to be supplemented with the
proposed order under Federal Rule of Appellate Proce­
dure 10(e). Relevant here, Rule 10(e) says "[i]f any dif­
ference arises about whether the record truly discloses
what occurred in the district court, the difference must
be submitted to and settled by that court and the record
conformed accordingly." Fed. R. App. P. 10(e)(1). In oth­
er words, the appellate record need not be supplemented
when the record "truly discloses what occurred in the
district court." Hoover v. Blue Cross & Blue Shield of
Ala.. 855 F.2d 1538, 1543 n.5 (11th Cir. 1988) (quotation
marks omitted). The District Court ultimately denied the
18 As addressed later, we must remand this case to the District
Court for it to vacate the incentive awards for the class representa­
tives based on this Court's decision in NPAS Solutions, which post­
dated the District Court's order. This of course is not an error that
resulted from any ex parte communications, and thus it does not
amount to prejudice.

33a

Objectors' motion, finding Rule 10(e) did not apply because "the record truly discloses what occurred in the
district court."
Mr. Frank and Mr. West challenge this ruling and
take issue with the fact that the proposed order is not in
the record on appeal. They wish to supplement the rec­
ord in order to show that the final order was a verbatim
copy of the proposed order. Mr. Davis likewise says the
public has a right to view the proposed order, primarily
to determine whether the District Court adopted it in full.
But in light of our decision to accede to the Objectors'
request that we assume a verbatim adoption of the pro­
posed order by the District Court, there is no need to
supplement the record with this material on appeal. Id
Because we assume the proposed order (which is not in
the record) is identical to the approval order under re­
view here (which is in the record), the record on appeal
reflects what occurred in the District Court, at least for
purposes of our review.
4. Reassignment on Remand
1

In light of the foregoing supposed errors, as well as
some other late-breaking allegations of bias, Mr. Frank
and Mr. West ask us to reassign this case to a different
judge on remand. As discussed below, we must remand
this case to the District Court solely for it to vacate the
incentive awards. We therefore must briefly discuss the
issue of reassignment on remand.
To begin, it's not obvious to us that we have the authority
to reassign this case. This case was assigned to Chief
Judge Thrash by the United States Judicial Panel on
Multidistrict Litigation (the "Panel"). Under the Panel's

34a

rules, ”[i]f for any reason the transferee judge is unable
to continue [its] responsibilities, the Panel shall make the
reassignment of a new transferee judge." Rules of Pro­
cedure of the United States Judicial Panel on Multidis­
trict Litigation, Rule 2.1(e) (emphasis added); See In re
IKO Roofing Shingle Prods. Liab. Litig.. 757 F.3d 599,
600 (7th Cir. 2014) (explaining that 28 U.S.C. § 1407(b)
"gives the Panel exclusive power to select the judge").
But we need not decide that question because reas­
signment is not justified here. Reassignment is a "severe
remedy," which is "only appropriate where the trial judge
has engaged in conduct that gives rise to the appearance
of impropriety or a lack of impartiality in the mind of a
reasonable member of the public." Comparelli v.
Republica Bolivariana de Venezuela. 891 F.3d 1311, 1328
(11th Cir. 2018) (quotation marks omitted). The Objec­
tors have not shown any actual bias from Chief Judge
Thrash. While they certainly disagree with his decisions,
"judicial rulings alone almost never constitute a valid ba­
sis for a bias or partiality motion." Liteky v. United
States. 510 U.S. 540, 555,114 S. Ct. 1147,1157 (1994).
Without any indication of actual bias, this Court con­
siders three factors when deciding whether to reassign a
case: "(1) whether the original judge would have difficul­
ty putting [his] previous views and findings aside; (2)
whether reassignment is appropriate to preserve the ap­
pearance of justice; [and] (3) whether reassignment
would entail waste and duplication out of proportion to
gains realized from reassignment." Comparelli. 891 F.3d
at 1328 (quotation marks omitted) (quoting United
States v. Torkington, 874 F.2d 1441,1447 (11th Cir. 1989)
(per curiam)). No factor supports reassignment here. As

35a

to the first factor, Chief Judge Thrash would not have
difficulty putting his views aside, as the record indicates
he corrects his mistake and amends his orders when he
thinks he reached the wrong result. For instance, he re­
vised the approval order after Mr. West moved to amend.
For the second factor, Mr. Frank and Mr. West have not
shown how reassignment is appropriate to preserve the
appearance of justice. Finally, the third factor clearly
weighs against reassignment. This is a colossal multidis­
trict litigation case with over 1200 docket entries in the
District Court over the course of just a few years. Reas­
signment would create enormous waste and duplication.
In support of reassignment, Mr. Frank and Mr. West
rely heavily on Chudasama v. Mazda Motor Corn., 123
F.3d 1353 (11th Cir. 1997), in which this Court reas­
signed a case on remand in part because of "the court's
practice of uncritically adopting counsel's proposed or­
ders." Id. at 1373 n.46. Chudasama is far from on point.
For one, as discussed above, the District Court's decision
to adopt the proposed order at issue here was not fun­
damentally unfair. Beyond that, the Objectors have not
established a "practice" by the District Court of "uncriti­
cally adopting" proposed orders. Id. Finally, this case in­
volves none of the four other considerations that contrib­
uted to this Court's decision to reassign the case in
Chudasama. See id.
D. Settlement Approval
We now turn to the substance of the approval order,
beginning with the District Court's approval of the set­
tlement agreement. A class action may be settled only
with court approval, which requires the court to find the

36a

settlement "fair, reasonable, and adequate" based on a
number of factors. Fed. R. Civ. P. 23(e)(2).19 This Court
has also instructed district courts to consider several ad­
ditional factors called the Bennett factors. See Bennett.
737 F.2d at 986. The factors include (1) "the likelihood of
success at trial"; (2) "the range of possible recovery"; (3)
"the point on or below the range of possible recovery at
which a settlement is fair, adequate and reasonable"; (4)
"the complexity, expense and duration of litigation"; (5)
"the substance and amount of opposition to the settle­
ment"; and (6) "the stage of proceedings at which the set­
tlement was achieved." Id. The District Court here con19 The Rule 23(e)(2) factors include whether:
(A) the class representatives and class counsel have adequately
represented the class;
(B) the proposal was negotiated at arm's length;
(C) the relief provided for the class is adequate, taking into ac­
count:
(i) the costs, risks, and delay of trial and appeal;
(ii) the effectiveness of any proposed method of distributing
relief to the class, including the method of processing classmember claims;
(iii) the terms of any proposed award of attorney's fees, in­
cluding timing of payment; and
(iv) any agreement required to be identified under Rule
23(e)(3); and
(D) the proposal treats class members equitably relative to each
other.
Fed. R. Civ. P. 23(e)(2). The Objectors do not challenge the District
Court's application of the Rule 23(e)(2) factors, so we do not address
them in depth. Although Mr. Frank says in passing that Rule
23(e)(2)(D) was not satisfied, he does not press it with any argument
or authority. We therefore treat his argument abandoned. See Ac­
cess Now, Inc, v. Sw. Airlines Co.. 385 F.3d 1324, 1330 (11th Cir.
2004).

37a

sidered the Rule 23(e)(2) factors and the Bennett factors
and found the settlement was "fair, reasonable, and ade­
quate" and that the settlement's relief "exceeds the relief
provided in other data breach settlements and ... is in
the high range of possible recoveries if the case had suc­
cessfully been prosecuted through trial."
We review an order approving a class action settle­
ment for abuse of discretion. Ault v. Walt Disney World
Co.. 692 F.3d 1212, 1216 (11th Cir. 2012). And because
"[determining the fairness of the settlement is left to the
sound discretion of the trial court," we will not overturn
its decision "absent a clear showing of abuse of that dis­
cretion." Bennett. 737 F.2d at 986 (emphasis added); See
also 4 Newberg § 13:47 ("[AJppellate courts review the
approval decision under a highly deferential abuse of dis­
cretion standard.").
This degree of deference to a decision approving a
class action settlement makes sense. Settlements resolve
differences and bring parties together for a common res­
olution. See Nissan Motor Corn., 552 F.2d at 1105 ("Set­
tlement agreements are highly favored in the law and
will be upheld whenever possible because they are a
means of amicably resolving doubts and uncertainties
and preventing lawsuits." (quotation marks omitted)).
Settlements also save the bench and bar time, money,
and headaches. See 4 Newberg § 13:44 ("The law favors
settlement, particularly in class actions and other com­
plex cases where substantial resources can be conserved
by avoiding lengthy trials and appeals."). As such, there
is a "strong judicial policy favoring settlement." Bennett.
737 F.2d at 986.

38a

Mr. Cochran challenges_this_settlement approvaLhecause he says the District Court's approval order failed
to recognize the "unique risks associated with stolen So­
cial Security numbers," which means the settlement in­
cludes inadequate relief to remedy those risks. From this
vantage point, he thinks the District Court misapplied
two of the Bennett factors: "the range of possible recov­
ery" and "the point on or below the range of possible re­
covery at which a settlement is fair, adequate and rea­
sonable." Ich
Mr. Cochran has failed to show an abuse of discretion,
as the record clearly demonstrates the District Court
was aware of the unique risks associated with stolen So­
cial Security numbers. The complaint alleged, among
other things, that "all of the 147.9 million Americans
whose information was stolen in the breach remain sub­
ject to a pervasive, substantial and imminent risk of iden­
tity theft and fraud, a risk that will continue so long as
Social Security numbers have such a critical role in con­
sumers' financial lives." In its order on Equifax's motion
to dismiss, the District Court acknowledged the data
breach involved Social Security numbers and that
"[ujsing this information, identity thieves can create fake
identities, fraudulently obtain loans and tax refunds, and
destroy a consumer's credit-worthiness." And at the fair­
ness hearing for approval of the settlement, both Plain­
tiffs' counsel and an objector discussed the risks associ­
ated with stolen Social Security numbers. Finally, the
District Court's approval order expressly highlighted
that the settlement includes a "lengthy period" of credit
monitoring and "identity theft insurance and identity res­
toration services—features designed to address identity

39a

theft." In this way, the approval order recognized_that
the settlement includes measures to redress the very
risks Mr. Cochran says the District Court ignored.
We also reject Mr. Cochran's view that the District
Court misapplied two of the Bennett factors: "the range
of possible recovery" and "the point on or below the
range of possible recovery at which a settlement is fair,
adequate and reasonable." Bennett. 737 F.2d at 986.
When considering these factors, the Court found the set­
tlement was "fair, reasonable, and adequate because the
settlement reflects relief the Court finds is in the high
range of what could have been obtained had the parties
continued to litigate." Because the District Court was
aware of the risks associated with stolen Social Security
numbers and found that the settlement includes benefits
to redress those risks, there is no "clear showing" that
the District Court abused its discretion in applying these
factors. See id. And while Mr. Cochran might wish for
longer credit monitoring and identity theft restoration
services, such quibbling with a settlement's terms is not a
part of an abuse of discretion review. See Cotton v. Hin­
ton. 559 F.2d 1326, 1330 (5th Cir. 1977) (trial judge
"should be hesitant to substitute its own judgment for
that of counsel"); Manual for Complex Litigation § 21.61
("The judge cannot rewrite the agreement."); See also
Bennett. 737 F.2d at 986 ("[Cjompromise is the essence
of settlement.").
E. Class Certification
In addition to approving the settlement, the District
Court's order also certified the class action for settle­
ment purposes. Rule 23 sets forth a number of require-

40a

ments that a class action must meet in order for a district
court to certify the class. First, all four requirements in
Rule 23(a) must be satisfied: (1) the class must be "so
numerous that joinder of all members is impracticable";
(2) there must be "questions of law or fact common to the
class"; (3) the class representatives' claims or defenses
must be "typical" of the class's claims or defenses; and (4)
the class representatives must "fairly and adequately
protect the interests of the class." Fed. R. Civ. P. 23(a);
See Vega v, T-Mobile USA. Inc.. 564 F.3d 1256, 1265
(11th Cir. 2009). These four requirements are often re­
ferred to as the numerosity, commonality, typicality, and
adequacy requirements, respectively. See Vega, 564 F.3d
at 1265.
In addition to meeting these four requirements, a
class action must also satisfy one of the three parts of
Rule 23(b). Fed. R. Civ. P. 23(b); See Vega. 564 F.3d at
1265. The District Court here found that the class action
satisfied Rule 23(b)(3). Rule 23(b)(3) requires that "ques­
tions of law or fact common to class members predomi­
nate over any questions affecting only individual mem­
bers, and that a class action is superior to other available
methods for fairly and efficiently adjudicating the con­
troversy." Fed. R. Civ. P. 23(b)(3). We review a class cer­
tification ruling for abuse of discretion. See Ault, 692
F.3d at 1216.
Only Mr. Frank challenges the District Court's class
certification ruling, and he does so only as to the adequa­
cy requirement.20 We thus focus solely on the adequacy
20 When discussing Article III standing, Mr. Huang briefly says
Rule 23(b)(3)'s predominance requirement is not met. He does not

41a

requirement in Rule 23(a)(4). The adequacy requirement
is that a class representative "must adequately protect
the interests of those he purports to represent." Valiev
Drug Co. v. Geneva Pharms., LLC, 350 F.3d 1181, 1189
(11th Cir. 2003) (quotation marks omitted). To determine
whether the adequacy requirement is met, we ask: "(1)
whether any substantial conflicts of interest exist be­
tween the representatives and the class; and (2) whether
the representatives will adequately prosecute the action."
Id. (quotation marks omitted). Mr. Frank's challenge
concerns only the first question, further narrowing our
focus. According to Mr. Frank, there is a fundamental
conflict of interest between the class representatives and
the class because some class members had state statuto­
ry damages claims while others did not. He says there
should have been subclasses and separate counsel to ad­
dress these different types of claims.
Minor differences in the interests of the class repre­
sentatives and the class are not enough to defeat class
certification under the adequacy requirement. Li In­
stead, only a "fundamental" conflict "going to the specific
issues in controversy" can defeat class certification. Id.
(quotation marks omitted); See 1 Newberg § 3:58 ("[N]ot
every potential distinction ... will render the representa­
tive inadequate. Only conflicts that are fundamental to
the suit and that go to the heart of the litigation prevent
a plaintiff from meeting the Rule 23(a)(4) adequacy re­
quirement." (footnote omitted)). A conflict is fundamental
"where some party members claim to have been harmed
by the same conduct that benefited other members of
press this assertion with any argument, so we consider it aban­
doned. See Access Now. 385 F.3d at 1330.

42a

the class." Valley Drug, 350 F.3d at 1189. This Court has
also recognized that a class action "cannot be certified
when its members have opposing interests" or "where the
economic interests and objectives of the named repre­
sentatives differ significantly from the economic inter­
ests and objectives of unnamed class members." Id at
1189-90 (quotation marks omitted).
Mr. Frank has failed to show the District Court
abused its discretion in certifying the settlement class.
There is no dispute that all these Plaintiffs' claims arise
out of the same unifying event, Equifax's data privacy
breach. Likewise, all Plaintiffs seek redress for the same
injury. They all seek compensation for injuries associat­
ed with the risk of identity theft. There is also no dispute
that the data breach harmed all class members and made
none better off. See Id. at 1189. Indeed, the class is ex­
pressly limited to the "U.S. consumers identified by
Equifax whose personal information was compromised."
It is true that some class members had state law
statutory damages claims while others did not, but we
don't view that difference as a "fundamental" conflict "go­
ing to the specific issues in controversy." Id, As Mr.
Frank acknowledged at oral argument, only the District
of Columbia and Utah statutory damages claims are be­
fore us on appeal. For one thing, Mr. Frank's singular
devotion to the D.C. and Utah claims ignores the fact
that all class members had negligence and negligence
per se claims under Georgia law that united the class.
What's more, Mr. Frank fails to show that the two statu­
tory damages claims were valuable, as he demonstrates
nothing about how the claims were a sure bet. In fact, he
doesn't cite a single case in which a plaintiff recovered

43a

statutory damages under either statute in a data breach
case.
Even a brief review of the D.C. and Utah claims re­
veals significant barriers to Plaintiffs' success. While the
D.C. Code authorizes certain damages for a data breach,
this provision wasn't enacted until 2020, well after the
data breach here occurred in 2017. See Security Breach
Protection Amendment Act of 2020, D.C. Laws 23-98
(2020). Perhaps Plaintiffs could have tried to frame the
data breach as a violation of D.C.'s prohibition against
certain unfair or deceptive trade practices, See D.C.
Code § 28-3904, but that presents its own set of issues
about proving that a breach by a third party was an un­
fair or deceptive trade practice by Equifax. The Utah
claim, in turn, required Plaintiffs to show Equifax en­
gaged in a "[cjonsumer transaction" and "knowingly or
intentionally" violated an enumerated prohibition. Utah
Code §§ 13-11-3(2), -4(2). Given that Equifax might not
have been in privity with Plaintiffs and that this case
arose out of a breach by a third party, these require­
ments may well have been difficult to show. Therefore, to
the extent some class members had D.C. or Utah statu­
tory damages claims while others did not, there were no
opposing or economic interests that were at odds.
The District Court's decision aligns with the reasoned
approach adopted by courts in other data breach cases.
For instance, in In re Anthem. Inc. Data Breach Litiga­
tion. 327 F.R.D. 299 (N.D. Cal. 2018), the District Court
found the adequacy requirement satisfied because all
class members had their personal information compro­
mised in the same data breach and generally sought the
same relief. Id, at 309-11. Beyond that, the District Court

44a

found that even though there might have been variations
in state law, the named representatives included "indi­
viduals from each state" and the differences in state rem­
edies were not "sufficiently substantial so as to warrant
the creation of subclasses." Id. at 310 (quotation marks
omitted). The same reasoning applies here. The class
members all had their personal information compro­
mised in the same data breach; they seek redress for
similar injuries; and, to the extent some members have
statutory damages under state law and others do not,
there are class representatives from every single state
and, due to litigation risks, the differences in remedies
are not "sufficiently substantial so as to warrant the crea­
tion of subclasses." Id (quotation marks omitted); See
also In re Target Corn. Customer Data Sec. Breach
Litig.. 2017 WL 2178306, at *6 (D. Minn. May 17, 2017)
(noting the "availability of potential statutory damag­
es ... does not, by itself, mean that the interests of these
class members are antagonistic to the interests of class
members from other jurisdictions," particularly in light
of the "substantial barriers to any individual class mem­
ber actually recovering statutory damages").
By contrast, the decisions Mr. Frank relies on, in
which courts held that class actions failed to satisfy the
adequacy requirement, are inapposite. For instance,
Ortiz v. Fibreboard Corn.. 527 U.S. 815, 119 S. Ct. 2295
(1999) and Amchem Products. Inc, v. Windsor. 521 U.S.
591, 117 S. Ct. 2231 (1997), addressed two class actions
against asbestos manufacturers, neither of which in­
volved statutory damages claims. Ortiz. 527 U.S. at 82122,119 S. Ct. at 2302-03; Amchem. 521 U.S. at 597,117 S.
Ct. at 2237. The plaintiffs had diametrically different in-

45a

juries within each class action. Some plaintiffs in the
classes had already suffered physical injury as a result of
exposure to asbestos, while others might have been at
risk of injury in the future. Ortiz. 527 U.S. at 856, 119 S.
Ct. at 2319; Amchem. 521 U.S. at 602-03, 117 S. Ct. at
2240. This meant some plaintiffs wanted compensation
immediately while others wanted it in the future. Ortiz,
527 U.S. at 856, 119 S. Ct. at 2320; Amchem. 521 U.S. at
626, 117 S. Ct. at 2251. Here, by contrast, Plaintiffs al­
leged that they face the same risk of identity theft and,
among other things, sought the same compensatory
damages for that injury. Plaintiffs likewise all receive the
same benefits to redress that shared injury. And while
Ortiz was also based on the fact that some plaintiffs had
more valuable claims than others, See Ortiz. 527 U.S. at
857, 119 S. Ct. at 2320, that's not the case here. For the
. reasons set out above, Mr. Frank has failed to show how
the D.C. and Utah statutory damages claims increased
the value of certain Plaintiffs' cases.
Mr. Frank's reliance on In re Literary Works in
Electronic Databases Copyright Litigation. 654 F.3d 242
(2d Cir. 2011), even if it was binding on this Court, is
even further off the mark. In Literary Works, there were
three groups of claims (Categories A, B, and C, which
had claims that decreased in value respectively) involving
three different provisions of the Copyright Act. Id at 246.
The proposed settlement said that if all claims exceeded
a set cap, Category C claims would be reduced pro rata
first, such that those with just Category C claims might
end up with nothing. Id, The Second Circuit reasoned the
adequacy requirement of Rule 23(a)(4) was not met be­
cause Category A and Category B claims were "more lu-

46a

crative" than Category C claims and because the reduc­
tion of Category C claims could "deplete the recovery of
Category C-only plaintiffs in their entirety before the
Category A or B recovery would be affected." Id at 252,
254. But here (putting aside the already addressed issue
of the value of the statutory damages claims), there is no
risk that any members of the class will have their ability
to get settlement benefits reduced to zero because some
other members got more relief from the settlement. In­
stead, all class members are entitled to the same class
benefits.
At bottom, this record reflects no fundamental con­
flict between the class representatives and the rest of the
class, and thus the adequacy requirement under Rule
23(a)(4) was satisfied. The District Court therefore did
not abuse its discretion in certifying the class action.21
F. Attorney's Fee Award
In addition to approving the settlement as fair, rea­
sonable, and adequate and certifying the class action for
settlement purposes, the District Court also approved
21 Mr. Frank also says the District Court erred in finding that sepa­
rate subclasses and representation would not benefit the class as a
whole. Related to our conclusion that the District Court did not
abuse its discretion in certifying the settlement class is our conclu­
sion that the District Court did not err in its separate finding that
subclasses would not benefit the class as a whole. See, e.g., In re Oil
Spill by Oil Rig Deepwater Horizon in Gulf of Mex., on Apr. 20. 2010.
910 F. Supp. 2d 891, 918-19 (E.D. La. 2012) ("In the absence of con­
flicts between members of the Settlement Class, subclasses are nei­
ther necessary, useful, nor appropriate here.. . . Such rigid formal­
ism, which would produce enormous obstacles to negotiating a class
settlement with no apparent benefit, is not required and could even
reduce the negotiating leverage of the class.").

47a

Plaintiffs' counsel's request for $77.5 million in attorney's
fees. See Fed. R. Civ. P. 23(h) ("In a certified class action,
the court may award reasonable attorney's fees and nontaxable costs that are authorized by law or by the parties'
agreement."). Relying on our precedent in Camden I
Condominium Association. Inc, v. Dunkle. 946 F.2d 768
(11th Cir. 1991)! the District Court applied what's called
the percentage method. In Camden I, this Court held
that in common fund settlements like this one, an attor­
ney's fee award "shall be based upon a reasonable per­
centage of the fund established for the benefit of the
class." Id. at 774. The percentage method requires a dis­
trict court to consider a number of relevant factors called
the Johnson factors in order to determine if the request­
ed percentage is reasonable. See Id. at 772 & n.3, 775
(citing Johnson v. Ga. Highway Express. Inc.. 488 F.2d
714 (5th Cir. 1974)).22 The District Court found the re22 The Johnson factors include 12 factors from the opinion itself:
(1) the time and labor required; (2) the novelty and difficul­
ty of the questions involved; (3) the skill requisite to per­
form the legal service properly; (4) the preclusion of other
employment by the attorney due to acceptance of the case;
(5) the customary fee; (6) whether the fee is fixed or contin­
gent; (7) time limitations imposed by the client or the cir­
cumstances; (8) the amount involved and the results ob­
tained; (9) the experience, reputation, and ability of the at­
torneys; (10) the "undesirability" of the case; (11) the nature
and the length of the professional relationship with the cli­
ent; (12) awards in similar cases.
Camden I. 946 F.2d at 772 & n.3. The Johnson factors also include a
handful of additional factors this Court added in Camden I: "the time
required to reach a settlement, whether there are any substantial
objections by class members or other parties to the settlement
terms or the fees requested by counsel, any non-monetary benefits

48a

quest for $77.5 million in fees was 20.36 percent of the
$380.5 million common settlement fund and found this
percentage was reasonable based on the Johnson factors.
And while noting it was not required to do so, the Dis­
trict Court also used the "lodestar method" as a "cross­
check on the reasonableness of a percentage-based fee"
and found that "the requested fee easily passes muster if
a cross-check is done."
Two Objectors, Mr. Davis and Mr. West, challenge
the District Court's decision. We address their concerns
in turn, reviewing de novo the proper standard for attor­
ney's fee awards and reviewing the District Court’s deci­
sion to award attorney's fees for abuse of discretion.
Loggerhead Turtle v. Cmtv. Council of Volusia Cntv.,
307 F.3d 1318,1322 (11th Cir. 2002).
Mr. Davis makes two arguments. First, he says the
District Court applied the wrong standard and should
have applied the lodestar method,23 not the percentage
method, in determining how much to award in attorney's
fees. In his view, Camden I's percentage method is no
longer good law, as he argues the Supreme Court's deci­
sion in Perdue v. Kenny A. ex rel. Winn, 559 U.S. 542,
130 S. Ct. 1662 (2010)a abrogated Camden I. Perdue is
different, however, because it is a case in which the Suconferred upon the class by the settlement, and the economics in­
volved in prosecuting a class action." Id at 775. The Objectors chal­
lenging the District Court's decision to award attorney's fees do not
directly challenge its application of the factors, so we do not under­
take a complete review of the factors.
23 Under the lodestar method, a district court determines the num­
ber of hours worked by plaintiffs' counsel, multiplies those hours by
a reasonable hourly rate, and then adjusts the final amount upward
or downward based on various factors. Camden I. 946 F.2d at 772.

49a

preme Court applied the lodestar method to claims made
under a fee-shifting statute. Ich at 546,130 S. Ct. at 1669.
Second, Mr. Davis argues Camden I and the percentage
method are "at odds" with a handful of other Supreme
Court cases that "essentially" applied the lodestar meth­
od.
Mr. Davis's first argument is foreclosed by our prec­
edent. It is undisputed that this case involves a common
settlement fund and in NPAS Solutions this Court ex­
pressly held that Camden I is "good law" in common fund
cases and that "Perdue didn't abrogate Camden I." 975
F.3d at 1262 n.14; See also In re Home Depot Inc., 931
F.3d 1065, 1084-85 (11th Cir. 2019) ("There is no question
that the Supreme Court precedents stretching from
Hensley to Perdue are specific to fee-shifting statutes....
Thus, these precedents are not binding outside of the
statutory context. For this reason, we have held that the
Supreme Court precedent requiring the use of the lode­
star method in statutory fee-shifting cases does not apply
to common-fund cases."). Indeed, although Perdue ap­
plied the lodestar method, it involved "the calculation of
an attorney's fee[] under federal fee-shifting statutes"
and was based on the Supreme Court's "prior decisions
concerning the federal fee-shifting statutes." 559 U.S. at
546, 552, 130 S. Ct. at 1669, 1672.24 Nothing in Perdue
24 That this case at one point included a claim under a fee-shifting
statute (the Fair Credit Reporting Act) is of no consequence. For
one thing, the District Court dismissed that claim before the parties
settled this litigation. Beyond that, the parties' settlement involved a
common fund settlement, and "[wjhere there has been a settlement,
the basis for the statutory fee award has been discharged, and it is
only the fund that remains." Home Depot, 931 F.3d at 1082 (quota­
tion marks omitted) (quoting Brvtus v. Spang & Co.. 203 F.3d 238,

50a

considered the appropriatemethod for calculating attor­
ney's fees in a common fund case. The percentage meth­
od therefore remains the proper method to apply when
awarding attorney's fees in common fund settlement cas­
es.
Neither are we persuaded by Mr. Davis's argument
that Camden I and the percentage method are "at odds"
with a handful of Supreme Court cases that "essentially"
applied the lodestar method. The Supreme Court has
never categorically prohibited the percentage method in
common fund cases. See Blum v. Stenson. 465 U.S. 886,
900 n.16,104 S. Ct. 1541,1550 n.16 (1984) (noting that for
"the calculation of attorney's fees under the 'common
fund doctrine’" the "reasonable fee is based on a percent­
age of the fund bestowed on the class"); Goldberger v.
Integrated Res., Inc.. 209 F.3d 43, 49 (2d Cir. 2000) (not­
ing that Blum "provided all the impetus needed for a re­
juvenation of the percentage method," as "Blum indicates
that the percentage-of-the-fund method is a viable" ap­
proach to calculating attorney's fees in common fund
cases (quotation marks omitted)). To the contrary, and as
Mr. Davis acknowledges, the Supreme Court has applied
the percentage method in common fund cases. Without a
categorical prohibition on the percentage method in
common fund settlement cases, Camden I and the per­
centage method remain the law in this Circuit.25
246 (3d Cir. 2000)); see also, e.g., Florin v. Nationsbank of Ga„ N.A..
34 F.3d 560, 563 (7th Cir. 1994) (holding a fee-shifting statute "do[es]
not purport to control fee awards in cases settled with the creation
of a common fund").
25 Likewise, to the extent Mr. Davis challenges the percentage
awarded here based on percentages awarded in some Supreme

51a

Mr. West's arguments also fail.26 According to Mr.
West, the District Court should have considered the
"economies of scale" in this case, which involves a settle­
ment fund of hundreds of millions of dollars (what West
calls a "megafund" case). As we understand Mr. West's
position, he thinks a settlement that is ten times larger
than another settlement is often not ten times harder for
the lawyers to work on, such that the percentage award­
ed as attorney's fees should diminish as the settlement
amount gets larger.
As Mr. West admits, our precedent did not require
the District Court to expressly consider the economies of
scale in a megafund case in deciding how much to award
in attorney's fees. This Court required the District Court
to consider the Johnson factors, and none of the factors
explicitly address the economies of scale in a megafund
case. See Camden I. 946 F.2d at 772 & n.3, 775. That be­
ing the case, we cannot say the District Court erred as a
matter of law or abused its discretion. In any event, the
Court cases, he fails to cite a single case in which the Supreme Court
set a categorical ceiling for a reasonable percentage.
26 One argument we can reject out of hand. Mr. West says the Dis­
trict Court should have provided Plaintiffs' counsel's "lodestar mate­
rial" to the class members. Mr. West faults the District Court for
only providing "total hours and lodestar accumulated by the firms."
While the District Court did conduct a lodestar "cross-check on the
reasonableness of a percentage-based fee," our precedent did not
require it to do so. See Camden I. 946 F.2d at 774 ("[AJttorneys' fees
awarded from a common fund shall be based upon a reasonable per­
centage of the fund established for the benefit of the class. The lode­
star analysis shall continue to be the applicable method used for de­
termining statutory fee-shifting awards."). And because the District
Court was not required to do a lodestar cross-check, we cannot say it
erred in not providing the "lodestar material" to the class members.

52a

District Court considered the time, labor, and amount
involved and the results obtained when deciding whether
the attorney's fees were reasonable. We observe that
these factors fairly capture many considerations related
to the economies of scale in a megafund case.
We decline to add an additional factor requiring the
District Court to expressly consider the economies of
scale in a megafund case. See id. at 775 (observing that
the "factors which will impact upon the appropriate per­
centage to be awarded as a fee in any particular case will
undoubtedly vary"). For starters, we question the value
of this consideration. Such a factor may "lack[] rigor be­
cause it provides no direction to courts about when to
start decreasing the percentage award, nor by how
much." 5 Newberg § 15:80. Requiring consideration of
the economies of scale could also create "perverse incen­
tives," as it may encourage class counsel to pursue "quick
settlements at sub-optimal levels." IcL; See also 5 New­
berg § 15:81 (detailing the "rough justice" of limiting at­
torney's fees in megafund cases). But we need not (and
do not) ultimately decide the virtues (or vices) of such a
factor because the District Court ultimately considered
factors that reasonably capture many considerations re­
lated to the economies of scale in a megafund case.
Finally, to the extent Mr. West challenges the
amount of attorney's fees awarded in this case, he has
failed to show an abuse of discretion. The District Court
awarded $77.5 million in attorney's fees, which it found is
20.36 percent of the $380.5 million settlement fund. (We
note that the $380.5 million figure does not even account
for the additional funds Equifax may be required to pay
into the settlement fund.) 20.36 percent is well within the

53a

percentages permitted in other common fund cases, and
even in other megafund cases.27 See Camden I. 946 F.2d
at 774-75 ("The majority of common fund fee awards fall
between 20% to 30% of the fund," with 25 percent as "a
'bench mark’ percentage fee award."); In re Checking
Account Overdraft Litig.. 830 F. Supp. 2d 1330, 1367
(S.D. Fla. 2011) ("[CJourts nationwide have repeatedly
awarded fees of 30 percent or higher in so-called
'megafund1 settlements."); Manual for Complex Litiga­
tion § 14.121 ("Attorney fees awarded under the percent­
age method are often between 25% and 30% of the
fund."); See also Wolff v. Cash 4 Titles. 2012 WL 5290155,
at *5 (S.D. Fla. Sept. 26, 2012) (average percentage
award in the Eleventh Circuit is "roughly one-third"); In
re Anthem. Inc. Data Breach Litig., 2018 WL 3960068, at
*2, *15 (N.D. Cal. Aug. 17, 2018) (data breach case in­
volving 27 percent award, which "appears to be in line
with the vast majority of megafund settlements").28
The District Court thus properly applied the per­
centage method in this common fund settlement case,
27 Also, we continue to note that our Circuit does not limit attorney's
fees in megafund cases as a matter of law.
28 Mr. West says we should view the $77.5 million in attorney's fees
as 25 percent of a $310 million settlement fund (not $380.5 million)
because that is what Plaintiffs' counsel initially secured and agreed
to in the original term sheet with Equifax. The additional $70.5 mil­
lion of the $380.5 million fund was added after further negotiations
with regulators. But even assuming Plaintiffs' counsel did not play a
role in securing the additional funds, such that 25 percent really is
the operative figure, 25 percent is also well within percentages ap­
proved in other common fund cases. Camden I, 946 F.2d at 775 (25
percent is the "bench mark"). And again, the $310 million figure does
not account for the additional funds Equifax may be called upon to
pay into the settlement fund in the future.

54a

considered the appropriate factors, and did not abuse its
discretion in the amount it awarded in attorney's fees.
G. Incentive Awards
After awarding attorney's fees and expenses to Plain­
tiffs' counsel, the District Court approved incentive
awards (sometimes called service awards) for the class
representatives in order to compensate them for thenservices and the risks they incurred on behalf of the class.
The District Court recognized that courts "routinely ap­
prove" such awards, and it found the awards "deserved"
in this case because the class representatives "devoted
substantial time and effort to this litigation working with
their lawyers to prosecute the claims, assembling the ev­
idence supporting their claims, and responding to discov­
ery requests." "But for their efforts," the District Court
found, "other class members would be receiving nothing."
While the parties were briefing this case, a panel of
this Court recognized that incentive awards are "com­
monplace in modern class-action litigation," yet held that
two Supreme Court cases from the 1880s "prohibit the
type of incentive award that the district court approved
here—one that compensates a class representative for
his time and rewards him for bringing a lawsuit." NPAS
Sols., 975 F.3d at 1260. In light of NPAS Solutions,
Plaintiffs acknowledge that "service awards are prohibit­
ed as a matter of law" in this Circuit. It is true that
NPAS Solutions binds us here. So the question is how to
proceed. Mr. Davis says the "incentive awards likely
compromised Named Plaintiffs' representation of the
Settlement Class's interests" because the class repre­
sentatives might have been "tempted to accept [a] subop-

55ci

timal settlementri" in order to obtain the incentive
awards.
We reject Mr. Davis's view that the prospect of incen­
tive awards infected the entire settlement, so we decline
his invitation to vacate the settlement as a whole. The
record indicates the class representatives' representation
of the class was not affected by the possibility of receiv­
ing incentive awards. The settlement agreement express­
ly stated that it remained in effect even if the District
Court declined to approve the incentive awards. Plain­
tiffs likewise filed two separate motions in the District
Court: one for approval of the settlement and certifica­
tion of the class, and one for attorney's fees and expenses
and incentive awards for class representatives. The mo­
tion for approval of the settlement was not contingent on
the District Court approving the incentive awards. Given
these facts, the class representatives' decision to agree to
the settlement and to seek its approval was not influ­
enced by the possibility of receiving incentive awards. Cf.
Radcliffe v. Experian Info. Sols. Inc.. 715 F.3d 1157,
1164-67 (9th Cir. 2013) (invalidating settlement that "ex­
plicitly conditioned] the incentive awards on the class
representatives' support for the settlement").
Plaintiffs argue that the best approach is to simply
reverse the District Court's decision approving the in­
centive awards and remand solely for the limited purpose
of vacating the awards, and we agree. This approach is
administratively feasible, as the settlement agreement
expressly provides that the agreement does not termi­
nate due to "modification or reversal or appeal of any de­
cision by the Court[] concerning the amount of Service
Awards." And this approach makes the most sense as a

56a

matter of judicial economy. Specifically, as set out above
in great detail, the District Court, before ever approving
incentive awards, independently assessed the proposed
settlement and the class and did not abuse its discretion
in finding that the settlement was fair, reasonable, and
adequate and that the class representatives adequately
represented the class. No purpose would be served by
forcing the District Court to repeat the entire process
anew.
To be clear, this is the only issue on which we reverse
the District Court's decision. On remand, the District
Court is instructed to vacate the incentive awards and to
otherwise leave the settlement agreement intact. We ex­
pect the District Court will be wary of any attempts to
expand this mandate or to otherwise delay or prevent the
settlement from taking effect, and we encourage that ap­
proach.
H. Appeal Bonds
At last, we arrive at the final issue in this case. After
the Objectors appealed the District Court's approval or­
der, the court granted Plaintiffs' motion for appeal bonds
and imposed appeal bonds of $2,000 on each Objector.
The District Court noted that "[cjourts routinely require
objectors who appeal final approval of a class action set­
tlement to post a bond to ensure payment of costs on ap­
peal." The District Court considered a number of factors
and found an appeal bond of $2,000 was "appropriate."
Mr. Cochran and Mr. Frank challenge the District
Court's decision to impose the appeal bonds for a variety
of reasons.

57a

Federal Rule of Appellate Procedure 7 states, "[i]n a
civil case, the district court may require an appellant to
file a bond or provide other security in any form and
amount necessary to ensure payment of costs on appeal."
Fed. R. App. P. 7.29 Mr. Cochran, Mr. Frank, and Plain­
tiffs do not cite any cases from this Court concerning
when an appeal bond is permitted under Rule 7, nor have
we found any ourselves. Although our Court has ad­
dressed when attorney's fees under a fee-shifting statute
can be included in an appeal bond as "costs" under Rule 7,
those cases don’t deal with the issue presented here:
when a run-of-the-mill appeal bond is permitted. See
Young v. New Process Steel. LP, 419 F.3d 1201, 1207-08
(11th Cir. 2005); Pedraza v. United Guar. Corn.. 313 F.3d
1323,1333 (11th Cir. 2002).
Although we review a district court's decision to im­
pose appeal bonds for abuse of discretion, we review de
novo the proper interpretation of federal rules of proce­
dure, including Rule 7. Young. 419 F.3d at 1203; See also
SEB S.A, v. Sunbeam Corn., 476 F.3d 1317, 1319 (11th
Cir. 2007). In interpreting a federal rule, we examine its
text and give effect to its plain meaning. See Sargeant v.
Hall, 951 F.3d 1280, 1283 (11th Cir. 2020) (interpreting
the Federal Rules of Civil Procedure). The plain text of
Rule 7 is clear. Again, Rule 7 says a district court may
impose an appeal bond "in any form and amount neces­
sary to ensure payment of costs on appeal." Fed. R. App.
P. 7 (emphasis added). The word "ensure" means "to
29 Although Plaintiffs moved for appeal bonds under Rules 7 and 8, it
appears the District Court imposed them only pursuant to Rule 7.
As such, our discussion of this issue is limited to appeal bonds im­
posed under Rule 7.

58a

make sure, certain, or safe." Ensure, Merriam-Webster's
Unabridged Dictionary, https://unabridged.merriam- ~
webster.com/unabridged/ensure (last visited June 2,
2021). Therefore, a Rule 7 appeal bond is appropriate
when the bond is imposed to make sure costs on appeal
are paid. See also, e.g., 4 Newberg § 14:15 (risk of non­
payment is "arguably the only pertinent factor" and thus
"ought to be the primary focus" for appeal bonds); 16A
Catherine T. Struve, Federal Practice and Procedure §
3953 (5th ed. 2021) ("The court should require a bond on­
ly if 'necessary to ensure payment of costs on appeal."').
The District Court in this case considered several fac­
tors when deciding to impose the appeal bonds: "(1) the
appellant's financial ability to post a bond; (2) the merits
of the appeal; (3) whether the appellant has shown any
bad faith or vexatious conduct; and (4) the risk that the
appellant will not pay the costs if the appeal is unsuccess­
ful." Other courts in this Circuit have applied similar fac­
tors. See, e.g., Aboltin v. Jeunesse LLC. 2019 WL
1092789, at *3 (M.D. Fla. Feb. 15, 2019). While most of
these factors do not appear to be relevant based on our
reading of Rule 7, the last factor certainly is. Specifically,
the District Court considered "the risk that the appellant
will not pay the costs if the appeal is unsuccessful" and
found there was a "substantial risk that the costs of ap­
peal will not be paid unless a bond is required." This con­
sideration squares with Rule 7: if there a risk the appel­
lant will not pay the costs on appeal, then an appeal bond
helps make sure the costs are paid.
Although the District Court considered other factors
that may not be relevant, we need not ultimately decide
this issue of relevance under Rule 7 because the record

59a

indicates the District Court independently imposed the
appeal bonds based on a proper factor. Specifically, the
District Court found that the "substantial risk" of non­
payment "warrant[ed] an appeal bond." The District
Court did not therefore abuse its discretion when it im­
posed the appeal bonds based on its finding that there
was a "substantial risk that the costs of appeal will not be
paid unless a bond is required." And because we hold that
the District Court did not abuse its discretion in impos­
ing the appeal bonds on this independent basis, we need
not consider Mr. Cochran's and Mr. Frank's arguments,
which challenge the District Court's ruling to the extent
it was also based on other grounds.30
30 Mr. Cochran appears to briefly challenge the amount of the appeal
bond. Rule 7 simply states that an appeal bond should be in an
"amount necessary to ensure payment of costs on appeal." Fed. R.
App. P. 7. This means courts should look to 28 U.S.C. § 1920 and
Federal Rule of Appellate Procedure 39(e), which provide for taxa­
ble costs on appeal, when determining an appropriate amount to
cover "costs on appeal." See, e.g., Tennille v. W. Union Co.. 774 F.3d
1249, 1257 (10th Cir. 2014) (looking to section 1920 and Rule 39(e));
see also Federal Practice and Procedure § 3953 ("Costs on appeal for
which a Rule 7 bond can be required include the costs authorized in
[section] 1920 to the extent those costs relate to the appeal."); 4
Newberg § 14:16 ("Given that an appeal bond is meant to ensure the
availability of funds for cost-shifting on appeal, the amount of the
bond should have some relationship to the costs that a losing appel­
lant would have to shoulder." (footnote omitted)). The costs under
section 1920 and Rule 39(e) include fees of the clerk, fees for printed
or electronically recorded transcripts, fees for printing, costs of
making copies, docket fees, costs of preparing and transmitting the
record, and costs for the reporter's transcript. See 28 U.S.C. § 1920;
Fed. R. App. P. 39(e). Here, the District Court found that $2,000 was
"appropriate" to cover the taxable costs listed in section 1920 and
Rule 39(e). Mr. Cochran has not shown that this amount was an
abuse of discretion.

60a

III. CONCLUSION
We affirm the District Court's rulings in their entire­
ty, except as to the narrow issue of incentive awards. As
discussed, because NPAS Solutions now prohibits the
incentive awards approved for the class representatives,
we must reverse the District Court's decision to approve
the incentive awards. We remand this case to the District
Court solely for the limited purpose of vacating those
awards. On remand, we instruct the District Court to
leave the rest of the settlement agreement intact.
AFFIRMED IN PART, REVERSED IN PART,
AND REMANDED.

61a

APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
In re: Equifax Inc.
Customer Data
Security Breach
Litigation

MDL Docket No. 2800
No. 1:17-md-2800-TWT
CONSUMER ACTIONS
Chief Judge Thomas W.
Thrash, Jr.

ORDER GRANTING FINAL APPROVAL OF SET­
TLEMENT. CERTIFYING SETTLEMENT CLASS.
AND AWARDING ATTORNEY’S FEES. EXPENS­
ES AND SERVICE AWARDS
Consumer Plaintiffs and Defendants Equifax Inc.,
Equifax Information Services, LLC, and Equifax Con­
sumer Services LLC (collectively, “Equifax”), reached a
proposed class action settlement resolving claims arising
from the data breach Equifax Inc. announced on Sep­
tember 7, 2017. On July 22, 2019, this Court directed that
notice issue to the settlement class. [Doc. 742], This mat­
ter is now before the Court on the Consumer Plaintiffs’
Motion for Final Approval of Proposed Settlement [Doc.
903] and Motion for Attorneys’ Fees, Expenses, and
Service Awards to the Class Representatives. [Doc. 858].
For the reasons set forth below and on the record of the
hearing of December 19, 2019, the Court grants both mo­
tions, issues its ruling on the pending objections and mo­
tions from various objectors that have been filed, and will
separately enter a Consent Order relating to the busi-

62a

ness practice changes to which Equifax has agreed and a
Final Order and Judgment.
I.

INTRODUCTION.
A. Factual Background and Procedural His­
tory.

On September 7, 2017, Equifax Inc. announced a
data breach that it determined had impacted the person­
al information of about 147 million Americans. More than
300 class actions filed against Equifax were consolidated
and transferred to this Court, which established sepa­
rate tracks for the consumer and financial institution
claims and appointed separate legal teams to lead each
track.
In the consumer track, on May 14, 2018, plaintiffs
filed a 559-page consolidated complaint, which named 96
class representatives and asserted common iaw and
statutory claims under both state and federal law. [Doc.
374]. The complaint alleged claims including negligence,
negligence per se, unjust enrichment, declaratory judg­
ment, breach of contract (for those individuals who had
provided personal information to Equifax subject to its
privacy policy), and violation of the Fair Credit Report­
ing Act (“FCRA”), the Georgia Fair Business Practices
Act (“GFBPA”), and various state consumer laws and
state data breach statutes.
Equifax moved to dismiss the complaint in its en­
tirety, arguing inter alia that Georgia law does not im­
pose a legal duty to safeguard personal information,
plaintiffs’ alleged injuries were not legally cognizable,
and no one could plausibly prove that their injuries were

63a

caused by this data breach as opposed to another breach.
The parties exhaustively briefed the motion during the
summer and early fall of 2018.
After the benefit of oral argument on December
14, 2018, the Court issued an order on January 28, 2019,
granting in part and denying in part the motion to dis­
miss. [Doc. 540]. The Court allowed the negligence and
negligence per se claims to proceed under Georgia law,
finding among other things that the plaintiffs alleged ac­
tual injuries sufficient to support a claim for relief (id. at
15-21). The Court dismissed the FCRA claim, the
GFBPA claim, the contract claims, and the unjust en­
richment claims of those plaintiffs who had no contract
with Equifax. The Court dismissed some state statutory
claims, but allowed many others to proceed.
Following the Court’s order on dismissal, Equifax
answered on February 25, 2019 [Doc. 571]. Before and
after Equifax filed its answer, the parties engaged in
significant discovery efforts and raised numerous dis­
covery-related disputes with the Court in late 2018.
On April 2, 2019, after more than 18 months of
negotiations, the parties informed the Court they had
reached a binding settlement that was reflected in a term
sheet dated March 30, 2019, and that had been approved
the following day by Equifax’s board of directors. After
consulting and negotiating with federal and state regula­
tors regarding revisions to the term sheet, the parties
entered into the final settlement agreement on July 19,
2019, and presented the final settlement agreement to

64a

the Court on July 22, 2019. (App. 1, Hf 17-24).1 After a
hearing on July 22, 2019, the Court entered an order di­
recting notice of the proposed settlement (“Order Direct­
ing Notice”) [Doc. 742]. In the Order Directing Notice,
the Court found that it would likely approve the settle­
ment as fair, reasonable, and adequate, and certify the
settlement class.
B.

Terms of the Settlement.

The following are the material terms of the set­
tlement:
1.

The Settlement Class.

The settlement class is defined as follows:
The approximately 147 million U.S. con­
sumers identified by Equifax whose per­
sonal information was compromised as a
result of the cyberattack and data breach
announced by Equifax Inc. on September
7,2017.
Excluded are (i) Equifax, any entity in which
Equifax has a controlling interest, and Equifax’s officers,
directors, legal representatives, successors, subsidiaries,
and assigns; (ii) any judge, justice, or judicial officer pre­
siding over this matter and the members of their imme­
diate families and judicial staff; and (iii) any individual
who timely and validly opts out of the settlement class.
[Settlement Agreement, Doc. 7392,112.43].

1 References in this Order to “App.” refer to the declarations com­
prising the Appendix [Doc. 900] accompanying the pending motions.

65a

2.

The Settlement Fund.

Equifax will pay $380,500,000 into a fund for class
benefits, attorneys’ fees, expenses, service awards, and
notice and administration costs; up to an additional
$125,000,000 if needed to satisfy claims for certain out-ofpocket losses; and potentially $2 billion more if all 147
million class members sign up for credit monitoring.
[Doc. 739-2,11 7.8; Doc. 739-4,11 37]. No settlement funds
will revert to Equifax. [Doc. 739-2, U 5.5]. The specific
benefits available to class members include:
•

•

•

Reimbursement of up to $20,000 for documented,
out-of-pocket losses fairly traceable to the breach,
such as the cost of freezing or unfreezing a credit
file; buying credit monitoring services; out-ofpocket losses from identity theft or fraud, includ­
ing professional fees and other remedial expens­
es; and 25 percent of any money paid to Equifax
for credit monitoring or identity theft protection
subscription products in the year before the
breach. If the $380.5 million fund proves to be in­
sufficient, Equifax will add another $125 million to
pay claims for out-of-pocket losses.
Compensation of up to 20 hours at $25 per hour
(subject to a $38 million cap) for time spent taking
preventative measures or dealing with identity
theft. Ten hours can be self-certified, requiring no
documentation.
Four years of specially negotiated, three-bureau
credit monitoring and identity protection services
through Experian and an additional six years of
one-bureau credit monitoring and identity protec­
tion services through Equifax. The Experian mon-

66a

•

•

itoring has a comparable retail value of $24.99 per
month and has a number of features that are typi­
cally not available in “free” credit monitoring ser­
vices offered to the public. (App. 6,1111 33-43). The
one-bureau credit monitoring shall be provided
separately by Equifax and not paid for from the
settlement fund.
Alternative cash compensation (subject to a $31
million cap) for class members who already have
credit monitoring or protection services in place
and who choose not to enroll in the enhanced
credit monitoring and identity protection services
offered in the settlement.
Identity restoration services through Experian to
help class members who believe they may have
been victims of identity theft for seven years, in­
cluding access to a U.S. based call center, assign­
ment of a certified identity theft restoration spe­
cialist, and step by step assistance in dealing with
credit bureaus, companies and government agen­
cies.

Class members have six months to claim benefits
(through January 22, 2020), but need not file a claim to
access identity restoration services. (Id., 1111 7.2 and
8.1.1). If money remains in the fund after the initial
claims period, there will be a four-year extended claims
period during which class members may recover for cer­
tain out-ofpocket losses and time spent rectifying identi­
ty theft that occurs after the end of the initial claims pe­
riod. (Id., U 8.1.2). If money remains in the fund after the
extended claims period, it will be used as follows: (a) the
caps for time and alternative compensation will be lifted

67a

and jjayments^ will be increased pro rata up to the full
amount of the approved claims; (b) up to three years of
additional identity restoration services will be pur­
chased; and (c) the Experian credit monitoring services
claimed by class members will be extended. (Id., 11 5.4).
Equifax will not receive any monetary or other financial
consideration for any of the benefits provided by the set­
tlement. (Id., II 7.3).
3.

Injunctive Relief.

Equifax has agreed to entry of a consent order
requiring the company to spend a minimum of $1 billion
for data security and related technology over five years
and to comply with comprehensive data security re­
quirements. Equifax’s compliance will be audited by an
experienced, independent assessor and subject to this
Court’s enforcement powers. [See generally Doc. 739-2,
pp. 76-84; Doc. 739-4, If 44].
According to cybersecurity expert Mary Frantz:
[implementation of the proposed busi­
ness practice changes should substantially
reduce the likelihood that Equifax will suf­
fer another data breach in the future. The­
se changes address serious deficiencies in
Equifax’s information security environ­
ment. Had they been in place on or before
2017 per industry standards, it is unlikely
the Equifax data breach would ever have
been successful. These measures provide a
substantial benefit to the Class Members
that far exceeds what has been achieved in
any similar settlements.

68a

_—[739-7t-1I 66]rTlquifax’-s binding-financial -commitment to
spend $1 billion on data security and related technology
substantially benefits the class because it ensures ade­
quate funding for securing plaintiffs’ information long
after the case is resolved. (See id., 1156).
4.

Notice And Claims Program.

The notice plan [see Doc. 739-2, p. 125], was de­
veloped by class counsel and the Court-appointed notice
provider (Signal Interactive Media), with input from the
claims administrator (JND Legal Administration) and
the regulators. (App. 1, H 25). The notice plan is not de­
signed merely to satisfy minimal constitutional re­
quirements, but an innovative and comprehensive pro­
gram that takes advantage of contemporary commercial
and political advertising techniques—such as focus
groups, a public opinion survey, and micro-targeting—
to inform, reach, and engage the class and motivate
class members to file claims. According to the plaintiffs
and Signal, the notice program is a first-of-its kind ef­
fort and is unprecedented in scope and impact. The
Court finds that the notice program is a significant ben­
efit to the class.
The notice program consists of: (1) multiple
emails sent to those whose email addresses can be found
with reasonable effort; (2) a digital and social media
campaign using messaging continually tested and tar­
geted for effectiveness; (3) a full-page ad in USA Today
using plain text designed with input from experts on
consumer communications at the Federal Trade Com­
mission as well as a national radio advertising campaign
to reach those who have limited online presence; (4) a

69a

settlement website on which the long-form notice and
other important documents,Jncludingwarious pleadings
and other filings from the litigation, are posted; and (5)
the ability for class members to ask questions about the
settlement via email and a toll-free number staffed with
live operators. (App. 4, H! 43-57, 85-90; App. 5, M 2230).
Signal will continue digital advertising during the ex­
tended claims period and until identity restoration ser­
vices are no longer available, a period that will last for
seven years. [Doc. 739-2, pp. 127,138].
JND transmitted the initial email notice to
104,815,404 million class members beginning on August
7, 2019. (App. 4, 1111 53-54). JND later sent a supple­
mental email notice to the 91,167,239 class members
who had not yet opted out, filed a claim, or unsubscribed
from the initial email notice. (Id., If It 55-56). The notice
plan also provides for JND to perform two additional
supplemental email notice campaigns. (Id., II 57).
The digital component of the notice plan, according to
Signal, reached 90 percent of the class an average of
eight times before the notice date of September 20,
2019, approximately 60 days before the deadline for ob­
jecting and opting out. Signal’s digital campaign
achieved 1.12 billion impressions on social media, paid
search, and advertising before the notice date, far sur­
passing the original target of 892 million impressions.
(App. 5, II 24). Signal is expected to deliver an additional
332 million impressions during the remainder of the ini­
tial claims period (id., f 25), many more digital impres­
sions than initially anticipated. Signal also placed a
fullpage notice that appeared in the September 6, 2019
issue of USA Today. (Id., 11 26). The radio campaign,

70a

which ran from August 19 through September 8, 2019 in
210 markets across the country, resulted in 194,797,100
impressions overall and 63,636,800 impressions for the
target age group least likely to be reached online. (Id.,
HU 27-28).
Finally, the settlement received a great deal of
media coverage in virtually every U.S. market, increas­
ing exposure and reach to class members. The settle­
ment was featured prominently by CNN, in the New
York Times, and on the Today Show, among other na­
tional media outlets. (Id.). From July 22, 2019 through
December 1, 2019, there were approximately 30,000
mentions related to the data breach or the settlement in
the media. (Id., II90).
As a result of the notice program and extensive
media coverage, the response from the class has been
unprecedented. The settlement website received 46 mil­
lion visits during the first 48 hours following preliminary
approval and, as of December 1, 2019, the total number
of visits to the website exceeded 130 million, with nearly
40 million discrete visitors. Most significantly, with sev­
eral weeks left in the initial claims period, the claims
administrator has received in excess of 15 million claims
from verified class members, including over 3.3 million
claims for credit monitoring. (Id., 1H1 5, 64-69). The
claims rate, to date, thus exceeds 10% of the class. The­
se claims and others that continue to be filed are gov­
erned by a detailed claims administration protocol,
which employs a variety of techniques to facilitate ac­
cess, participation, and claims adjudication and resolu­
tion. (App. 4, HH 4, 71). JND has also developed special­
ized tools to assist in processing claims, calculating

71a

payments, and assisting class members in curing any
deficient claims. (Id., H11 4, 21). As a result, class members have the opportunity to file a claim easily and have
that claim adjudicated fairly and efficiently.
5.

Attorneys’ Fees And Expenses
And Service Awards.

Class counsel have applied for a percentagebased fee of $77.5 million, reimbursement of
$1,404,855.35 in litigation expenses, and service awards
of $2,500 for each settlement class representative total­
ing no more than $250,000 in the aggregate. [Doc. 858].
These amounts are in accordance with the terms of the
settlement agreement and were not negotiated by the
parties until after the negotiations regarding the relief
to be afforded to the class had concluded. Under prevail­
ing precedent and the circumstances of this case, these
requests are reasonable, and for the reasons set forth in
more detail below, the requests will be approved.
6.

Releases.

In pertinent part, the class will release Equifax
from claims that were or could have been asserted in
this case. The releases are set forth in more detail in the
settlement agreement. [Doc. 739-2,1fH 2.38, 2.50,16].
II. FINAL APPROVAL OF PROPOSED SETTLE­
MENT AND CERTIFICATION OF SETTLE­
MENT CLASS.
The Court, having considered the Settlement
Agreement and Release including all of its exhibits [Doc.
739-2]; all objections and comments received regarding
the settlement; all motions and other court filings by ob-

72a

jectors and amici curiae; the arguments and authorities
presented by the parties and their counsel in their brief­
ing; the arguments at the final approval hearing on De­
cember 19, 2019; and the record in this action, and good
cause appearing, hereby reaffirms its findings in the
Order Directing Notice, finds the settlement is fair rea­
sonable and adequate, and certifies the settlement class.
A. The Proposed Settlement Is Fair. Reasona­
ble. And Adequate.
Before the Court may finally approve a proposed
settlement, it must consider the factors listed in Rule
23(e)(2) including whether “(A) the class representatives
and class counsel have adequately represented the class;
(B) the proposal was negotiated at arm’s length; (C) the
relief provided for the class is adequate, taking into ac­
count: (i) the costs, risks, and delay of trial and appeal;
(ii) the effectiveness of any proposed method of distrib­
uting relief to the class, including the method of pro­
cessing class-member claims; (iii) the terms of any pro­
posed award of attorney’s fees, including timing of pay­
ment; and (iv) any agreement required to be identified
under Rule 23(e)(3); and (D) the proposal treats class
members equitably relative to each other.” Fed. R. Civ.
P. 23(e)(2). As explained below, consideration of each of
these factors supports a finding that the settlement is
fair, reasonable, and adequate and should be approved.
1.

The Class Was Adequately Rep­
resented.

The first prong of Rule 23(e)(2) directs the Court
to consider whether the class representatives and class
counsel have adequately represented the class. Fed. R.

73a

Civ. P. 23(e)(2)(A). Traditionally, adequacy of representatiorThas been considered' in connection with- class-eertification. For this analysis, courts consider: “(1) whether
[the class representatives] have interests antagonistic to
the interests of other class members; and (2) whether the
proposed class’ counsel has the necessary qualifications
and experience to lead the litigation.” Columbus Drywall
& Insulation, Inc. v. Masco Corp., 258 F.R.D. 545, 555
(N.D. Ga. 2007).
The Court finds that the class representatives are
adequate. They share the same interests as absent class
members, assert claims stemming from the same event
that are the same or substantially similar to the rest of
the class, and share the same types of alleged injuries as
the rest of the class. Like the rest of the class, the class
representatives’ personal information at issue was stolen
and they all allege the same risk—that their information
may be misused by criminals in the future. And, no class
member has benefitted from the breach. For all these
reasons, the Court finds that the interests of class mem­
bers are not antagonistic and there is no intra-class con­
flict here.
Further, the Court finds that class counsel have
adequately represented the class. The Court appointed
class counsel after a comprehensive and competitive ap­
pointment process. Their experience in complex litiga­
tion generally and data breach litigation specifically has
been brought to bear here, as they effectively worked to
bring this case to a successful resolution. The Court has
observed class counsel’s diligence, ability, and experi­
ence in pleadings and motion practice; in regularlyconducted status conferences; in their presentation of

74a

the settlement to this Court; and in their attention to
matters of notice arid administration natter- the- an^
nouncement of the settlement. The excellent job class
counsel have done for the class is also demonstrated in
the benefits afforded by the settlement.
2.

The Proposed Settlement Was
Negotiated At Arm’s Length.

With respect to the second factor under Rule
23(e)(2), the Court readily concludes that this settlement
was negotiated at arm’s length, and that there was no
fraud or collusion in reaching the settlement. Fed. R.
Civ. P. 23(e)(2)(B). This Court has observed the zeal with
which counsel for the parties have advanced their clients’
interests in this case, their written work, and their oral
advocacy at status conferences and the numerous other
hearings that have been conducted. Further, Layn Phil­
lips, a retired federal judge with a wealth of experience
in major complex litigation and large-scale data breach
cases who served as the settlement mediator, has attest­
ed to the history of the contentious negotiations, the pro­
cess of reaching agreement on a binding term sheet, the
level of advocacy on both sides of the case, and his opin­
ion that the settlement represents a reasonable and fair
outcome. [Doc. 739-9]. See generally Ingram v. The Co­
ca-Cola Co., 200 F.R.D. 685, 693 (N.D. Ga. 2001) (pres­
ence of “highly experienced mediator” pointed to “ab­
sence of collusion”). Moreover, any possibility of collu­
sion—already remote—is undercut by the fact that the
settlement enjoys the support of the Federal Trade
Commission, the Consumer Financial Protection Bureau,
and Attorneys General of 48 states, Puerto Rico, and the
District of Columbia. These regulators entered into their

75a

own separate settlements with Equifax after the parties
entered into the term sheet in this case and agreed that
the settlement fund in this case can serve as the vehicle
for consumer redress related to the breach.
3.

The Relief Provided To The Class
Is Adequate.

The third factor the Court considers under Rule
23(e)(2) is the relief provided for the class taking into ac­
count “(i) the costs, risks, and delay of trial and appeal;
(ii) the effectiveness of any proposed method of distrib­
uting relief to the class, including the method of pro­
cessing class-member claims; (iii) the terms of any pro­
posed award of attorney’s fees, including timing of pay­
ment; and (iv) any agreement required to be identified
under Rule 23(e)(3).” Fed. R. Civ. P. 23(e)(2)(C).
In examining the adequacy of the relief provided
to the class, the Court starts with the observation that
this settlement is the largest and most comprehensive
recovery in a data breach case in U.S. history by several
orders of magnitude. [Doc. 739-4, pp. 40-45], Not only
does the size of the settlement fund exceed all previous
data breach settlements, but the specific benefits provid­
ed to class members (both monetary and nonmonetary)
that were enumerated above meet or substantially ex­
ceed those that have been obtained in other data breach
cases. (Id.; see also Doc. 739-7,11 66). It is also particular­
ly significant that all valid claims for out-of-pocket losses
likely will be paid in full; that 3.3 million class members
have already submitted claims for credit monitoring with
a collective retail value of roughly $6 billion; that all class
members, whether or not they file a claim, will have ac-

76a

cess to identity restoration services to help deal with the
aftermath of~any idehtilylheffTor"severryears; that the
notice program will continue for the full seven years to
remind class members of the existence of those extended
services; that Equifax must spend at least $1 billion on
data security and related technology; and that Equifax’s
compliance with comprehensive data security measures
will be subject to independent verification and judicial
enforcement.
The minimum cost to Equifax of the settlement is
$1.38 billion and could be more, depending on the cost of
complying with the injunctive relief, the number and
amount of valid claims filed for out-of-pocket losses, and
the number of class members who sign up for credit
monitoring (as Equifax, not the settlement fund, will
bear the cost if more than seven million class members
sign up for three-bureau credit monitoring and Equifax,
not the settlement fund, will bear the cost of providing
the extended one-bureau credit monitoring under the
settlement). The benefit to the class—even when only
considering the value of the $380.5 million minimum set­
tlement fund, the minimum $1 billion Equifax is required
to spend on data security and related technology, and the
retail value of the credit monitoring already claimed by
class members—exceeds $7 billion.
These benefits have added value by being availa­
ble now, rather than after years of continued litigation,
because class members can immediately take advantage
of settlement benefits designed to mitigate and prevent
future harm, including credit monitoring and injunctive
relief. See Anthem, 327 F.R.D. at 318 (discussing the im­
portance of timely providing credit monitoring to the

77a

class and implementing security enhancements in wake
of a data breach). A’dditi'orially, The Court finds that
much of the relief afforded by the settlement likely ex­
ceeds what could be achieved at trial (see Doc. 903 at 1316), and, taken as a whole the settlement represents a
result that is at the high end of the range of what could
be achieved through continued litigation.
The adequacy of the relief is likewise supported
by consideration of the four subparts enumerated in
Rule 23(e)(2)(C)(i-iv), all of which support a finding that
the relief provided by the settlement is fair, reasonable,
and adequate.
a) The Risks, Costs, and Delay
of Continued Litigation.
In considering the adequacy of the settlement in
light of the risks of continued litigation under Rule
23(e)(2)(C)(i), the Court finds the cost and delay of con­
tinued litigation would have been substantial. But for the
settlement, the parties would likely incur tens of millions
of dollars in legal fees and expenses in discovery and mo­
tion practice. Trial likely would not occur earlier than
2021 and appeals would almost certainly delay a final
resolution for a year or more after that. Moreover, had
the case not settled, the plaintiffs would have faced a
high level of risk. See Anthem, 327 F.R.D. at 322 (finding
that the “significant risks” and the “delay in any poten­
tial recovery from proceeding with litigation,” weighed in
favor of approval). Equifax would likely renew its argu­
ments under Georgia law that it has no legal duty to
safeguard personal information, arguments that were
strengthened following the Supreme Court of Georgia’s

78a

decisions in Georgia Dep’t of Labor v. McConnell, 828
S.E .2d~~352 (Ga. 2019)r Class certification-otiteide of-thesettlement context also poses a significant challenge. See,
e.g., Adkins v. Facebook, Inc., 2019 WL 7212315, at *9
(N.D. Cal. Nov. 26, 2019) (denying motion to certify data
breach damages class under Rule 23(b)(3)); Anthem, 327
F.R.D. at 318 (“While there is no obvious reason to treat
certification in a data-breach case differently than certi­
fication in other types of cases, the dearth of precedent
makes continued litigation more risky.”). And, even if
plaintiffs prevail on all those legal issues, they face the
risk that causation cannot be proved, discovery will not
support their claims, a jury might find for Equifax, and
an appellate court might reverse a plaintiffs’ judgment.
Class counsel, appointed to act in the best inter­
ests of the class, cannot afford to ignore or downplay
these significant risks in deciding whether to settle or
continue litigating plaintiffs’ claims. Similarly, the Court
must take those risks into account in determining wheth­
er the proposed settlement is fair, reasonable, and ade­
quate. In considering these risks, the Court finds that
the guaranteed and immediate recovery for the class
made available by this settlement far outweighs the mere
possibility of future relief after lengthy and expensive
litigation. The reality is that, if the Court does not ap­
prove the settlement in this case, there is a serious risk
that many if not all class members will receive nothing.
That the plaintiffs achieved all the relief in the settle­
ment in the face of the risk they face strongly weighs in
favor of approving the settlement as fair, reasonable, and
adequate.

79a

b) The Method of Distributing
Relief is' Effective/- ------Rule 23(e)(2)(C)(ii) requires the Court to next
consider the effectiveness of the proposed method to dis­
tribute relief to the class, including the method for pro­
cessing claims. Upon review of the declarations submit­
ted in support of the motion to direct notice and for final
approval [see generally Docs. 739-6 and 9004], the Court
finds that the method of distributing relief is effective.
Class members can file claims through a straightforward
claims process, and claims are not required for identity
restoration services or to benefit from the injunctive re­
lief agreed to by Equifax. Those claiming out-of-pocket
losses must supply documentation of their losses, but
such requirements are routine and likely less stringent
than a plaintiff would have to present during discovery
or trial. Some documentation requirements are neces­
sary to ensure that the settlement fund is used to pay
legitimate claims. Similarly, the requirement that losses
be “fairly traceable” to the breach is not onerous (and is
arguably a less stringent standard than would apply at
trial), and its enforcement is subject to a claims admin­
istration protocol developed with input from state and
federal regulators. [Doc. 739-2, pp. 286-87,11 III].
The Court concludes that the requirements to
make claims for other relief are also reasonable. For ex­
ample, any class member is eligible to enroll in credit
monitoring services without any documentation. Class
members seeking alternative compensation in lieu of
credit monitoring do not need to provide any documenta­
tion, but only identify and attest to their existing credit
monitoring service. This is not an onerous requirement,

80a

and even those who already submitted claims and failed
to provide the name of their credit monitoring service
will be given another chance to do so through the defi­
cient claims process set forth in the claims administra­
tion protocol. And, those seeking reimbursement for
time spent dealing with the breach can claim up to 10
hours without any documentation.
The claims administrator, JND, is highly experi­
enced in administering large class action settlements and
judgments, and it has detailed the efforts it has made in
administering the settlement, facilitating claims, and en­
suring those claims are properly and efficiently handled.
(App. 4, 1JH 4, 21; see also Doc. 739-6, If 11 2-10). Among
other things, JND has developed protocols and a data­
base to assist in processing claims, calculating payments,
and assisting class members in curing any deficient
claims. (Id., 1111 4, 21). Additionally, JND has the capacity
to handle class member inquiries and claims of this mag­
nitude. (App. 4, HIT 5, 42). This factor, therefore, supports
approving the relief provided by this settlement.
c) The Terms Relating To Attor­
neys’ Fees Are Reasonable.
The third consideration of evaluating relief under
Rule 23(e)(2)(C) is whether the attorneys’ fees requested
under the settlement are reasonable. Fed. R. Civ. P.
23(e)(2)(C)(iii). Here, class counsel are requesting a fee
based on a percentage of the benefits available to the
class. As addressed in detail below, the Court finds that
the request is reasonable under prevailing precedent and
the facts of this case. Further, the timing of the payment
of fees does not impact the adequacy of the relief, as no

81a

fee will be paid until after Equifax fully funds the settlementTmrd Tandxmder mo -circumstance will any. of the._se.ttlement funds revert to Equifax. See Fed. R. Civ. P.
23(e)(2)(B)(iii). As such, this factor weighs in favor of ap­
proving the settlement.
d) Agreements Required To Be
Identified By Fed. R. Civ. P.
23(e)(3).
Finally, Rule 23(e)(2)(C)(iv) directs the Court to
consider the relief afforded to the class in light of any
agreements required to be identified by Rule 23(e)(3).
The parties previously submitted to the Court, in cam­
era, the specific terms of the provision allowing Equifax
to terminate the settlement if more than a certain num­
ber of class members opted out and the cap on notice
spending that would create a mutual termination right.
These provisions have not been triggered, and thus do
not affect the adequacy of the relief obtained here. The
parties have not identified, and the Court is unaware of,
any other agreements required to be identified by the
Rule. Therefore, this element of Rule 23(e)(2)(C) also
weighs in favor of approval.
4.

Class Members Are Treated Equi­
tably Relative To Each Other.

The fourth and final factor under Rule 23(e)(2),
directs the Court to consider whether class members are
treated equitably relative to each other. Fed. R. Civ. P.
23(e)(2)(D). According to the advisory committee notes,
this factor is closely related to the adequacy requirement
of Rule 23(a). The Court expressly considers whether the
settlement provides equitable “treatment of some class

82a

members vis-a-vis others,” and an issue that has been
raised by some objectors is whether the settlement apportions “relief among class members [that] takes ap­
propriate account of differences among their claims, and
whether the scope of the release may affect class mem­
bers in different ways.” Adv. Comm. Notes 23(e)(2)
(2018).
As an initial matter, the class members all have
similar claims arising from the same event: the Equifax
data breach. And as all class members are eligible to
claim the various benefits provided by the settlement if
they meet the requirements, they all are treated equita­
bly under the settlement.
While class members who have incurred out-ofpocket losses will be able to recover more relative to
class members who have not, this allocation is fair and
equitable because these class members would have had
the ability to seek greater damages at trial. Additionally,
the settlement provides for an extended claims period of
four years after the initial claims period, through Janu­
ary 2024. This provides the opportunity for all class
members to make claims for future out-of-pocket losses
resulting from the breach.
All class members, regardless of whether they in­
curred out-of-pocket losses, are eligible to claim credit
monitoring. This also treats class members fairly. “The
emphasis on this form of relief is logical because it is di­
rectly responsive to the ongoing injury resulting from
the breach.” Anthem, 327 F.R.D. at 332; see also App. 6,
H 41 (stating that “[t]he features included in the Experian services are particularly helpful for consumers con­
cerned about identity theft, because they are designed to

83a

quickly help identify fraudulent misuse of a consumer’s
personal information”) .
Moreover, all class members—even those who do
not submit claims—benefit from the various non­
monetary aspects of the settlement, including access to
identity restoration services and the business practice
changes that Equifax will implement at a cost of at least
$1 billion. (See App. 2, If 21). By addressing the alleged
injuries class members suffered and by helping to miti­
gate future harm—through the extended claims period,
availability of credit monitoring and identity restoration
services, and mandated business practice changes—the
settlement is equitable to all class members.
Finally, class members have been treated equita­
bly despite the fact that they reside in different states
and may have been able to assert different statutory
claims depending on the state in which they reside. All
class members share at least one common claim for neg­
ligence under Georgia law, and as to the statutory reme­
dies that survived the motion to dismiss, the Court does
not find that those remedies are materially different
such that they render the plan of apportionment inequi­
table. Although some statutory claims may permit a
plaintiff to seek statutory damages, Georgia law permits
all class members to seek nominal damages and there
are additional risks associated with those statutory
claims that persuade the Court they are not materially
more beneficial so as to render the settlement unfair.
This final factor of Rule 23(e)(2) thus supports
this Court’s finding that the settlement is fair, reasona­
ble, and adequate and should be approved.

84a

5. The Bennett Factors Support Approv—ing^ The Settlement-As^Fair. Reasona-_.
ble. And Adequate.
In addition to the rule-based factors set forth in
Rule 23, in considering whether to approve the settle­
ment the Court is further guided by the factors set forth
in Bennett v. Behring Corp., 737 F.2d 982, 986 (11th Cir.
1984). These factors include: (1) the likelihood of success
at trial; (2) the range of possible recovery; (3) the range
of possible recovery at which a settlement is fair, ade­
quate, and reasonable; (4) the anticipated complexity,
expense, and duration of litigation; (5) the opposition to
the settlement; and (6) the stage of proceedings at which
the settlement was achieved. Faught v. Am. Home
Shield Corp., 668 F.3d 1233, 1240 (11th Cir. 2011). Many
of these considerations overlap those found in Rule
23(e)(2); all of them support final approval.
As explained above with respect to consideration
of Rule 23(e)(2), the first and fourth Bennett factors
strongly support approving the settlement. The likeli­
hood of success at trial is uncertain at best. Equifax
would have no doubt renewed its defenses at the sum­
mary judgment stage and the settlement provides relief
that may not have been available had the case been tried.
The case would have been extraordinarily expensive to
litigate going forward and would have certainly taken
years to conclude. Likewise, consideration of the second
and third Bennett factors support the settlement as fair,
reasonable, and adequate because the settlement reflects
relief the Court finds is in the high range of what could
have been obtained had the parties continued to litigate.

85a

The fifth Bennett factor, which examines opposi­
tion to the settlementTli
le
Court’s view, the class has reacted positively to the set­
tlement. In contrast to the 15 million claims, including
over 3.3 million claims for credit monitoring that already
have been filed by verified class members, only 2,770 set­
tlement class members asked to be excluded from the
settlement and only 388 class members directly objected
to the settlement—many in the wake of incomplete or
misleading media coverage, or at the behest of serial
class action objectors, and often demonstrating a flawed
understanding of the settlement terms. This miniscule
number of objectors in comparison to the class size is en­
titled to significant weight in the final approval analysis.
See, e.g., Lipuma v. Am. Express Co., 406 F. Supp. 2d
1298,1324 (S.D. Fla. 2005) (“[A] low percentage of objec­
tions points to the reasonableness of a proposed settle­
ment and supports its approval”); In re Home Depot,
Inc. Customer Data Sec. Breach Litig., 2016 WL
6902351, at *4 (N.D. Ga. Aug. 23,2016) (same).
With respect to the sixth Bennett factor, the
Court finds that the case settled at a stage of the pro­
ceedings where class counsel had sufficient knowledge of
the law and facts to fairly weigh the benefits of the set­
tlement against the potential risk of continued litigation.
(See, e.g., App. 1, UU 4-15; Doc. 739-4,11 36). In particular,
class counsel conducted a thorough factual and legal in­
vestigation in order to prepare their comprehensive con­
solidated amended complaint; exhaustively researched
and analyzed the applicable law; reviewed more than
500,000 pages of documents and voluminous electronic
spreadsheets from Equifax [see generally, Doc. 900-1, HU

86a

614; Doc. 739-4, If 17]; consulted with various experts;
”’had_the benefit"of'substahtial informal'discovery, Including meetings with Equifax and its senior employees re­
sponsible for data security [Doc. 900-1, If 14; Doc. 739-4,11
23]; and engaged in confirmatory discovery after the
term sheet was finalized. [Doc. 739-4, If 36]. Thus, the
Bennett factors, like the Rule 23 factors, strongly sup­
port approval of the settlement.
Finally, in evaluating whether the settlement is
fair, reasonable, and adequate, the Court also gives due
weight to the judgment of class counsel. See, e.g., Nelson
v. Mead Johnson & Johnson Co., 484 F. App’x 429, 434
(11th Cir. 2012) (“Absent fraud, collusion, or the like, the
district court should be hesitant to substitute its own
judgment for that of counsel.”); Cotton v. Hinton, 559
F.2d 1326, 1330 (5th Cir. 1977). Class counsel are highly
experienced in significant complex litigation including
large and complex data breach class actions [Doc. 187,
pp. 6-7], and they strongly believe that both the economic
and injunctive relief secured for the class here is ex­
traordinary. [Doc. 739-4, If 60; see also App. 1, If 16]. Also
significant is Judge Phillips’s endorsement of the settle­
ment, particularly given his experience in mediating
large-scale data breach cases. [Doc. 739-9, If 13]. Finally,
the fact that nearly all of the applicable state and federal
regulators agreed to the provision of consumer redress
through the settlement fund in this action strongly
demonstrates the fairness of the settlement.
In conclusion, the settlement reflects an outstand­
ing result for the class in a case with a high level of risk.
The relief provided by this settlement—both monetary
and non-monetary—exceeds the relief provided in other

87a

data breach settlements and the Court finds is in the
High range of possible recoveries'if the case had'successfully been prosecuted through trial. Moreover, the set­
tlement resulted from hard fought, arm’s-length negotia­
tions, not collusion. The settlement is therefore fair, rea­
sonable, and adequate under Rule 23 and Eleventh Cir­
cuit precedent.
B.

The Court Certifies The Settlement Class.

The Court must examine whether this proposed
settlement class may be certified under Rule 23(a)’s pre­
requisites and under Rule 23(b)(3). Amchem Products,
Inc. v. Windsor, 521 U.S. 591, 613-14 (1997). The Court
previously concluded it was likely to certify the following
settlement class:
The approximately 147 million U.S. con­
sumers identified by Equifax whose per­
sonal information was compromised as a
result of the cyberattack and data breach
announced by Equifax Inc. on September
7,2017.
Excluded are (i) Equifax, any entity in which Equifax
has a controlling interest, and Equifax’s officers, direc­
tors, legal representatives, successors, subsidiaries, and
assigns; (ii) any judge, justice, or judicial officer presid­
ing over this, matter and the members of their immedi­
ate families and judicial staff; and (iii) any individual
who timely and validly opts out of the settlement class.
As the Court ruled on Equifax’s motion to dismiss, all of
these class members state claims for negligence and
negligence per se under Georgia law. [Doc. 540, at 9, 2943]. For the reasons set forth below, the Court hereby

88a

finally certifies, for settlement purposes only, the set­
tlement class pursuant'tcTFed. RrCivTP. 23.
"
1. Fed. R. Civ. P. 23(a) Requirements
Are Satisfied.
a)

Numerosity:

Rule 23(a)(1) requires that a proposed settlement
class be so numerous that joinder of all class members is
impracticable. Fed. R. Civ. P. 23(a)(1). The settlement
class consists of more than 147 million U.S. consumers,
indisputably rendering individual joinder impracticable.
b)

Commonality:

“Commonality requires the plaintiff to demon­
strate that the class members ‘have suffered the same
injury,” such that “all their claims can productively be
litigated at once.’” Wal-Mart Stores, Inc. v. Dukes, 564
U.S. 338, 349-350 (2011); see also Sellers v. Rushmore
Loan Mgmt. Servs., LLC, 941 F.3d 1031,1039 (11th Cir.
2019) (noting inquiry is far less demanding than Rule
23(b)(3)’s predominance requirement). All members of
the class suffered the same alleged injury, exposure of
their data in the Equifax data breach, stemming from
the same conduct and the same event. The class mem­
bers are asserting the same or substantially similar le­
gal claims. And “[t]he extensiveness and adequacy of
[defendants’] security measures lie at the heart of every
claim.” Anthem, 327 F.R.D. at 308. As the central ques­
tion in all class members’ claims is whether Equifax
breached its duty of care through its conduct with re­
gard to their personal information, common questions
are apt to drive the resolution of the legal issues in the
case. Id.

89a

Courts, including this one, have previously ad­
dressed this requirement in the context of data breach
class actions and found it readily satisfied. See, e.g.,
Home Depot, 2016 WL 6902351, at *2 (finding that mul­
tiple common issues “all center on [the defendant’s]
conduct, satisfying the commonality requirement.”); An­
them, 327 F.R.D. at 308 (noting that “the complaint con­
tains a common contention capable of class-wide resolu­
tion—‘one type of injury allegedly inflicted by one actor
in violation of one legal norm.’”). The same sorts of
common issues are present here, including whether
Equifax had a legal duty to adequately protect class
members’ personal information; whether Equifax
breached that legal duty; and whether Equifax knew or
should have known that class members’ personal infor­
mation was vulnerable to attack. See Home Depot, 2016
WL 6902351, at *2.
Commonality is satisfied.
c)

Typicality:

Rule 23(a)(3) requires that the claims or defenses
of the representative parties be typical of the claims or
defenses of the class. Fed. R. Civ. P. 23(a)(3). This prong
too is readily met in settlements of nationwide data
breach class actions. See Anthem, 327 F.R.D. at 309
(“[I]t is sufficient for typicality if the plaintiff endured a
course of conduct directed against the class.”). Plaintiffs’
claims here arise from the same data breach and
Equifax’s conduct in connection with the data breach.
The claims are also based on the same overarching legal
theory that Equifax failed in its common-law duty to pro-

90a

tect their personal information. The typicality require—ment has been-met-—~—■■—_—_—_____
d)

Adequacy of Representa­
tion:

As noted above, the adequacy requirement is sat­
isfied here, as the class representatives do not have any
interests antagonistic to other class members, and the
class has been well represented by the appointed class
counsel. The Court finds that the class representatives
have fulfilled their responsibilities on behalf of the class.
There is at least one class representative from each
state, and therefore the potential interests of class mem­
bers with various state law claims have been represent­
ed. The Court further finds no material differences that
would render these class representatives inadequate.
Likewise, the Court further finds that class counsel have
prosecuted the case vigorously and in the best interests
of the class, and they adequately represented each class
member.
Again, the Court notes that this prong too has
been readily met in nationwide data breach class action
settlements. See Home Depot, 2016 WL 6902351, at *2.
And multiple courts have found the adequacy require­
ment satisfied in nationwide data breach class action set­
tlements in the face of objections to the contrary. See
Anthem, 327 F.R.D. at 310 (“To the extent that there are
slight distinctions between Settlement Class Members,
the named Plaintiffs are a representative cross-section of
the entire Class.”); see generally In re Target Corp. Cus­
tomer Data Sec. Breach Litig., 892 F.3d 968, 974 (8th
Cir. 2018) (rejecting challenge to adequacy due to lack of

91a

“future-damages subclass”). The Court has identified no
conflicts among class^members'here: ~And significantly,
even the existence of minor conflicts does not defeat cer­
tification: “the conflict must be a fundamental one going
to the specific issues in controversy.” Valley Drug Co. v.
Geneva Pharm., Inc., 350 F.3d 1181, 1189 (11th Cir.
2003) (internal quotations and citations omitted). If any
conflict exists among class members or groups of class
members, that conflict certainly is not fundamental. The
Court has no doubt that the class representatives and
class counsel have performed their duties in the best in­
terests of the class.
2.

The Settlement Class Meets the
Requirements of Fed. R. Civ. P.
23(b)(3).

Rule 23(b)(3) requires that “questions of law or
fact common to class members predominate over any
questions affecting only individual members,” and that
class treatment is “superior to other available methods
for fairly and efficiently adjudicating the controversy.”
Id. The matters pertinent to these findings include:
• the class members’ interests in individually con­
trolling the prosecution or defense of separate ac­
tions;
• the extent and nature of any litigation concerning
the controversy already begun by or against class
members;
• the desirability or undesirability of concentrating
the litigation of the claims in the particular forum;
and
• the likely difficulties in managing a class action.

92a

Fed. R. Civ. P. 23(b); see also Vega v. T-Mobile USA,
Tna, 564“F'.'3dH2567127811'! thr Cir .“2009)~( “firdetermin-ing superiority, courts must consider the four factors of
Rule 23(b)(3).”). One part of the superiority analysis—
manageability—is irrelevant for purposes of certifying a
settlement class. Amchem, 521 U.S. at 620.
a)

Predominance:

The predominance requirement “tests whether
proposed classes are sufficiently cohesive to warrant ad­
judication by representation.” Id. at 623. “Common is­
sues of fact and law predominate if they have a direct
impact on every class member’s effort to establish liabil­
ity and on every class member’s entitlement to ... relief.”
Carriuolo v. Gen. Motors Co., 823 F.3d 977, 985 (11th
Cir. 2016).
Here, as set forth above, there are numerous
common questions. These common questions predomi­
nate because all claims arise out of a common course of
conduct by Equifax. The focus on a defendant’s security
measures in a data breach class action “is the precise
type of predominant question that makes class-wide ad­
judication worthwhile.” Anthem, 327 F.R.D. at 312.
Even though this is a nationwide class action, var­
iations in state law will not predominate over the com­
mon questions. The Court previously found that Georgia
law applies to the negligence claims of the entire class.
[Doc. 540 at 8-9].2 Further, in the context of this litiga2 Even if Georgia law did not apply to the negligence claims of the
entire class, “Plaintiffs’ negligence claims would not get bogged
down in the individualized causation issues that sometimes plague
products-defect cases. ... [because] the same actions by a single

93a

tion, the Court is persuaded that the presence of multiple
state consumer protection laws does not defeat predomi­
nance, because “the idiosyncratic differences between
state consumer protection laws are not sufficiently sub­
stantive to predominate over the shared claims” for pur­
poses of Rule 23(b)(3). Anthem, 327 F.R.D. at 315. In An­
them, the court found it noteworthy that “Plaintiffs’ the­
ories across these consumer-protection statutes are es­
sentially the same” thereby avoiding any pitfalls of state
law variation. Id. (quoting In re Mex. Money Transfer
Litig., 267 F.3d 743, 747 (7th Cir. 2001)). Here too, the
core allegations are that Equifax failed to implement and
maintain reasonable security and privacy measures and
failed to identify foreseeable security and privacy risks.
Perhaps the only significant individual issues here
involve damages, but these issues do not predominate
over the common issues in this case. See, e.g., Home De­
pot, 2016 WL 6902351, at *2; Anthem, 327 F.R.D. at 31116; see also Brown v. Electrolux Home Prods., Inc., 817
F.3d 1225, 1239 (11th Cir. 2016) (individualized damages
generally do not defeat predominance). Further minimiz­
ing any risk of individual damages predominating over
common issues, the consolidated amended complaint
seeks nominal damages on behalf of all class members,
which may be available under Georgia law even where no
evidence is given of any particular amount of loss. See,
e.g., Georgia Power Co. v. Womble, 150 Ga. App. 28, 32
(1979); Land v. Boone, 265 Ga. App. 551, 554 (2004).

actor wrought the same injury on all Settlement Class Members
together.” Anthem, 327 F.R.D. at 314.

94a

b)

iuperiority:-------------------

“The inquiry into whether the class action is the
superior method for a particular case focuses on in­
creased efficiency.” Agan v. Katzman & Korr, P.A., 222
F.R.D. 692, 700 (S.D. Fla. 2004) (internal quotation omit­
ted). “The focus of this analysis is on the relative ad­
vantages of a class action suit over whatever other forms
of litigation might be realistically available to the plain­
tiffs.” Sacred Heart Health Sys., Inc. v. Humana Mili­
tary Healthcare Servs., Inc., 601 F.3d 1159, 1183-84
(11th Cir. 2010) (internal quotation omitted). That a class
member may not receive a large award in a settlement
does not scuttle superiority; the opposite tends to be
true. See Dickens v. GC Servs. Ltd. P’ship, 706 F. App’x
529, 538 (11th Cir. 2017) (describing “the ways in which
the high likelihood of a low per-class-member recovery
militates in favor of class adjudication”).
Here, it is inconceivable that the vast majority of
class members would be interested in controlling the
prosecution of their own actions. The cost of doing so,
especially for class members who do not claim out-ofpocket losses, would dwarf even a full recovery at trial. A
major thrust of Equifax’s motion to dismiss was that the
plaintiffs did not suffer any damages, let alone the “rela­
tively paltry potential recoveries” that class actions serve
to vindicate. See Sacred Heart, 601 F.3d at 1184.
Given the technical nature of the facts, the volume
of data and documents at issue, and the unsettled area of
the law, it would not take long for an individual plaintiffs
case to be hopelessly submerged financially. On the oth­
er hand, the presence of such pertinent predominant
questions makes certification here appropriate. Compare

95a

Anthem, 327 F.R.D. at 312 (data breach dealt with “the
precise type of predominant question that makes class­
wide adjudication worthwhile”) with Sacred Heart, 601
F.3d at 1184 (“T]he predominance analysis has a tre­
mendous impact on the superiority analysis[.]”) (internal
quotation marks omitted).
As to the extent and nature of litigation already
commenced, the settlement agreement identifies 390
consumer cases related to this multidistrict litigation,
and there are more than 147 million class members. As
the Judicial Panel on Multidistrict Litigation stated,
“[centralization will eliminate duplicative discovery,
prevent inconsistent pretrial rulings on class certification
and other issues, and conserve the resources of the par­
ties, their counsel, and the judiciary.” In re: Equifax,
Inc., Customer Data Sec. Breach Litig., 289 F. Supp. 3d
1322, 1325 (JPML 2017). The settlement furthers those
goals. Similarly, it is desirable to concentrate the litiga­
tion of the claims here, which was selected as the trans­
feree district because, among other reasons, Equifax is
headquartered in this district, the vast majority of the
plaintiffs supported this district, and “far more actions
[were] pending in this district than in any other court in
the nation.” Id. at 1326.
Because the requirements of Rule 23(a) and (b)(3)
have been satisfied, the Court certifies the settlement
class.

96a

III.

THE COURT OVERRULES ALL OBJEC­
TIONS TO THE SETTLEMENT.

The Court now addresses objections to the set­
tlement. The objections fail to establish the settlement is
anything other than fair, reasonable, and adequate.
Out of the approximately 147 million class mem­
bers, only 388 directly objected—or just 0.0002 percent
of the class—despite organized efforts to solicit objec­
tions using inflammatory language and based on false
and misleading statements about the settlement, such as
that only $31 million is available to pay claims and that if
all 147 million class members filed claims everyone would
get 21 cents.3 Many objections repeat these false and
misleading assertions as fact and challenge the settle­
ment on that basis. Further, on the eve of the objection
deadline, an additional 718 form “objections,” which al­
legedly had been filled out online by class members,
were submitted en masse by Class Action Inc., a class
action claims aggregator that created a website
(www.NoThanksEquifax.com) with a “chat-bot” that en­
couraged individuals to object based on that same erro­
neous information.4 (App. 1, flf 49-59). These form “ob3 Charlie Warzel, Equifax Doesn’t Want You to Get Your $125.
Here’s What You Can Do, The New YORK Times (Sept. 16, 2019),
https://www.nytimes.com/2019/09/16/opinion/equifaxsettlement.html.
4 Reuben Metcalfe, You have the right to object to the Equifax set­
tlement.
Here’s
how.,
MEDIUM
(Nov.
8,
2019),
https://medium.com/@reubenmetcalfe/you-have-the-right-toobject-to-the-equifax-settlement-heres-how-4dfdb6cca663.
As
demonstrated in the record, Mr. Metcalfe represented to class
counsel that he had not even read the settlement agreement or no­
tice materials. [Doc. 939-1,1136].

97a

jections” are procedurallv invalid for the reasons set,
forth later in this Order.
The Court has considered and hereby rejects all
of the objections on their merits, whether or not the ob­
jections are procedurally valid or whatever may have
motivated their filing. All of the objections are in the rec­
ord, having been filed publicly on the Court’s docket with
the declaration of the claims administrator. [Doc. 899].
By way of example only, this Order references some of
the objectors by name. The Court groups the objections
as follows: (1) objections to the value of the settlement
and benefits conferred on the class; (2) objections relat­
ing to the alternative compensation benefit; (3) objec­
tions relating to class certification; (4) objections relating
to the process for objecting; (5) objections relating to the
process for opting-out; (6) objections to the notice plan;
and (7) objections to the claims process.5
In addition to the briefing from class counsel and
Equifax’s counsel, and the Court’s own independent re­
view and analysis, the Court reviewed and found helpful
to this process the supplemental declaration of Professor
Robert Klonoff (App. 2). Professor Klonoffs declaration
was particularly helpful to the Court in the organization
and consideration of the objections, but the Court’s deci­
sions regarding the objections are not dependent upon
his declaration or the declarations plaintiffs submitted
from two other lawyers, Professor Geoffrey Miller and
0 For the sake of organization, objections to attorneys’ fees, expens­
es, and service awards are addressed separately below. The Court’s
consideration of attorneys’ fees, and relating objections, are an inte­
gral part of the determination to finally approve the settlement un­
der the criteria of Rule 23.

98a

Haro]dJQaniel.J?oJdie-Con.traryT4he-Geurt-has-exereisedits own independent judgment in deciding to reject all of
the objections that have been filed.
A. Objections To The Value Of The Settlement
And Benefits Conferred On The Class.
A majority of the objectors express frustration
with Equifax’s business practices and want Equifax and
its senior management to be punished. The Court is well
aware of the intense public anger about the breach,
which, in the Court’s view, reflects the sentiment that
consumers generally do not voluntarily give their per­
sonal information directly to Equifax, yet Equifax col­
lects and profits from this information and allegedly
failed to take reasonable measures to protect it.
While understandable, the public anger does not
alter the Court’s role, which is not to change Equifax’s
business model or administer punishment. Under the
law, the Court is only charged with the task of determin­
ing whether the proposed settlement is fair, reasonable,
and adequate.6 And, with regard to that task, no one can
credibly deny that this is a historically significant data
6 See Ressler v. Jacobson, 822 F. Supp. 1551, 1552-53 (M.D. Fla.
1992) (judicial evaluation of a proposed settlement “involves a lim­
ited inquiry into whether the possible rewards of continued litiga­
tion with its risks and costs are outweighed by the benefits of the
settlement”); Figueroa v. Sharper Image Corp., 517 F. Supp. 2d
1292, 1326 (S.D. Fla. 2007) (a court’s role is not to “engage in a
claim-by-claim, dollar-by-dollar evaluation, but rather, to evaluate
the proposed settlement in its totality.”); Carter v. Forjas Taurus,
S.A., 701 F. App’x 759, 766 (11th Cir. 2017) (“settlements are com­
promises, providing the class members with benefits but not full
compensation.”).

99a

breach settlement_that^provides^subatantialrelief4,o-p.kss
members now and for years into the future. Or, that if
the Court does not approve the settlement, the plaintiffs’
claims may ultimately be unsuccessful and class mem­
bers may be left with nothing at all.
Objections that the settlement fund is too small
for the class size, or that Equifax should be required to
pay more, do not take into account the risks and realities
of litigation, and are not a basis for rejecting the settle­
ment. “Data-breach litigation is in its infancy with
threshold issues still playing out in the courts.” Anthem,
327 F.R.D. at 317. In light of the material risks involved
and the possibility that any of several adverse legal rul­
ings would have left the class with nothing, class counsel
would have been justified in settling for much less. See
Behrens v. Wometco Enters., Inc., 118 F.R.D. 534, 542
(S.D. Fla. 1998), affd, 899 F.2d 21 (11th Cir. 1990);
Linney v. Cellular Alaska P’shvp, 151 F.3d 1234, 1242
(9th Cir. 1998) (“[T]he very essence of a settlement is
compromise, a yielding of absolutes and an abandoning
of highest hopes.”) (internal quotation omitted). As it
stands, in many respects the settlement provides relief
beyond what the class members could have obtained at
trial.
Many objectors also ask the Court to rewrite the
settlement, but that is beyond the Court’s power.7 For
example, objectors demand that the settlement should
7 Cotton, 559 F.2d at 1331; Howard v. McLucas, 597 F. Supp. 1504,
1506 (M.D. Ga. 1984) (“[T]he court’s responsibility to approve or
disapprove does not give this court the power to force the parties to
agree to terms they oppose.” (emphasis in original)), rev’d in part
on other grounds, 782 F.2d 956 (11th Cir. 1986).

100a

.include :^a-_long_-zterm- -fund ^oi—-“sigm&ant---mflatron^
adjusted cash compensation from Equifax should they
leak my data again any time within the next 20 years”8;
“lifetime” credit and identity protection9; a minimum
cash payment for every class member (proposed
amounts include $10,000, $5,000, or $1,200)10; and a sepa­
rate cash option for class members who freeze their
credit.11 In most cases, these objectors do not contend
that the monetary relief is inadequate to compensate
class members for any harm caused by Equifax’s alleged
wrongs, making it hard to see how they are aggrieved.
See Brown v. Main Celestial Grp., Inc., 2016 WL 631880,
at *10 (N.D. Cal. Feb. 17, 2016) (citing In re First Capi­
tal Holdings Corp. Fin. Prods. Sec. Litig., 33 F.3d 29
(9th Cir. 1994)).12 Regardless, the Court readily con­
cludes that the settlement provides fair and adequate
relief under all of the circumstances.
Other settlement terms proposed by objectors are
of a regulatory or legislative nature, well beyond the
power of the civil justice system. For example, according
8 Objection of Tristan Wagner.
9 E.g., Objections of Francis J. Dixon III and Linda J. Moore.
10 E.g., Objections of Emma Britton, Norma Kline, and Vijay
Srikrishna Bhat.
11 E.g., Objections of Gary Brainin and Sybille Hamilton. These ob­
jections ignore, however, that class members could request out-ofpocket losses if they paid to freeze their credit.
12 Those class members who were unsatisfied with the relief made
available had the opportunity to opt out, weighing in favor of find­
ing the settlement fair, reasonable, and adequate. See, e.g., In re Oil
Spill By Oil Rig Deepwater Horizon on April 20, 2010, 295 F.R.D.
112, 156 (E.D. La. 2013) (“Those objectors who are unhappy with
their anticipated settlement compensation could have opted out and
pursued additional remedies through individual litigation.”).

101a

. to_some-obj.eetors, -^-a]ny-settlement is inadequatefif 'it
allows Equifax to continue using my personal data with­
out my express written consent”13; the board and officers
should disgorge their salaries and serve prison time;14 or
Equifax should be forced out of business.15 These “sug­
gestions constitute little more than a ‘wish list’ which
would be impossible to grant and [are] hardly in the best
interests of the class.” In re Domestic Air Trans. Anti­
trust Litig., 148 F.R.D. 297, 305 (N.D. Ga. 1993). No ob­
jector explains how this type of relief could be achieved
at trial.
A number of objectors take issue with the credit
monitoring services made available under the settle­
ment. Some object that credit monitoring is very valua­
ble, and thus the settlement should pay for more moni­
toring extended beyond ten years. Others object that
credit monitoring is not valuable at all, that free credit
monitoring and credit freezes are already available to
everyone, that the value of the offered monitoring is in­
flated to justify an inadequate settlement, and that the
actual cost to provide credit monitoring services is de
minimis.
This Court, like others before it, finds that credit
monitoring is a valuable settlement benefit, particularly
so the credit monitoring offered to class members in this

13 Objection of Susan S. Hanis.
14 E.g., Objections of Christie Biehl, Jeffrey Biehl, George Bruno,
and Patrick Frank.
15E.g., Objections of David Goering, Christie Biehl, and Jeffrey
Biehl.

102a

case-foi^such-a4engt-hy-period-of-tim-e^6'Th'ecr5ditlnoni;
toring provider has explained how the product offered in
the settlement is better than the “free” monitoring prod­
ucts typically available to the public, and how the ser­
vices seek to both prevent and address identity theft
concerns. See App. 6,
33-43 (summarizing the ad­
vantages of the Experian credit monitoring and identity
protection service negotiated as part of this settlement
over other services available). Its comparable retail value
is $24.99 per month. Id. It provides for $1 million in iden­
tity theft insurance and identity restoration services—
features designed to address identity theft. And as re­
ported by the claims administrator, millions of class
members have chosen to make a claim for the services,
further demonstrating their value.
This Court has repeatedly lauded high-quality
credit monitoring sendees as providing valuable classmember relief that would likely not otherwise be recov­
erable at trial, as have other courts in connection with
other data breach settlements.17 Finally, if class mem­
bers do not wish to claim the credit monitoring option,
16 See Target and Anthem, supra; see also Home Depot, 2016 WL
6902351, at *4 (overruling objections and finding that 18 months of
credit monitoring and injunctive components of settlement are val­
uable class benefits); Hillis v. Equifax Consumer Sews. Inc., 2007
WL 1953464, at *5 (N.D. Ga. June 12, 2007) (credit monitoring as
part of settlement has substantial value).
17 At the fairness hearing, class counsel summarized the benefits
available in the credit monitoring and identity protection plan that
was specifically negotiated as part of the settlement. The Court has
had the opportunity to review the benefits provided, as well as the
estimation of the value of those benefits, and this information has
informed the Court of its decision to approve the settlement.

103a

_they_can elect^lternative-Gash-eompensat-ion=whic}ris_a
form of relief that would not even be recoverable at tri­
al—or opt out of the settlement.18 After careful consider­
ation of the objections, the size and scope of relief se­
cured by this settlement remains unprecedented and
strongly supports final approval.
B.

Objections Relating To The Alternative
Compensation Benefit.

Many objectors challenge the adequacy of the al­
ternative compensation benefit, complaining that they
will not receive a $125 payment that they believe they
were promised. Objectors also suggest that the parties
and, implicitly by approving the notice plan, the Court,
misled the public by stating that all class members were
entitled to $125 simply by filing a claim or that the par­
ties engaged in some sort of “bait and switch” to keep
class members from getting $125. While the Court ap­
preciates the vehemence with which some of these objec­
tions are expressed, the reality is that the objections are
misguided, ignore the limits of litigation, and are based
upon a misunderstanding of the settlement.
Class counsel have explained that among their
primary goals in the settlement negotiations were to en­
sure that consumers with out-of-pocket losses from deal­
ing with identity theft that had already occurred or by
taking precautionary measures would be reimbursed,
18 See, e.g., Greco v. Ginn Dev. Co., LLC, 635 F. App’x 628, 635-36
(11th Cir. 2015) (“If [objector] was displeased with the considera­
tion provided to him under the settlement... he was free ... to opt
out of the settlement.”); Fought, 668 F.3d at 1242 (to the same ef­
fect); Lee v. Ocwen Loan Servicing, LLC, No. 14-cv-60649, 2015
WL 5449813, at *13 (S.D. Fla. Sept. 14, 2015) (to the same effect).

104a

_... that.alL147-million-Glass-members-wotiltHiave thTe' oppurtunity to get high quality credit monitoring to detect and
defend against future identity theft, and that all class
members would have access to identity restoration ser­
vices if they learn they have been victimized by identity
theft. The structure of the settlement reflects those
goals, which the Court finds were appropriate and rea­
sonable. Contrary to the impression held by many ob­
jectors who are critical of the settlement, the purpose of
the alternative compensation remedy was not to provide
every class member with the opportunity to claim $125
simply because their data was impacted by the breach
(and those who object provide no statutory support that
they would be entitled to such an automatic payment at
trial). Rather, its purpose was to provide a modest cash
payment as an “alternative” benefit for those who, for
whatever reason, have existing credit monitoring ser­
vices and do not wish to make a claim for the credit mon­
itoring offered under the settlement. Thus, under the
settlement, alternative compensation is expressly limited
to those who already have credit monitoring services, do
not want the credit monitoring services available under
the settlement, attest they will maintain their own ser­
vice for at least six months, and provide the name of
them current credit monitoring service. Moreover, those
individuals who paid for their own credit monitoring ser­
vice after the breach are able to file a claim to recoup
what they paid for those credit monitoring services as
out-of-pocket losses in addition to making a claim for the
alternative reimbursement compensation available under
the settlement.

105a

——The. Courhfinds-that-the parties1 decision-to settleon terms that did not provide a cash payment to every
class member was reasonable; indeed, settlement likely
would not have been possible otherwise. The Court is
skeptical that, even if it had the financial ability to do so,
Equifax would ever willingly pay (or even expose itself to
the risk of paying) the billions of dollars that providing a
substantial cash payment to all class members would
cost. The Court also finds that limiting the availability of
the alternative compensation benefit in the way that is
done under the settlement was reasonable, and the set­
tlement would have easily been approved had there been
no alternative compensation benefit at all.
The alternative compensation remedy was capped
at $31 million as a result of arm’s length negotiations. As
compared to the settlement fund amounts earmarked for
out-of-pocket losses, the Court finds this apportionment
to be entirely equitable. Class members who incurred
out-of-pocket losses—including paying for credit moni­
toring or credit freezes after announcement of the
breach—have stronger claims for damages, and those
who do not are also entitled to claim credit monitoring
and identity restoration services going forward, which
provides protection and assistance to class members who
are subject to identity theft during the term of the set­
tlement. It appears that the distribution plan will suc­
cessfully achieve its goals. According to the settlement
administrator, even after paying the costs of credit moni­
toring and identity restoration services, the settlement
fund (as supplemented with an additional $125 million if
needed) likely will have sufficient money to pay class
members with demonstrable out-of-pocket losses the en-

106a

Tim-amount- ©f-4Jieir—approved-elaimsr-Audy anymoney
remaining in the fund after the extended claims period
will be used to lift the cap on alternative compensation,
allowing alternative compensation claimants to receive
an additional, pro rata payment—which many objectors
ignore.19 The notice plan the Court approved in its Or­
der Directing Notice explained that the amount available
to pay alternative compensation claims was capped and
that individual class members might receive less than
$125. The long form notice (which was posted on the set­
tlement website as of July 24, 2019—the same date that
class members could start making claims), for example,
told class members that they could get “up to” $125 in
alternative compensation and further stated: “If there
are more than $31 million in claims for Alternative Re­
imbursement Compensation, all payments for Alterna­
tive Reimbursement Compensation will be lowered and
distributed on a proportional basis.” [Doc. 739-2 at 266].
On the same day that the proposed settlement
was first presented to this Court and well before the
Court-approved email notices were sent to class mem­
bers, regulators announced their own settlements with
Equifax that incorporated the proposed settlement’s
consumer restitution terms in this case, including the al­
ternative compensation benefit. In covering the regula­
tors’ announcements, media outlets began reporting that
consumers could get $125 under the settlement without
describing the limited purpose of and the eligibility re­
quirements for the alternative compensation benefit. The
ability to receive $125 under the settlement was also
19 Objections have also been made to the $38 million cap on claims
for time. For the same reasons, the Court rejects these objections.

107a

_touted_on_social-media,-adding-to-the-publie-mispereep^
tion. (App. 1, Iff 30-37). The settlement website began
accepting claims on July 24, 2019, shortly after the set­
tlement was preliminarily approved. In the ensuing days,
millions of claims for alternative compensation were
filed. Because of the claims volume and the $31 million
cap, it quickly became apparent to class counsel that al­
ternative compensation claimants likely would receive a
small fraction of what they may have expected based up­
on media reports, although the specific amount they
would receive was unknown. (The specific amount alter­
native compensation claimants will be paid is unknowa­
ble until after the total number of valid alternative com­
pensation claims is determined following the end of the
initial claims period and, even then, their payments may
be supplemented following the extended claims period if
additional money remains after claims for out-of-pocket
losses have been satisfied.) (App.l, 1JH 43-44).
Class counsel acted immediately to ensure that
class members were not disadvantaged by the mislead­
ing media reports and the widespread public mispercep­
tion about the alternative compensation benefit. They
proposed a plan to Equifax and, after receiving input
from regulators, presented the plan to the Court at a
hearing held on July 30, 2019. The essence of the plan
entailed notifying class members that, because of the
claims volume, alternative compensation claimants likely
would receive much less than $125 so that, going for­
ward, class members would have that information in
making a choice between credit monitoring and alterna­
tive compensation. The plan also afforded those who had
already filed a claim a renewed opportunity to choose

108a

The Court approved the plan at the hearing and directed
the parties to implement its terms. They did so. (App.l,
111143-44).
On August 1, 2019, class counsel distributed a
statement to the media explaining the limitations of the
alternative compensation benefit and urging class mem­
bers to rely only on the official court notice, not what
they heard or read in the media. On August 2, 2019, a
statement was placed in a prominent position on the
home page of the settlement website that read:
If you request or have requested a cash
benefit, the amount you receive may be
significantly reduced depending on how
many valid claims are ultimately submitted
by other class members. Based on the
number of potentially valid claims that
have been submitted to date, payments for
time spent and alternative compensation of
up to $125 likely will be substantially low­
ered and will be distributed on a propor­
tional basis if the settlement becomes final.
Depending on the number of additional
valid claims filed, the amount you receive
may be a small percentage of your initial
claim.
On August 7, 2019, the direct email notice cam­
paign that the Court approved in its July 22, 2019 Order
Directing Notice commenced. The first email notice,
which was sent to more than 100 million class members,
prominently featured the same statement that had been

109a
20

also was featured in a follow up email to the class. More­
over, a separate email was sent to all class members who
had filed a claim for alternative compensation before
August 2, 2019, repeating the same message and giving
them the opportunity to choose credit monitoring if they
wanted to switch their claim from alternative reim­
bursement. Also around this time, the FTC publicly an­
nounced that the alternative compensation claim would
be less than $125, recommended that class members se­
lect credit monitoring, and included the statement that
any class member who already made a claim for alterna­
tive compensation could switch to claim credit monitor­
ing.21
So, beginning August 2, 2019, all class members
who went to the website to file a claim were put on notice
that alternative compensation claimants in all likelihood
would only receive a small percentage of $125.22 Begin­
ning August 7, 2019, class members were given the same
information as part of the Court-approved direct email
notice program. And, all class members who filed an al­
ternative compensation claim before August 2, 2019,
20 This statement was also included in the publication notice, which
appeared as a full-page advertisement in USA Today on September
6,2019.
21 FTC Encourages Consumers to Opt for Free Credit Monitoring,
as part of Equifax Settlement, FTC (July 31, 2019), available at
https://www.ftc.gov/newsevents/press-releases/2019/Q7/ftcencourages-consumers-opt-free-creditmonitoring-part-eauifax.
22 The online claim form was also amended as of August 2, 2019 to
advise that payments for the alternative compensation benefit may
be less than $125 depending on the number and amount of claims
filed.

110a
wprp

■separately-told-of the-situatiorrand giverran oppof1
tunity to amend their claim to choose credit monitoring
instead of the cash payment if they wanted to do so. The
Court thus finds that the notice plan approved by the
Court on July 22, 2019, coupled with the supplemental
plan approved at the July 30,2019 hearing, provided rea­
sonable and adequate notice to the class about the limits
of the alternative compensation benefit and that class
members had sufficient information and opportunity to
make an informed choice between that benefit and credit
monitoring.
The likelihood that alternative compensation
claimants will receive substantially less than $125 does
not mean that the relief afforded by the settlement is in­
adequate. To the contrary, as described above, the relief
offered by the settlement is unprecedented in scope. The
Court must evaluate the adequacy of the settlement in
terms of the entirety of the relief afforded to the class.
The other substantial benefits—including payment of
out-of-pocket losses, credit monitoring, identity restora­
tion services, and the reduction in the risk of another
breach—would justify approval of the settlement as fair,
reasonable, and adequate even if the settlement did not
provide an alternative compensation benefit at all. In­
deed, this Court has previously approved settlements
that provided no alternative compensation benefit in the
Home Depot and Arby’s data breach cases.
Moreover, the likelihood that alternative compen­
sation claimants will receive substantially less than $125
is not unfair, and does not render the alternative com­
pensation benefit itself inadequate. All of the alternative
compensation claimants are eligible for the same relief

111a

same Court-approved communications as other class
members disclosing that payments for alternative com­
pensation claims would be a small percentage of $125,
and those who filed their claims before the above en­
hancements to the settlement website were implemented
were given the opportunity to change their minds. That
class members, armed with this information, chose alter­
native compensation rather than the more valuable cred­
it monitoring services offered by the settlement reflects
their own personal decision, not a failing of the settle­
ment or inadequate representation by class counsel.
Moreover, the alternative compensation claimants retain
the right to take advantage of all the other settlement
benefits except credit monitoring.
It is unfortunate that inaccurate media reports
and social media posts created a widespread belief that
all class members, simply by filing a claim, would receive
$125. But the parties are not responsible for those re­
ports and class counsel acted appropriately, diligently,
and in the best interests of the class by taking corrective
action when they learned of the erroneous reporting.
Moreover, any class member who chose alternative com­
pensation rather than credit monitoring has had ample
opportunity to make a new choice. Accordingly, objec­
tions to the adequacy of the settlement based on the fact
that alternative compensation claimants will not receive
$125; the manner in which class members were informed
about the alternative compensation benefit; or the notion
that class members were misled into choosing alternative
compensation are overruled.

112a

_ _c._ QbiectionsRelatingTo^iassUertifreatHm.—
Objectors to class certification assert that the
class representatives and counsel are not “adequate” for
purposes of Rule 23(a)(4) because: (1) the interests of
class members who have already incurred out-of-pocket
losses conflict with those who are incurred only a risk of
future losses,23 or (2) some state consumer protection
laws implicate statutory penalties while others do not.24
Thus, according to the objections, “fundamental” intra­
class conflicts between subgroups exist, requiring nu­
merous subclasses with separate counsel for each. See,
e.g., Amchem, 521 U.S. at 591; Ortiz v. Fibreboard Corp.,
527 U.S. 815 (1999). These objections are wholly without
merit as there simply are no fatal intra-class conflicts,
fundamental or otherwise.
For the reasons set forth below, subclasses were
not required here and, much more likely, would have
been detrimental to the interests of the entire class. The
practical effect of creating numerous subclasses repre­
sented by competing teams of lawyers would have de­
creased the overall leverage of the class in settlement
discussions and rendered productive negotiations diffi­
cult if not impossible.25 Further, if the case had not set­
tled, the additional subclasses and lawyers likely would
23

Objection of Shiyang Huang [Doc. 813 at 5-7],
24 Objection of Frank and Watkins [Doc. 876 at 1],
25 See In re Oil Spill by Oil Rig Deepwater Horizon in Gulf of Mex­
ico, on April 20, 2010, 910 F. Supp. 2d 891, 919 (E.D. La. 2012),
affd sub nom. In re Deepwater Horizon, 739 F.3d 790 (5th Cir.
2014) (district court wary of “[s]uch rigid formalism” of requiring
subclasses, “which would produce enormous obstacles to negotiat­
ing a class settlement with no apparent benefit[.]”).

113a

___ have made-the-litigat-ion-^roeessrparticntoljrdisc6very
and trial, much harder to manage and caused needless
duplication of effort, inefficiency, and jury confusion.26
The Eleventh Circuit has provided the contours
necessary for an objector to establish a fundamental con­
flict that may necessitate subclasses: “A fundamental
conflict exists where some party members claim to have
been harmed by the same conduct that benefitted other
members of the class.” Valley Drug Co. v. Geneva
Pharm., Inc., 350 F.3d at 1189. “[T]he existence of minor
conflicts alone will not defeat a party’s claim to class cer­
tification: the conflict must be a ‘fundamental’ one going
to the specific issues in controversy.” Id. There is simply
is no evidence of a fundamental intra-class conflict in this
case. No class members were made better off by the data
breach such that their interests in the outcome of the lit­
igation are adverse to other class members. Similarly, all
class members benefit from the proposed settlement,
while none are harmed by it. In arguing otherwise, the
26 Frank and Watkins contend that residents of each jurisdiction
with statutory claims that survived the motion to dismiss should be
served by separate counsel. (See Final Approval Hearing Tr., at 7879). They also acknowledge that claims under consumer protection
statutes from 33 jurisdictions survived. [Doc. 876, at 6]. The objec­
tors’ approach thus would require at least 34 separate teams of law­
yers (appointed class counsel plus lawyers for each jurisdiction),
which would needlessly cause the scope of these proceedings to ex­
plode. The selection and appointment process alone would be incred­
ibly time consuming and the duplication of effort involved in ensur­
ing each legal team was adequately versed in the law and facts to
assess the relative worth of their clients’ claims would be staggering.
Ironically, the same objectors criticize the requested attorneys’ fees
in this case on the basis that class counsel’s hours are inflated be­
cause too many lawyers worked on it. [Doc. 876, at 24].

114a

. ohj.ectoKS-focus -on-min0r-differences"withirrthe class that
are immaterial in the context of this case and, in any
event, do not defeat class certification.
Shiyang Huang’s objection—that this fact pattern
is akin to Amchem and Ortiz because some class mem­
bers have presently incurred out-of-pocket costs while
others have not—was thoroughly analyzed and rejected
in Target
The Amchem and OHiz global classes
failed the adequacy test because the set­
tlements in those cases disadvantaged one
group of plaintiffs to the benefit of another.
There is no evidence that the settlement
here is similarly weighted in favor of one
group to the detriment of another. Rather,
the settlement accounts for all injuries suf­
fered. Plaintiffs who can demonstrate
damages, whether through unreimbursed
charges on their payment cards, time spent
resolving issues with their payment cards,
or the purchase of credit-monitoring or
identity-theft protection, are reimbursed
for their actual losses, up to $10,000. Plain­
tiffs who have no demonstrable injury re­
ceive the benefit of Target’s institutional
reforms that will better protect consumers’
information in the future, and will also re­
ceive a pro-rata share of any remaining
settlement fund. It is a red herring to in­
sist, as [Objector] does, that the no-injury
Plaintiffs’ interests are contrary to those of
the demonstrable-injury Plaintiffs. All

115a

__ ___Plaintiffs are. fully compensated for their______
injuries.
Target, 2017 WL 2178306, at *5, affd, 892 F.3d at 973-76;
see generally id. at *29. Further, “the interests of the
various plaintiffs do not have to be identical to the inter­
ests of every class member; it is enough that they share
common objectives and legal or factual positions.” Id. at
*6 (quoting Petrovic v. Amoco Oil Co., 200 F.3d 1140,
1148 (8th Cir. 1999)). As in Target, the class representa­
tives are adequate here because they seek essentially the
same things as all class members: compensation for
whatever monetary damages they suffered and reassur­
ance that their information will be safer in Equifax’s
hands in the future. Id.21
Unlike here, Amchem and Ortiz were massive
personal injury “class action[s] prompted by the ele­
phantine mass of asbestos cases” that “defie[d] custom­
ary judicial administration.” Profl Firefighters Ass’n of
Omaha, Local 385 v. Zalewski, 678 F.3d 640, 646 (8th
Cir. 2012). In those cases adequacy was not sufficiently
protected within a single class because claimants who
suffered diverse medical conditions as a result of asbes­
tos exposure wanted to maximize the immediate payout,
whereas healthy claimants had a strong countervailing
interest in preserving funds in case they became ill in the
27 See also Anthem, 327 F.R.D. at 309-11 (analyzing and overruling
same objection). This Court rejected a similar objection in the
Home Depot consumer track. See 2016 WL 6902351 (rejecting all
objections asserted by Sam Miorelli, including an objection that
separate counsel was necessary to represent allegedly conflicting
subclasses (No. 14-md-2583-TWT, Doc. 237 at 39-40) (objection);
Doc. 245 at 2123 (reply in support of final approval)).

116a

.future. These_vast_differences-between-grQups of-claimants in Amchem required “caution [because] individual
stakes are high and disparities among class members
great.” Amchem, 521 U.S. at 625. Those concerns are
simply not present in this consumer case where all class
members allege the same injury from the compromise of
their personal information. See Anthem, 327 F.R.D. at
314 (dispelling analogies to Amchem in the data beach
context because “the same actions by a single actor
wrought the same injury on all Settlement Class Mem­
bers together”).
Further, Mr. Huang’s argument is particularly
weak given the structure of the settlement in this case
and the nature of the alleged harm to the class. While
those who have already incurred out-of-pocket losses are
being reimbursed now, those who incur out-of-pocket
losses in the future are not left without a monetary rem­
edy. Class members will have an opportunity to be reim­
bursed for out-of-pocket losses relating to future identity
theft during the extended claims period. Moreover, there
is no conflict because of the nature of the harm caused by
the breach. Those who have already suffered losses
stand just as likely to suffer future losses as those who
have not suffered any losses to date and thus all class
members have an incentive to protect against future
harm. See Target, 892 F.3d at 976 (future injury “is just
as likely to happen to a member of the subclass with doc­
umented losses”).
Accordingly, the interests of the proposed sub­
classes here “are more congruent than disparate, and
there is no fundamental conflict requiring separate rep­
resentation.” Target, 892 F.3d at 976; see also Anthem,

117a

327 E.E,D.at 309J.0.Tlie-settlemeiit-benefits-all-Glassmembers equally by compensating both current and fu­
ture losses as well as protecting against and providing
assistance in dealing with any future losses or misuse of
their information. The Court therefore rejects Shiyang
Huang’s objection to class certification.
Objectors Frank and Watkins insist that the ade­
quacy of representation requirement can only be satis­
fied with subclasses, with separate counsel, to account
for differences in the damages potentially available un­
der different state consumer statutes. The Court is not
persuaded, as this case seems well-suited to resolution
via a nationwide class settlement. Frank and Watkins
have not demonstrated how separate representation for
state-specific subclasses would benefit anyone, let alone
the class as a whole, or that the state statutes as a practi­
cal matter provide any class members with a substantial
remedy under the facts presented. To the contrary, the
Court finds that it is unlikely that any individual class
members would have benefitted in any material way
from state statutory remedies under the circumstances
of this case or from separate representation for the pur­
pose of advocating the alleged value of those remedies.
To begin with, the court in Target rejected this
specific objection explaining:28

28 Frank, the objector here, is a lawyer who represented the unsuc­
cessful objector in Target. His co-counsel in Target, Melissa
Holyoak, represents Frank and Watkins (her brother) in this case.
While their roles may be different, Frank and Holyoak are making
the same argument that failed in Target.

118a

------------- The-avAilability-of-potential-statutory-dam--------ages for members of the class from Cali­
fornia, Rhode Island, and the District of
Columbia does not, by itself, mean that the
interests of these class members are an­
tagonistic to the interests of class members
from other jurisdictions. Class actions
nearly always involve class members with
non-identical damages....
[Objector’s] argument in this regard ig­
nores the substantial barriers to any indi­
vidual class member actually recovering
statutory damages. Class members from
these three jurisdictions willingly gave up
their uncertain potential recovery of statu­
tory damages for the certain and complete
recovery, whether monetary or equitable,
the class settlement offered. Contrary to
[Objector’s] belief, this demonstrates the
cohesiveness of the class and the excellent
result named Plaintiffs and class counsel
negotiated, not any intraclass conflict.
2017 WL 2178306, at *6. Similarly, the trial court in An­
them found that, as in this case, “there is no structural
conflict of interest based on variations in state law, for
the named representatives include individuals from each
state, and the differences in state remedies are not suffi­
ciently substantial so as to warrant the creation of sub­
classes.” Anthem, 327 F.R.D. at 310 (quoting Hanlon v.
Chrysler Corp., 150 F.3d 1011, 1021 (9th Cir. 1998)); cf.
Columbus Drywall, 258 F.R.D. at 555 (“The fact that the
named plaintiffs may have suffered greater damages

119a

_d_oes_notJndicate that uam.e.d..plain.tiffs possess interests,
antagonistic to other plaintiffs.”)-29
Those cases are more analogous here than the au­
thority objectors cite. In W. Morgan-E. Lawrence Water
& Sewer Auth. v. 3M Co., 737 F. App’x 457 (11th Cir.
2018), consumers of allegedly contaminated water and
the water authority that supplied the water were lumped
into the same settlement class in an action against the
alleged polluters, even though many class members had
actually filed injury claims against the water authority.
Id. at 464. Because the water authority had an interest in
maximizing the injunctive relief obtained from the al­
leged polluters while minimizing the value of (if not un­
dermining entirely) consumers’ claims for compensatory
damages, a fundamental intra-class conflict plainly exist­
ed, precluding dual representation of consumers and the
water authority. Id. No such fundamental conflict exists
here.

29 See also Hanlon, 150 F.3d at 1022 (“although some class members
may possess slightly differing remedies based on state statute or
common law, the actions asserted by the class representatives are
not sufficiently anomalous to deny class certification. On the contra­
ry, to the extent distinct remedies exist, they are local variants of a
generally homogenous collection of causes which include products
liability, breaches of express and implied warranties, and ‘lemon
laws.’”); Dickens v. GC Servs. Ltd. P’ship, 706 F. App’x 529, 536
(11th Cir. 2017) (class representative may be adequate even where
seeking only statutory damages when other class members also suf­
fered actual damages; at most this is a “minor conflict” under Valley
Drug)] Navelski v. Int’l Paper Co., 244 F. Supp. 3d 1275, 1307 (N.D.
Fla.), reconsideration denied, 261 F. Supp. 3d 1212 (N.D. Fla. 2017)
(“The class members’ damages will differ in degree, perhaps, but
not in nature.”).

120a

— ---- Erank-and. Watkins- also-rely-on-the Second- Cir^cuit’s opinion in In re Literary Works in Elec. Databases
Copyright Litig., 654 F.3d 242 (2d Cir. 2011). They claim
the case is “directly on point,” but it is not. [Doc. 876 at
7]. Literary Works was a copyright case in which the
proposed settlement divided the class into three claimant
groups, called Categories A, B, and C. Unlike here, no
single transaction or claim united the Category A, B, and
C plaintiffs. The settlement capped the defendants’ total
liability and provided that, if the claims exceeded that
cap, the Category C claims would be reduced pro rata.
Id. at 246. In other words, the settlement protected the
Category A and B claims at the sole expense of the Cat­
egory C claims and could have resulted in Category C
claimants receiving nothing. So, unlike here, the Liter­
ary Works settlement “sold out” one category of claims.
See id. at 252.
The three claims categories in Literal Works
were different in kind given the statutory scheme under
which they arose. Category A claimants (whose claims
were uniquely valuable under federal copyright law be­
cause they were registered in time to be eligible for stat­
utory penalties) had stronger claims than Category C
claimants (who had never registered their copyrights
and thus were not eligible to claim even actual damages).
But, according to the court, that did not mean Category
A claimants could take all the settlement’s benefits, at
least not without independent representation for the
Category C claimants. In contrast, the proposed settle­
ment in this case provides all class members with bene­
fits and, unlike in the proposed settlement in Literary

121a

W_orks,is “carefully -caIibrated!L_tQ_do^so,_^i?ifcgmT. 132-7.
F.R.D. at310-ll.30
Further, unlike in Literary Works, the entire
class in this case brings the same common law claim for
negligence stemming from the same event and arising
under one state’s law. This shared claim—involving the
uniform applicability of Georgia law to a single set of
facts—binds the interests of all class members, no mat­
ter where they reside, and overcomes any theoretical dif­
ferences that arise from potential state statutory reme­
dies. That is particularly true in this case because there
is substantial doubt as to whether the plaintiffs can satis­
fy conditions the state statutes require to prove liability
on an individual or class wide basis, (Utah’s statute for
example, requires each plaintiff to establish a “loss” and
may not even be available in a class action),31 and the
complaint seeks nominal damages under Georgia law on
30 For the same reason, the Court overrules the Frank and Watkins
objection that the settlement treats class members inequitably. The
Court finds that due to the calibration of benefits, the settlement
satisfies Rule 23(e)(2)(D). Further, the Court does not agree that
Frank and Watkins’s approach would lead to a more equitable re­
sult and finds instead that it could disadvantage the entire class.
Due to the large number of class members, at best, the approach
might allow residents of a handful of states to receive potentially
larger (but still quite small) statutory damages. But predicting such
a result is mere speculation, particularly because the two objectors
have not demonstrated that the statutory claims to which they
point are even viable. More likely, them approach would lead to no
settlement (and possibly no recovery at all).
31 See U.C.A. § 13-11-19 (“A consumer who suffers loss as a result of
a violation of this chapter may recover, but not in a class action,
actual damages or $2,000, whichever is greater, plus court costs.”)
(emphasis added).

122a

the statutory damages for which Frank and Watkins ar­
gue. See, e.g., Wright v. Wilcox, 262 Ga. App. 659, 662
(2003) (noting that damages are not “restricted to a very '
small amount”). Thus, Frank and Watkins’s claim that no
one “press[ed] their most compelling case” is without
merit. [Doc. 876, at 11].
So too is the objectors’ implication that their re­
covery is inadequate in relation to a possible award at
trial. The Court has already noted that the settlement is
at the high end of the range of likely recoveries and that
many of the specific benefits of the settlement likely
would not be attainable at trial, such as the fact that all
class members are eligible for credit monitoring. Over a
four-year period, the retail value of the credit monitoring
approximates or exceeds the purported value of Frank
and Watkins’s statutory damages claims. Accordingly,
Frank and Watkins likely are economically better off un­
der the settlement than they would be even in the unlike­
ly event that their state statutory claims were successful­
ly litigated through trial. In short, the reality is that any
conflicts between class members based upon their states
of residence are doubtful and speculative, and even if any
such conflicts exist, they are minimal.
Finally, Frank and Watkins do not identify any
authority holding that a class settlement cannot release
individual claims arising from the same transaction or
occurrence that are not held by all class members. That
happens all the time, in all manner of class judgments,
and the Court has considered and found equitable under
Rule 23(e) the scope of the release here. Under Frank
and Watkins’s theory, every multi-state class action set-

123a

Element involving stateJaw_claims. would- risk invaliditywithout subclasses (with separate representatives and
counsel) for each state. Many class settlements that have
been approved and upheld on appeal would be invalid as
a matter of law under such a rule, including NFL Con­
cussion, 32 Chrysler-Dodge-Jeep E codiesel, 33 and
Volkswagen “Clean Diesel. ><34
The facts asserted by the objectors thus do not
establish a conflict. And even if the objectors had identi­
fied a non-speculative conflict, which they have not, the
conflict is minor and does not go to the heart of the
claims asserted in the litigation. Moreover, the involve­
ment of a cross-section of class representatives across all
states, use of a respected and experienced mediator, and
extensive input from state and federal regulators all
safeguarded the process leading to the settlement. In­
deed, the Attorneys General of both jurisdictions in
which Frank and Watkins reside— Utah and the District
of Columbia—incorporated this settlement as the mech­
anism for providing relief to their citizens in their own
settlements with Equifax.

32 In re Nat’l Football League Players Concussion Injury Litig., 307
F.R.D. 351 (E.D. Pa. 2015), ajfd, 821 F.3d 410 (3d Cir. 2016).
33
In re Chrysler-Dodge-Jeep Ecodiesel Mktg., Sales Practices, &
Prods. Liab. Litig., 2019 WL 2554232 (N.D. Cal. May 3,2019).
34
In re: Volkswagen “Clean Diesel” Mktg., Sales Practices, &
Prods. Liab. Litig., No. MDL 2672 CRB (JSC), 2016 WL 6248426
(N.D. Cal. Oct. 25, 2016), ajfd, 895 F.3d 597 (9th Cir. 2018), and
ajfd, 741 F. App’x 367 (9th Cir. 2018) (2.0-liter settlement); In re
Volkswagen “Clean Diesel” Mktg., Sales Practices, & Prods. Liab.
Litig., No. MDL 2672 CRB (JSC), 2017 WL 2212783 (N.D. Cal.
May 17, 2017) (3.0-liter settlement).

124a

For all these reasons, the_objections. x.elated_.to
other consumer protection statutes do not present a
problem with adequacy. In that regard, the Court also
finds it relevant that Rule 23(e) was recently amended to
require consideration of how settlement benefits are ap­
portioned among class members as part of the fairness,
reasonableness, and adequacy requirement. That, in and
of itself, suggests that the adequacy requirement does
not require that every class member share identical and
overlapping claims. The Court has found here that the
benefits are being equitably apportioned, and that the
class is adequately represented without fundamental
conflicts. There is therefore no basis to deny class certifi­
cation under Rule 23(a)(4).
Another objector claims that class members who
have an existing credit monitoring service are treated
inequitably. [Doc. 880 at 11]. But claimants who pur­
chased credit monitoring on or after September 7, 2017,
in response to the breach may make a claim for full re­
imbursement of the costs, up through the date they sub­
mit a claim. [Doc. 739-2, UH 2.37, 6.2.4, 8.3.2]. These class
members also have the opportunity to cancel their exist­
ing credit monitoring service and sign up for the (likely
superior) comprehensive credit monitoring offered under
the settlement, obtaining the same benefits available to
every other class member. Or, they are eligible for alter­
native cash compensation, albeit smaller than the maxi­
mum $125, and remain eligible for all of the other settle­
ment benefits. Accordingly, the Court finds that those
class members with existing credit monitoring are treat­
ed equitably under the settlement.

125a

. -_JD. Objections.JEtelatingrTo The Process ForObiecting.
The Court finds that the process for objecting is
reasonable. Some objectors argue that the procedure for
objecting is overly burdensome, asserting that objectors
should not be required to show they are members of the
settlement class, or provide their personal contact infor­
mation, signature, or dates for a potential deposition.
This argument is at odds with the number of objections
received, and few objectors had difficulty meeting these
criteria. Nevertheless, the requirements imposed on ob­
jectors are consistent with Rule 23, are common features
of class action settlements,35 and were informed by the
Court’s previous experience dealing with objectors in
connection with the Home Depot data breach settlement.
Some objectors protest the possibility of being
subjected to a deposition, but objectors who voluntarily
appear in an action place their standing and basis for ob­
jecting at issue for discovery. See In re Cathode Ray
35 See Champs Sports Bar & Grill Co. v. Mercury Payment Sys.,
LLC, 275 F. Supp. 3d 1350,1353 (N.D. Ga. 2017) (striking objection
for failing to comply with similar criteria); Home Depot, Doc. 185 at
11 12 (N.D. Ga. March 8, 2016) (requiring objectors to provide per­
sonal contact information and signature); Jones v. United
Healthcare Servs., Inc., 2016 WL 8738256, at *4 (S.D. Fla. Sept. 22,
2016); Chimeno-Buzzi v. Hollister Co., 2015 WL 9269266, at *5
(S.D. Fla. Dec. 18, 2015) (same); see also In re Premera Blue Cross
Customer Data Sec. Breach Litig., 2019 WL 3410382, at *27 (D. Or.
July 29, 2019) (requiring objectors to provide personal contact in­
formation and provide signed statement that he or she is member
of settlement class); In re Anthem, Inc. Data Breach Litig., 2017
WL 3730912, at *3 (N.D. Cal. Aug. 25, 2017) (requiring written ob­
jection to contain personal contact information and signature).

126a

Jlube.XCET)^ntii^st-Litig., 28LTi-R.D,-534,- -533 (NtB:
Cal. 2012) (holding that when an objector voluntarily ap­
pears in litigation by objecting to a class settlement, he
or she is properly subject to discovery). Courts in this
Circuit have found it advisable to discover the objector’s
knowledge of the settlement terms, to ferret out frivo­
lous objections, and to expose objections that are lawyerdriven and filed with ulterior motives.36 Moreover, Rule
23 has recently been amended to address these sorts of
concerns. See generally Fed. R. Civ. P. 23(e)(5).37 The
objection requirements serve to further appropriate lines
of inquiry, and are not meant to discourage objections.
“Such depositions not only serve to inform the Court as
to the true grounds and motivation for the objection, but
they also help develop a full record should the objector
file an appeal.” Montoya, 2016 WL 1529902, at *19.
36 See Montoya v. PNC Bank, N.A., 2016 WL 1529902, at *19 (S.D.
Fla. April 13, 2016); see also Champs Sports, 275 F. Supp. 3d at
1359 (overruling the objection in a case where the objector was de­
posed, admitted he had no evidence or knowledge supporting objec­
tion, and could not explain how the settlement was inadequate);
Morgan v. Pub. Storage, 301 F. Supp. 3d 1237,1259 (S.D. Fla. 2016)
(“An objector’s knowledge of the objection matters in crediting (or
not) the objection and - determining the objector’s motives.”); cf.
Greco v. Ginn Dev. Co., 635 F. App’x 628, 633 (11th Cir. 2015) (dis­
trict court may properly consider whether those voicing opposition
to settlement have ulterior motives).
37 The accompanying 2018 Advisory Committee Notes explain that
the Rule has been amended because “some objectors may be seek­
ing only personal gain, and using objections to obtain benefits for
themselves rather than assisting in the settlement-review process.
At least in some instances, it seems that objectors—or their coun­
sel—have sought to obtain consideration for withdrawing their ob­
jections or dismissing appeals from judgments approving class set­
tlements.”

127a

Finally, the personal signature requirement is not
burdensome, and is of particular importance in this case,
to ensure that the objection is made in the objector’s
personal capacity, and not at the behest of others. And,
the personal signature requirement decreases the likeli­
hood that services encouraging mass objections or optouts file unauthorized or fictitious objections. These ob­
jections are overruled.
D. Objections Relating To How To Opt Out.
The Court overrules all objections related to the
procedures for how to opt out. The exclusion procedure
is simple, affords class members a reasonable time in
which to exercise their option, and is conventional.38 The
individual signature requirement on opt-out requests is
not burdensome at all. Moreover, it ensures that each
individual has carefully considered his options and un­
derstands that he is giving up his right to relief under
the settlement. While technology provides an avenue for
filing claim forms more easily, it also makes it easier for
third parties and their counsel to file unauthorized “mass
38

See, e.g., Hamson v. Consol. Gov’t, of Columbus, Georgia, 2017
WL 6210318, at *2 (M.D. Ga. April 26, 2017) (requiring exclusion
form to be mailed via regular mail); Flaum v. Doctor’s Assoc., Inc.,
2017 WL 3635118, at *3 (S.D. Fla. March 23, 2017) (same); Home
Depot, Doc. 185 at H 11 (N.D. Ga. March 8, 2016) (same); Jones, 2016
WL 8738256, at *3 (same); Manual for Complex Litigation (Fourth)
§ 21.321 (2004) (hereinafter, “Manual”) (“Typically, opt-out forms
are filed with the clerk, although in large class actions the court can
arrange for a special mailing address and designate an administra­
tor retained by counsel and accountable to the court to assume re­
sponsibility for receiving, time-stamping, tabulating, and entering
into a database the information from responses.”).

128a

opt-outs,” which are sometimes “highly indicative of a
conclusion that such counsel did not spend much time
evaluating the merits of whether or not to opt-out in light
of the individual circumstances of each of their clients
and in consultation with them.”39 The Court’s Order Di­
recting Notice clearly did not present insurmountable
hurdles to opting out of the settlement class.
Several class members object that there should be
a renewed opportunity to opt out of the settlement after
the final approval hearing. But class members already
had at least 60 days from the notice date [Doc. 742 at 15]
and 120 days after the order directing notice to evaluate
the settlement and request exclusion. The length of the
opt-out period provided class members a reasonable op­
portunity to exclude themselves.40 And, because the
Court is approving the settlement without any changes,
the final approval hearing did not create any new
grounds for a class member to opt out.
E.

Objections To The Notice Plan.

Objections to the notice plan include that: (1) the
content of the notice is inadequate; (2) the supplemental
39 In re Oil Spill by Oil Rig Deepwater Horizon, 910 F. Supp. 2d at
939. Here, where the technology allowing class members to object
or opt out is coupled with misinformation about what the settlement
actually provides, the dangers of accepting mass, unsigned objec­
tions or opt-out requests are even more acute.
“Courts have consistently held that 30 to 60 days between the
mailing (or other dissemination) of class notice and the last date to
object or opt out, coupled with a few more weeks between the close
of objections and the settlement hearing, affords class members an
adequate opportunity to evaluate and, if desired, take action con­
cerning a proposed settlement.” Greco, 635 F. App’x at 634.

129a

e-mail notice to early claimants . was_inade.qiiale_Qr_im-proper; (3) the notice plan is too reliant on email and so­
cial media; (4) the notice plan is inadequate for those
without computers or access to news; and (5) the notice
plan is unclear as to the amount of fees requested. The
Court rejects and overrules each of these objections. The
parties implemented the Court-approved notice plan that
was developed in conjunction with federal and state
regulators, which constitutes the best notice practicable
under the circumstances, and provides class members
with information reasonably necessary to evaluate their
options. See Fed. R. Civ. P. 23(e)(1)(B); see also Greco,
635 F. App’x at 633.
The notice plan here clearly and concisely ex­
plains the nature of the action and the rights of class
members, thereby satisfying the requirements of Rule 23
and due process. The short form notice, developed with
both federal and state regulators, and approved by this
Court, sets forth a clear and concise summary of the case
and the proposed settlement and, in large, bold typeface,
directs class members to visit the settlement website41 or
41 The long-form notice and the “Frequently Asked Questions”
(“FAQ”) page of the settlement website contain a section entitled
“Legal Rights Resolved Through The Settlement” and provide an
answer to the question: “What am I giving up to stay in the settle­
ment class?” The answer clearly provides that, by staying in the set­
tlement class, class members are releasing their “legal claims relat­
ing to the Data Breach against Equifax when the settlement be­
comes final.” See Doc. 739-2 at 269 & Settlement Website FAQ 20.
Additionally, these notice materials contain a section titled “The
Lawyers Representing You” and provide an answer to the question:
“How will these lawyers be paid?” The answer clearly states that
class counsel are seeking attorneys’ fees of up to $77,500,000 and

130a

call the_toll-free4)hoiie iiumb.er_for_more in£ormation_iS'ee__
In re Checking Account Overdraft Litig., 830 F. Supp. 2d
1330, 1342-44 (S.D. Fla. 2011) (approving notice where
information was referenced in short form notice and
more information was readily available in full on settle­
ment website). And the long form notice on the settle­
ment website contains a comprehensive explanation of
the settlement and related matters. While the long form
notice does not contain every fact or piece of information
a class member might find to be material, that is legally
unnecessary, potentially confusing, and off-putting to
class members.42
Some objectors complain the notice plan failed to
adequately explain that the alternative compensation
benefit could be reduced depending on how many valid
claims were submitted. But, as discussed above, the mis­
conception that each class member would automatically
receive alternative reimbursement compensation of $125
arose not from the notice plan (nor could it, since direct
email notice to the class had not yet been sent when the
misconception arose), but from misleading media cover­
age that began even before the proposed settlement was
presented to the Court. See App. 1, 1HI 27-37. Further, as
discussed above, the notice plan, particularly when cou­
pled with the additional steps the Court approved on Ju­
ly 30, 2019, ensured that class members had adequate
reimbursement for costs and expenses up to $3,000,000 to be paid
from the Consumer Restitution Fund. See Doc. 739-2 at 270-71 &
Settlement Website FAQ 22.
42 See Faught, 668 F.3d at 1239 (an overly-detailed notice has the
potential to confuse class members and impermissibly encumber
their right to benefit from the action).

131a

information about the_alte:matiy_e_compen,sm.t.iari—htme-fit—including information that alternative compensation
claimants likely would receive a “small percentage” of
$125—before making a choice between that benefit and
credit monitoring.43 And, for those who made the choice
before the enhancements to the settlement website were
implemented, they were sent an email giving them an
opportunity to change their minds and amend their
claim.44
Some objectors argue that the notice plan was too
reliant upon newer technologies to deliver notice of the
settlement to the class. But courts have increasingly ap­
proved utilizing email to notify class members of pro­
posed class settlements, and such notice was appropriate
in this case. See, e.g., Home Depot, 2016 WL 6902351, at
*5 (holding notice reaching 75 percent of class through
43 Some objectors also erroneously assert that the Court approved a
change to the claims form (requiring alternative claimants to pro­
vide the name of their existing credit monitoring service) to deter
class members from claiming $125. This requirement was a compo­
nent of the settlement from the outset. Changing the form helped
ensure that only those eligible for alternative compensation would
file a claim and saved the claims administrator from the necessity of
having to go back to claimants and ask for that information in the
claims vetting process from the millions of people who were filing
claims.
44 Other objectors argue that all early claimants should have been
notified by notarized letter, rather than email. But each claimant
provided his email address as part of the claims filing process, and
was informed that subsequent correspondence would be received via
email. See App. 4, Hf 60-62. Moreover, the objectors present no evi­
dence that a substantial number of class members did not receive
the supplemental email notice. See Nelson, 484 F. App’x at 434-35
(affirming district court’s decision overruling conclusory objections).

132a

email and internet advertising satisfied Rule 23 and Hup
process); Morgan, 301 F. Supp. 3d at 1262 (“Courts con­
sistently approve notice programs where notice is pro­
vided primarily through email because email is an inex­
pensive and appropriate means of delivering notice to
class members.”)- The ultimate focus is on whether the
notice methods reach a high percentage of the class. See
Federal Judicial Center, “Judge’s Class Action Notice
and Claims Process Checklist and Plain Language
Guide” (2010) (available at www.fjc.gov); R. Klonoff,
Class Actions in the Year 2026: A Prognosis, 65 Emory
L.J. 1569, 1650 & n. 479 (2016) (“Courts have increasing­
ly utilized social media... to notify class members of cer­
tification, settlement, or other developments.”).
The Court-approved notice plan, which as noted
above was designed by experienced counsel for the par­
ties, JND (an expert in providing class action notice),
Signal (an expert in mass media and data analytics), and
experts on consumer communications at the Federal
Trade Commission and the Consumer Financial Protec­
tion Bureau, effectively reached and engaged the class.
See Carter v. Forjas Taurus S.A., 2016 WL 3982489, at
*5 (S.D. Fla. Jul. 22, 2016) (notice plan that “used peeraccepted national research methods to identify the opti­
mal traditional, online, mobile and social media platforms
to reach the Settlement Class Members” was sufficient).
Direct email notice was sent to the more than 104 million
class members whose email addresses could be found
with reasonable effort. The digital aspects of the notice
plan, alone, reached 90 percent or more of the class an
average of eight times. App. 5, Hlf 22-24. See Federal Ju­
dicial Center, “Judges’ Class Action Notice and Claims

133a

Process Checklist and Plain Language Guide” (2010)45
(recognizing the effectiveness of notice that reaches be­
tween 70 and 95 percent of the class). And, the unprece­
dented claims rate in a case of this magnitude not only
further demonstrates that the notice plan’s use of email
and social media satisfied minimum standards, but also
has been more effective than other notice methods.
The Court also overrules objections that the no­
tice program is inadequate for those without ready ac­
cess to computers or the internet. The Constitution does
not require that each individual member receive actual
notice of a proposed settlement. See Juris v. Inamed
Corp., 685 F.3d 1294, 1318 (11th Cir. 2012). Publication
and media notice are appropriate where direct notice is
not reasonable or practicable, such as when a class con­
sists of millions of residents from different states. See
Edwards v. Nat’l Milk Producers Fed’n, 2017 WL
3623734, at * 4 (N.D. Cal. June 26, 2017) (“In view of the
millions of members of the class, notice to class members
by individual postal mail, email or radio or television ad­
vertisements, is neither necessary nor appropriate.”)
(quoting In re MetLife Demutualization Litig., 262
F.R.D. 205, 208 (E.D.N.Y. 2009)). It was particularly ap­
propriate here, where so much effort was spent in quan­
titative and qualitative research (including the use of fo­
cus groups and a public opinion survey) to specifically
identify and target those who lack ready access to the

45 Available at
https://www.fjc.gov/sites/default/files/2012/NotCheck.pdf.

134a

internet and to design a national radio advertising campaign to reach them.46
In the Court’s estimation, it would have been ex­
tremely wasteful to spend a significant portion of the set­
tlement fund sending direct mail notice to 147 million
class members across the United States and its territo­
ries or even to a substantial subset of the class. That
would have needlessly reduced the money available to
pay for the benefits to the class. The plan developed by
the parties, notice experts, and federal and state regula­
tors, and approved by the Court, was sufficient, particu­
larly in light of the pervasive media coverage and the ef­
forts of state and federal regulators to inform consumers
about the potential relief available to the class under the
settlement. Indeed, few, if any, other class actions of
which the Court is aware have received the widespread
public attention that the settlement in this case has re46 See, e.g., Kumar v. Salov N. Am. Corp., 2017 WL 2902898, at *3
(N.D. Cal. July 7, 2017) (approving of notice campaign consisting of
media notice, publication notice, and advertisements on various
websites); In re Nat’l Collegiate Athletic Ass’n Student-Athlete
Concussion Injury Litig., 314 F.R.D. 580, 602-03 (N.D. Ill. 2016)
(approving indirect notice for class members who could not be given
direct notice including print publication, settlement class website,
press release, and social media); In re Optical Disk Drive Prods.
Antitrust Litig., 2016 WL 7364803, at *3 (N.D. Cal. Dec. 19, 2016)
(approving notice consisting of email, settlement website, toll-free
number, publication notice, press release, text link advertising,
banner advertising, and advertising on Facebook and Twitter);
Manual § 21.312 (“Posting notices and other information, on the
Internet, publishing short, attention-getting notices in newspapers
and magazines, and issuing public service announcements may be
viable substitutes for . . . individual notice if that is not reasonably
practicable.”).

135a

eeived. or, .as-noted~above5 Jiggered-such-a-substantial
number of claims.
Some objectors argue that the notice plan does
not identify the exact amount of fees sought by class
counsel and thus precisely how much money will be left
in the settlement fund after the fees have been paid. But
because this Court has broad discretion over the amount
of fees to be awarded, see Piambino v. Bailey, 757 F.2d
1112,1139-42 (11th Cir. 1985); In re Sunbeam Sec. Litig.,
176 F. Supp. 2d 1323, 1329 (S.D. Fla. 2001), the class no­
tice could not with certainty disclose the amount of fees
that would ultimately be awarded or the amount that
would remain in the fund after those fees are paid. Iden­
tifying a maximum amount of fees to be requested is suf­
ficient, and that is what happened here. See Doc. 739-2 at
270 & Settlement Website FAQ 22; see also Carter, 2016
WL 3982489, at *7 (approving notice where it informed
class members that class counsel would be seeking “up to
$9 million in fees”). Moreover, class counsel’s motion for
fees was posted on the settlement website when it was
filed on October 29, 2019, giving class members the abil­
ity to learn exactly what class counsel requested well be­
fore the deadline to opt out or object.
G.

Objections To The Claims Procedures.

The Court overrules the objections regarding
claims procedures, specifically those objections stating
that: (1) the procedure for claiming the alternative reim­
bursement compensation is confusing and unfair; (2) the
requirement that time spent and actual out-of-pocket
losses be “fairly traceable” to the data breach will disal­
low valid claims; (3) the call center was unhelpful and in-

136a

adequately-stalfe4early-in-the-claimB'peTiod';"an3X4)'the
claims procedure presents “too many hoops to jump
through” to submit a claim. Some objectors argue that
the claims process improperly “channels” class members
toward electing credit monitoring as the only form of re­
lief because too many class members have elected alter­
native compensation. Perhaps because of the inaccurate
public reporting suggesting that only $31 million is avail­
able to pay claims, these objectors misunderstand the
settlement. Credit monitoring or alternative reimburse­
ment compensation is not the only available relief. Fur­
ther, class members are not told the form of relief that
they must choose, but are given adequate and appropri­
ate information so they can make up their own minds.
That class members were told alternative compensation
claimants likely would receive a small percentage of $125
is accurate. To keep that information from class mem­
bers would not have been appropriate.
Some objectors argue that they did not receive
the supplemental email providing enhanced information
about the alternative compensation benefit, but that is no
reason to upend the settlement—especially where those
class members will have an opportunity to address any
claims deficiencies as part of the agreed-upon claims re­
view process.47 See, e.g., Home Depot, 2016 WL 6902351,
at *5 (rejecting objections from class members who
47 According to class counsel and the claims administrator, any
claimants who did not respond to the supplemental email notice or
otherwise take action will be routed through the regular deficiency
process for claims validation, which provides them an opportunity
to address any deficiencies with their claims. See Settlement
Agreement § 8.5.

137a

claimed-they—did- net receive- subsequent- email'~notrce).
Further, this information was on the settlement website,
which was available to all class members.
Other objectors argue that requiring class mem­
bers to provide the name of their current credit monitor­
ing provider to claim alternative compensation is unfair.
But the settlement agreement clearly and unambiguous­
ly requires class members claiming that benefit to “iden­
tify the monitoring service” that they have in place to en­
sure they are eligible for that benefit. See Settlement
Agreement § 7.5. And, there is nothing unfair about re­
quiring a claimant to meet the eligibility requirements
for a particular benefit. See Manual § 21.66 (“Class
members must usually file claims forms providing details
about their claims and other information needed to ad­
minister the settlement.”).
Other objectors argue that the settlement’s “fairly
traceable” requirement for reimbursement of out-ofpocket losses and time spent on the data breach will
work to disallow valid claims. But to pursue a claim in
court, a plaintiff must demonstrate that his or her inju­
ries are “fairly traceable” to the challenged conduct of
the defendant. See Lujan v. Defenders of Wildlife, 504
U.S. 555, 561 (1992). Settlement is no different; thus
courts in other data breach cases have upheld similar re­
quirements. See, e.g., Premera, 2019 WL 3410382, at *22
(providing reimbursement for “proven out-of-pocket
damages that can plausibly be traced to the Data
Breach”); Home Depot, 2016 WL 6902351, at *4 (requir­
ing “Documented Claims” to claim monetary relief).

138a

__ .. -Some, objectors-argue-that- the-eall- center- was-unhelpful early in the claims period. But the settlement
provides reasonable procedures and allocates sufficient
funds to ensure that the call center was adequately
staffed (indeed, more than one hundred operators were
on call at times early in the claims period) and the staff is
trained to help class members with questions relating to
the proposed settlement. See App. 4, 1111 37-41. Beyond
that, class counsel were available to respond to class
member inquiries- and routinely responded to class
member emails and phone calls. See App. 1, II 69. While
frustration with a call center is familiar to most people
who exist in the modern world, the Court sees no indica­
tion of a pervasive problem here that in any way affects
the fairness of the settlement or the claims procedure.
That so few class members made this objection despite
the massive number of calls that the call center has han­
dled is further testament that any problems were not
material.
Several objectors also claim that there are “too
many hoops to jump through” in order to submit a claim.
But completion and documentation of the claim form are
no more burdensome than necessary and similar claims
procedures are routinely required in other settlements.
See, e.g., Jackson’s Rocky Ridge Pharmacy, Inc. v. Ar­
gus Health Sys., Inc., 2007 WL 9711416, at *2 (N.D. Ala.
June 14, 2007) (“[EJach class member who seeks damag­
es from the settlement fund must file and substantiate its
claim. This requirement is no more onerous than that to
which each of the class members would have been sub­
jected had they filed a separate lawsuit against the de­
fendant and prevailed on the substantive claim.”); Man-

139a

uaH§- 21.66-(“Class- members -mustmsually Tile claims
forms providing details about their claims and other in­
formation needed to administer the settlement.... Veri­
fication of claims forms by oath or affirmation ... may be
required, and it may be appropriate to require substanti­
ation of the claims. ...”). The robust number of claims is
further evidence that the process was not unduly bur­
densome.
Some objectors are dissatisfied with the claims
period and argue that it is too short to provide relief for
potential future harms. The Court concludes that the
length of the claims period is reasonable and comparable
to, if not longer than, claims periods in other data breach
cases. See, e.g., Home Depot, 2016 WL 6902351 (approv­
ing settlement with initial claims period of 150 days);
Premera, 2019 WL 3410382, at *26 (ordering initial
claims period of 150 days); Anthem, 327 F.R.D. at 325
(overruling objections that a one-year claims period was
too short because there is a risk of proving harm that has
not yet occurred at trial and because settlement provided
protections against future identity fraud). The proposed
settlement provides class members with six months to
claim benefits for losses already sustained and does not
require claims to be filed to access identity restoration
services. If money remains in the fund after the initial
claims period, class members can file claims in the ex­
tended claims period, which provides an additional four
years to recover for losses that have not yet occurred.
Beyond that, credit monitoring and identity restoration
services will allow class members to monitor and help
safeguard their information for several more years. The
Court views these periods as entirely fair and reasonable

140a

___and- ^lculated-to-equit-ably-deliver- relief to TnembeTs'of
the settlement class.
IV. PLAINTIFFS’ MOTION FOR ATTORNEYS’
FEES, EXPENSES, AND SERVICE AWARDS
TO THE CLASS REPRESENTATIVES.
Plaintiffs request that the Court award a $77.5
million fee as provided in the settlement agreement. The
Court finds that the requested fee is reasonable under
the percentage approach, which is the exclusive method
in this Circuit for calculating fees in a common fund case
such as this one. A lodestar crosscheck, though not re­
quired, also supports the requested fee.
A. The Requested Fee Is Reasonable Under The
Percentage Method.
The controlling authority in the Eleventh Circuit
is Camden I Condominium Association, Inc. v. Dunkle,
946 F.2d 768, 774-75 (11th Cir. 1991), which holds that
fees in common fund cases must be calculated using the
percentage approach. Camden I does not require any
particular percentage. See id. (“There is no hard and fast
rule ... because the amount of any fee must be deter­
mined upon the facts of each case.”); see also, e.g., Wa­
ters v. Int’l. Precious Metals Corp., 190 F.3d 1291, 1294
(1999). Typically, awards range from 20% to 30%, and
25% is considered the “benchmark” percentage. Camden
I, 946 F.2d at 775. The Eleventh Circuit has instructed
that, to determine the appropriate percentage to apply in
a particular case, a district court should analyze the
Johnson factors derived from Johnson v. Ga. Highway
Express, Inc., 488 F.2d 714, 717-19 (5th Cir. 1974), as

141a

welLany other pertinent-«:onsiderations-.-Uamdu?z; /y 946
F.2d at 775.
The $77.5 million requested fee is 20.36% of the
$380.5 million minimum settlement fund. Under the
controlling authority cited above, the requested fee is
reasonable as a percentage of the non-reversionary fund
alone. However, the minimum amount of the settlement
fund is not the true measure of all the benefits, monetary
and non-monetary, available to the class under the set­
tlement. The class benefit also includes: (1) an additional
$125 million that Equifax will pay if needed to satisfy
claims for out-of-pocket losses; (2) the consent order re­
quiring Equifax to pay at least $1 billion for
cybersecurity and related technology and comply with
comprehensive standards to mitigate the risk of another
data breach involving class members’ personal data; (3)
the value of the opportunity to receive ten years of free
credit monitoring for all class members (which would
cost each class member $1,920 to buy at its retail price);
(4) the value of seven years of identity restoration ser­
vices available to all class members; and (5) the value of a
ban on the use by Equifax of arbitration clauses in some
circumstances.48 In assessing a fee request, the Court
may also consider all of these benefits. See, e.g., Camden,
946 F.2d at 775; Poertner v. Gillette Co., 618 F. App’x
624, 629 (11th Cir. 2015), cert, denied sub nom. Frank v.
48

In addition to these benefits provided under the settlement, cer­
tain settlement class members also benefited from an additional
year of credit monitoring services, known as IDnotify, provided to
class members who previously enrolled in the TrustedID Premier
services offered by Equifax following the data breach. See Settle­
ment Agreement § 4.3.

142a

Poertner, 136 S. Ct._li53 (2Q16)-('-dislriat -r-nnrf,. .did not,
abuse its discretion by “including the value of the non­
monetary relief... as part of the settlement pie”).
When these other benefits are considered, the
percentage of the class benefit the requested fee repre­
sents is much less than 20.36%.49 For example, the re­
quested fee is 15.3% of the $380.5 million fund plus the
additional $125 million available to pay out-of-pocket
claims. The requested fee is only 5% of those amounts
plus the $1 billion that Equifax is required to spend for
cybersecurity and related technology and it is less than
1% when the retail value of the credit monitoring ser­
vices already claimed by class members is included. The­
se figures demonstrate that using 20.36% in the calcula­
tion of a percentage-based fee is conservative as it does
not account for all of the settlement’s benefits, but that
percentage nonetheless will be the focus of the Court’s
analysis because if a 20.36% award is reasonable, as it is,
then there can be no question that a smaller percentage
is also reasonable.
The percentage of the class benefit represented
by the requested fee is supported by the factors that the
Eleventh Circuit has directed be used in assessing the
reasonableness of a fee request, including the Johnson
factors. There are twelve Johnson factors:

49 For the same reasons, even if the Court calculated the percentage
of the fund based upon the size of the fund specified in the term
sheet rather than the ultimate settlement (25% of $310 million), that
percentage would be reasonable, and the presence of all the other
ingredients in the “settlement pie” drive the requested fee well be­
low the benchmark.

143a

--------- (l)4he4ime-and4aboi^equwed;-f2)-the--------novelty and difficulty of the relevant ques­
tions; (3) the skill required to properly
carry out the legal services; (4) the pre­
clusion of other employment by the attor­
ney as a result of his acceptance of the
case; (5) the customary fee; (6) whether
the fee is fixed or contingent; (7) time lim­
itations imposed by the clients or the cir­
cumstances; (8) the results obtained, in­
cluding the amount recovered for the cli­
ents; (9) the experience, reputation, and
ability of the attorneys; (10) the “undesir­
ability” of the case; (11) the nature and
the length of the professional relationship
with the clients; and (12) fee awards in
similar cases.
George v. Academy Mortgage Corp. (UT), 369 F. Supp.
3d 1356, 1376 (N.D. Ga. 2019). Other relevant factors in­
clude the number of objections from class members, the
risks undertaken by class counsel, and the economics of
handling class actions. Champs Sports, 275 F. Supp. 3d
at 1356; Camden I, 946 F.2d at 775. The Court does not
analyze two of the Johnson factors, the undesirability of
the case and the nature of the attorney-client relation­
ship, due to their limited applicability here. The Court
addresses the other factors below.
(1)

The Time and Labor Involved

The Court has observed the intensive amount of
time and labor required to prosecute the claims in this
case. Class counsel and those under their direction have

144a

majority of the work was done by class counsel and other
firms the Court appointed to the plaintiffs’ steering
committee. The work was allocated to those able to do
the work most efficiently. Class counsel also estimate
they will spend at least another 10,000 hours over the
next seven years in connection with final approval, man­
aging the claims process, and administering the settle­
ment. The Court finds that the work that class counsel
have done and estimate they will do is reasonable and
justified in view of the issues, the complexity and im­
portance of the case, the manner in which the case was
defended, the quality and sophistication of Equifax’s
counsel, the result, the magnitude of the settlement and
the number of claims. Moreover, the amount of work de­
voted to this case by class counsel likely was a principal
reason that they were able to obtain such a favorable set­
tlement at a relatively early stage. This factor weighs in
favor of approval of the requested fee.
(2) The Novelty and Difficulty of the Questions
Although many of the plaintiffs’ claims were able
to survive a motion to dismiss, their path forward re­
mained difficult. The law in data breach litigation re­
mains uncertain and the applicable legal principles have
continued to evolve, particularly in the State of Georgia,
where protracted appellate litigation in two other data
breach cases while this case has been pending demon­
strate the unsettled state of the law. See McConnell, 828
S.E.2d at 352; Collins v. Athens Orthopedic Clinic, 815
S.E.2d 639 (Ga. Ct. App. 2018), rev’d
Ga.
(Dec.
23, 2019). As a result, this case involved many novel and
difficult legal questions, such as the threshold issue of

145a

.whether Equifax had-aduty-tepFetect-plarntiffs-personal data, whether plaintiffs’ alleged injuries are legally
cognizable and were proximately caused by the Equifax
breach, the applicability of the FCRA to a data breach at
a major credit reporting agency, the meaning of various
state consumer protection statues, and other issues
briefed by the parties in connection with Equifax’s mo­
tion to dismiss. These would be recurring issues
throughout the litigation if the settlement is not ap­
proved.
Other novel and difficult questions in this case re­
sulted from the sheer size of the litigation, the number of
Americans impacted by the breach, and the highly tech­
nical nature of the facts. Determining and proving the
cause of the breach and developing cybersecurity
measures to prevent a recurrence were particularly chal­
lenging. The plaintiffs’ lawyers also confronted unusual
circumstances and a dearth of legal guidance or govern­
ing precedent when they engaged in extensive negotia­
tions with federal and state regulators after reaching a
binding term sheet with Equifax. This factor strongly
weighs in favor of the requested fee request.
(3)

The Skill Requisite to Perform the Le­
gal Services Properly and the Experi­
ence, Reputation, and Ability of the
Lawyers

This case required the highest level of experience
and skill. Plaintiffs’ legal team includes lawyers from
some of the most experienced and skilled class action law
firms in the country who have collectively handled more
than 50 data breach cases, including all of the most sig-

146a

nificant_ones._Their experience and-skilbwas needed giv-—
en the scope of the case and the quality of the opposition.
The lawyers who represented Equifax are highly skilled
and come from several of the nation’s largest corporate
defense firms. Moreover, Judge Phillips has noted that
“the settlement is the direct result of all counsel’s expe­
rience, reputation, and ability in complex class actions
including the evolving field of privacy and data breach
class actions.” [Doc. 739-9, % 15]. The Court can also at­
test to the high level of zealous, diligent advocacy
demonstrated throughout this case. These factors weigh
in favor of the requested fee.
(4)

The Preclusion of Other Employment

Given the demand for their services attributable
to their high level of skill and expertise, but for the time
and effort they spent on this case the plaintiffs’ lawyers
would have spent significant time on other matters. Fur­
ther, by necessity given its nature, the bulk of the work
was done by a relatively small number of senior lawyers,
and demanded their full attention. As described above,
their focus on this case likely served as the principal rea­
son that the case was able to settle favorably, further
weighing in support of the requested fee.
(5)

The Customary Fee

The percentage used to calculate the requested
fee is substantially below the percentages that are typi­
cally charged by lawyers who handle complex civil litiga­
tion on a contingent fee basis, which customarily range
from 33.3% to 40% of the recovery.

147a

—------ (-6)----- WhethertheFeeds-Fixed-orCoTvtmgeiTt
“A contingency fee arrangement often justifies
an increase in the award of attorneys’ fees.” Behrens,
118 F.R.D. at 548. A larger award is justified because if
the case is lost a lawyer realizes no return for investing
time and money in the case. See In re Friedman’s, Inc.
Sec. Litig., 2009 WL 1456698, at *3 (N.D. Ga. May 22,
2009). As discussed above, the novel and difficult ques­
tions present in this case heightened this concern here.
This action was prosecuted on a contingent basis and
thus a larger fee is justified.
(7) Time Limitations Imposed by the Client or
the Circumstances
Priority work done under significant time pres­
sure is entitled to additional compensation and justifies a
larger percentage of the recovery. See, e.g., Johnson, 488
F.2d at 718; Allapattah Servs., Inc. v. Exxon Corp., 454
F. Supp. 2d 1185, 1215 (S.D. Fla. 2006). At various times
during this litigation, class counsel were forced to work
under significant time pressure, such as when they had
to vet thousands of potential class representatives in a
short period to meet the Court’s deadline for filing a con­
solidated amended complaint and during the several
months they spent negotiating with Equifax and federal
and state regulators leading up to finalizing the settle­
ment. During critical periods, class counsel spent as
much as 2,000 hours a month or more. This factor thus
supports an increased award.

148a

______ (8)__ IheJlmount-Involved-andthe-Results----Obtained
This is the largest data breaeh settlement in his­
tory. The $380.5 million fund alone is more than the total
recovered in all consumer data breach settlements in the
last ten years.50 Further, class members are eligible for
an unprecedented package of benefits, including but not
limited to cash compensation for out-of-pocket losses
fairly traceable to the breach of up to $20,000 per class
member, reimbursement for time spent as a result of the
breach, and 25% of the amount paid to Equifax by class
members for identity protection services in the year pri­
or to the breach; ten years of high quality credit monitor­
ing services having a retail value of $1,920 per class
member; and seven years of identity restoration services
without the need to file a claim.
In addition, Equifax has agreed to a consent order
requiring it to comply with comprehensive cybersecurity
standards, spend at least $1 billion on data security and
related technology, and have its compliance audited by
independent experts.
Violations of the consent order are subject to this
Court’s enforcement power. This injunctive relief pro­
vides a substantial benefit to all class members, and ex­
ceeds what has been achieved in other data breach set­
tlements.
60 Contrary to the arguments of some objectors, the size of the set­
tlement fund is not just a matter of scale. For instance, the settle­
ment is larger on a per capita basis than the Anthem settlement,
which resulted in a $115 million fund for a class of 80 million indi­
viduals.

149a

-FmallyT-as-n©t-ed^elasseounseLnegotiated an innovative"notice program to effectively inform and engage class
members, and a robust claims process to facilitate and
increase class member participation. The notice program
and claims process are both a direct benefit to the class.
In short, the results obtained—which are in the
high range of potential recoveries and in some instances
may exceed what could be achieved at trial—weigh
strongly in favor of the requested fee.
(9)

Awards in Similar Cases

The requested fee is in line with—if not substan­
tially lower than—awards in other class actions that have
resulted in similarly impressive settlements. Even if the
fee is based only on the cash fund, ignoring all other
monetary and non-monetary benefits, the 20.36% that
the requested fee represents is below the 25% bench­
mark recognized in Camden I and substantially less than
has been awarded in similar cases, including specifically
other data breach cases. See, e.g., In re Arby’s Rest.
Grp., Inc. Data Sec. Litig., 2019 WL 2720818, at *4 (N.D.
Ga. June 6, 2019) (awarding a fee of approximately 30%
and noting that “[afwards of up to 33% of the common
fund are not uncommon in the Eleventh Circuit, and es­
pecially in cases where Class Counsel assumed substan­
tial risk by taking complex cases on a contingency ba­
sis.”); Home Depot, 2016 WL 11299474, at *2 (awarding a
fee in the consumer track of “about 28% of the monetary
benefit conferred on the Class.”); Home Depot, No. 1:14MD-02583-TWT (Doc. 345 at 4) (using one-third of the
benefit in percentage-based calculation in the financial
institution track); Target, 2015 WL 7253765, at *3, rev’d

150a

Mndrcemanded on other grounds^SAl. .EL3d-608-(.awardin;
29% of the monetary payout).
Empirical studies also show that fees in other
class action settlements are substantially higher than the
requested fee. See, e.g., Theodore Eisenberg, Geoffrey
Miller & Roy Germano, Attorneys’ Fees in Class Ac­
tions: 2009-2013, 92 N.Y.U. L. Rev. 937, 947, 951 (2017)
(finding that in the Eleventh Circuit the average fee was
30% and median fee was 33% from 2009 through 2013);
Brian T. Fitzpatrick, An Empirical Study of Class Ac­
tion Settlements and Their Fee Awards, 7 J. Empirical
Legal Stud. 811, 836 (2010) (finding, in the Eleventh Cir­
cuit for 2006- 2007 period of the study, the average fee
was 28.1% and the median fee was 30%).
(10) The Number of Objections
Only 38 of the 147 million class members objected
to the requested fee. This number represents 0.000026
percent of the class or just 1 of every 3.9 million class
members. The extremely small number of objectors is
further evidence of the reasonableness of the requested
fee. See, e.g., Home Depot, 2016 WL 6902351, at *4 (ob­
jections from an “infinitesimal percentage” of the class
“indicates strong support” for the settlement).
(11) The Risk Undertaken by Class Counsel
The plaintiffs’ lawyers undertook extraordinary
litigation risk in pursuing this case and investing as
much time and effort as they did. The Court is familiar
with data breach litigation and appreciates that this was
undeniably a risky case when it was filed. It is even risk­
ier today, as demonstrated by recent authority. See, e.g.,

151a

Jd£Connell,^828-S.E.2d at 352 (G2L. 2Q19);.-Adkms -v.-I'ar.
cebook, 2019 WL 7212315, at *9 (N.D. Cal. Nov. 26,
2019) (granting motion to certify injunctive-only class
but denying motion to certify damages class and issues
class in data breach case).
Based on these factors, the Court finds the award
of attorneys’ fees in the amount of $77.5 million is appro­
priate under the percentage of the fund approach. The
Court has considered and hereby overrules all of the ob­
jections to the requested fees as described below.
First, most of the objections to the motion for fees
are conclusory, do not provide any legal support for why
a lower fee should be awarded, or are based on a misun­
derstanding about the terms of the settlement. These
objections can be summarily rejected. See, e.g., In re
Bear Steams Cos., Inc. Sec., Derivative, & ERISA
Litig., 909 F. Supp. 2d 259, 264 n.3 (S.D.N.Y. 2012).
Second, one objector, John Davis, argues that.the
fee must be calculated using the lodestar method be­
cause he disagrees with Camden I and claims that the
case is no longer good law in light of Perdue v. Kenny A.
ex rel. Winn, 559 U.S. 542 (2010). (Doc. 879-1 at 8-10).
This argument is frivolous. Camden I is binding prece­
dent. And, Perdue, which construes a fee-shifting stat­
ute, does not apply in a common fund case such as this
one. See In re Home Depot, Inc. Customer Data Sec.
Breach Litig., 931 F.3d 1065,1084-85 (11th Cir. 2019).
Third, several class members do not object to the
fee amount, but to its payment from the settlement fund.
According to these objectors, the Court should punish
Equifax by ordering the company to pay the fees sepa-

152a

.rately._But this..Court_cannot.order_E_quifax.to.pay^more.
See, e.g., Howard v. McLucas, 597 F. Supp. 1504, 1506
(M.D. Ga. 1984) (“[T]he court’s responsibility to approve
or disapprove does not give this court the power to force
the parties to agree to terms they oppose”) (emphasis in
original). And, having created a common fund, class
counsel are entitled to be paid from the fund.
Fourth, two other objections—one by Mikell West and
the other by Frank and Watkins—contend that the fee
should be no more than 10% of the class benefit because
class counsel allegedly faced little risk, the case settled
within two years, and awards in cases involving
“megafund” settlements do not justify a higher percent­
age. As stated above, the Court disagrees with the asser­
tion that plaintiffs had little risk. To the contrary, class
counsel faced extraordinary risk, which the objectors un­
reasonably and erroneously discount. Further, penaliz­
ing class counsel for achieving a settlement within two
years would work against the interests of the class and
undercut the judicial policy favoring early settlement.
See, e.g., Markos v. Wells Fargo Bank, N.A., 2017 WL
416425, at *4 (N.D. Ga. Jan. 30, 2017); In re Checking
Acct. Overdraft Litig., 830 F. Supp. 2d at 1362.
Their argument that the requested fee is too large
because this case involves a megafund settlement—often
defined as a settlement in excess of $100 million—also is
unpersuasive. When all of the settlement benefits are
properly included the value of the settlement is in the
several billions of dollars, meaning the requested fee is
less than the 10% that the two objectors contend is ap­
propriate. In arguing otherwise, the objectors improper­
ly discount all of the settlement benefits except the

153a

$380.5 Juilliori-iuncL including- specifically all of the settlement’s non-monetary benefits.51 See Poertner, 618 F.
App’x at 630 (rejecting an objection by Frank that the
requested fee was too large because he improperly lim­
ited the monetary value of the settlement and disregard­
ed the settlement’s substantial non-monetary benefits,
which he wrongly claimed were illusory).
Even if calculated only as a percentage of the
$380.5 million fund, the requested fee of 20.36% is justi­
fied notwithstanding the size of the settlement. Likewise,
even if the Court considered only the $310 million fund
created under the parties’ term sheet, a 25% fee would
be justified. The Court is unaware of any per se rule that
a reduced percentage must be used in a “megafund” case
and declines to create one now. Additionally, other
courts have criticized the use of a reduced percentage in
such a case because, among other things, the practice
undercuts a major purpose of the percentage approach
in aligning the interests of the class and its lawyers in
maximizing the recovery. Such a rule might also discour­
age early settlements, and it fails to appreciate the im51 Under the percentage approach, “courts compensate class counsel
for their work in extracting non-cash relief from the defendant in a
variety of ways.” In re Checking, 2013 WL 11319244, at *12. If the
non-monetary relief can be reliably valued, courts can include such
relief in the fund and award counsel a percentage of the total. Id,.;
George, 369 F. Supp. 3d at 1379-80; see also Poertner, 618 F. App’x
at 628-29. If it cannot be reliably valued, such relief is a factor in
selecting the right percentage. See, e.g., Camden I, 946 F.2d at 774775. Accordingly, in this case, even if the non-monetary benefits to
the class could not be valued with precision, those benefits—which
are undeniably substantial—would certainly justify awarding class
counsel 20.36% of the cash fund.

154a
m

■ .Se_e,_e.g....—

In re Cendant Corp. Litig., 264 F.3d 201, 284 n.55 (3d
Cir. 2001); Allapattah, 454 F. Supp. 2d at 1213; In re
Checking, 830 F. Supp. 2d at 1367; Syngenta, 357 F.
Supp. 3d at 1114.
Regardless, the objectors overemphasize the im­
portance of the settlement’s size. Under Camden I, this
Court must base its award on an evaluation of all of the
Johnson factors, not just the factor involving awards in
other cases. The Court’s evaluation of those factors in
light of the particular facts and circumstances of this
case, as discussed above, would support using a percent­
age higher than the 25% benchmark and certainly higher
than the 20.36% requested here. Indeed, the lowest fee
awarded in the other data breach cases cited above was
27%. That class counsel are not requesting a much high­
er fee here akin to that awarded in other cases suggests
that they have already accounted for the settlement’s
size by agreeing to accept a reduced percentage.
The objectors, furthermore, are simply wrong in
asserting that no more than 10% is typically awarded in
megafund cases.52 In Anthem, which involved a $115 mil­
lion settlement fund, the court surveyed awards in other
large settlements and concluded: “a percentage of 27%
52 Class counsel have cited at least 40 cases involving settlements in
excess of $100 million in which a fee of more than 25% has been
awarded, including several such cases in this Circuit. See, e.g.,
Allapattah Services, Inc. v. Exxon Corp., 454 F. Supp. 2d 1185 (S.D.
Fla. 2006) (31.33% of a $1.06 billion fund); In re Checking Account
Overdraft Litig., 830 F. Supp. 2d 1330 (S.D. Fla. 2011) (30% of a
$410 million fund); In re Sunbeam, 176 F. Supp. 2d 1323 (25% of a
$110 million fund).

155a

.appearj3jtoJieJnJine_with_the_vast_majo.rity_of.megafund.
settlements.” Anthem, 2018 WL 3960068, at *15. Fur­
ther, none of the three authorities relied upon by the ob­
jectors justify the conclusion that no more than a 10%
fee is appropriate here. The empirical study the objec­
tors cite does not support that conclusion, according to
Professor Geoffrey Miller, one of its co-authors.53 To the
contrary, the study’s data set shows that, in cases with
settlements between $325 million and $425 million (the
range in which the cash portion of this case falls), the
mean percentage was 19.7%—remarkably close to the
percentage requested here. (Doc. 900-3,
16-17). In
Carpenters Health & Welfare Fund v. The Coca-Cola
Co., 587 F. Supp. 2d. 1266 (N.D. Ga. 2008), the court
awarded a 21% fee. And, in In re Domestic Air, 148
F.R.D. at 350-51, the court relied upon pre-1991 re­
search, which conflicts with the findings of more recent
studies.
Fifth, objectors West, Frank and Watkins argue
that the $70.5 million added to the settlement fund at the
request of federal and state regulators did not result
from class counsel’s efforts and thus class counsel are not
entitled to receive a percentage of the additional amount.
This argument fails as a factual matter because it assigns
no credit to class counsel’s efforts and their agreement to
integrate the additional money into the settlement they
negotiated. While regulators may have been the initial
catalyst for the extra funds, the money would not have
been added to the settlement fund but for class counsel’s
53 Theodore Eisenberg and Geoffrey Miller, Attorneys’ Fees and
Expenses in Class Action Settlements: 1993-2008, 7 Journal of Em­
pirical Legal Studies 248 (2010).

156a

_effor.ts—Class_counsel_spent_months_negotiating_wit]x
Equifax on the proposed changes so that the additional
funds could be incorporated without having any potential
adverse impact to the class.
Thus, without minimizing the role played by the
regulators, class counsel were ultimately responsible for
integrating the increased funds into the settlement they
negotiated and are entitled to compensation for their ef­
forts. The Court also notes that class counsel have not
sought any increased fees relative to what they agreed to
request in the term sheet, so they are not attempting to
use the extra money as a basis for an additional fee re­
quest. Basing the percentage off the $380.5 million ra­
ther than $310 million simply recognizes the reality of
the size of the non-reversionary fund to which the parties
ultimately agreed. Treating the calculation differently
would penalize class counsel after they spent thousands
of hours in the negotiations with Equifax and regulators
to integrate the $70.5 million into the settlement without
adverse consequences for the class.
Sixth, objectors Frank and Watkins argue that
the notice and administration costs to be paid out of the
settlement fund should be excluded from the class bene­
fit for fee purposes. The Court disagrees. It has long
been the practice in this Court to use the gross amount
of a common fund in calculating a percentage-based fee
award without deducting the costs of notice or admin­
istration. See, e.g., George, 369 F. Supp. 3d at 1375;
Champs Sports, 275 F. Supp. 3d at 1356; In re Domestic
Air, 148 F.R.D. at 354; see also Arby’s, 2019 WL
2720818, at *2 (including notice and administration
claims in the class benefit even though paid separately

157a

by the defendant), That is-beeause notiee-and admin­
istration costs inure to the benefit of the class. Id. Simi­
lar arguments have been rejected before. See, e.g., In re
Domestic Air, 148 F.R.D. at 354; In re Online DVDRental Antitrust Litig., 779 F.3d 934, 953 (9th Cir. 2015);
Caliguiri v. Symantec Corp., 855 F.3d 860, 865 (8th Cir.
2017); Anthem, 2018 WL 3960068, at *8-9.54 And, there is
a particularly good reason for rejecting the argument
here. Because an additional $125 million is available to
pay out-of-pocket claims, notice and administration costs
will not diminish the fund except in the unlikely event
that both the fund and the extra $125 million are ex­
hausted.
Seventh, objectors West, Frank and Watkins im­
properly discount the value of the credit monitoring of­
fered under the settlement for purposes of calculating a
fee. West does not recognize it has any value beyond the
54 The main case on which Frank and Watkins rely, Redman v. RadioShack Corp., 768 F.3d 622, 630 (7th Cir. 2014), is readily distin­
guishable. Redman involved a coupon settlement, the proposed fee
could be justified only by including notice and administration in the
class benefit, and the court was concerned that class counsel thus
would have a “perverse” incentive to increase those costs to justify
a larger fee. This settlement does not include coupons, costs will be
paid from a non-reversionary fund, there is an additional $125 mil­
lion to pay out-of-pocket claims if the fund is exhausted, and class
counsel selected the providers after a competitive bidding process.
Moreover, adopting the Redman approach on these facts would
incentivize counsel to cut corners on notice and administration,
hurting the class by lowering its awareness and participation and
hindering the claims process. Unsurprisingly, other courts have
declined to follow Redman. See, e.g., Keil v. Lopez, 862 F.3d 685,
704 (8th Cir. 2017); McDonough v. ToysRUs, Inc., 80 F. Supp. 3d
626, 654 n.27 (E.D. Pa. 2015).

158a

._cost..to_be. paid, from the fund for the first seven million
claims. Frank and Watkins argue it is not even worth
that, asserting its true value is only $15 million ($5 per
class member multiplied by the roughly three million
claims they assert have been made to date) because free
credit monitoring is widely available and class members
allegedly prefer alternative compensation. The objectors
also discount the value of the injunctive relief class coun­
sel obtained. The Court disagrees.
As discussed earlier, the record shows that the
high-quality credit monitoring offered here is more valu­
able than the free or low-cost services typically available.
Moreover, courts have often recognized the benefit of
credit monitoring, use its retail cost as evidence of value,
and consider that value in awarding fees. See, e.g.,
Chakejian v. Equifax Info. Sews., LLC, 275 F.R.D. 201,
218 (E.D. Pa. 2011) (overruling an objection that the set­
tlement offered “worthless credit monitoring services
that no one wants” and valuing the services at their retail
price in awarding a fee); In re TJX Companies Retail
Sec. Breach Litig., 584 F. Supp. 2d 395, 409 (D. Mass.
2008) (the class-wide, $177 million retail value of the
credit monitoring was “a benchmark against which to
measure the award of attorneys’ fees”); Home Depot,
WL 6902351, at
Hutton v. Nat’l. Bd. of Exam’rs in
Optometry, Inc., 2019 WL 3183651, at *7 (D. Md. Jul. 15,
2019); Hillis v. Equifax Consumer Servs., Inc., 2007 WL
1953464, at *4 (N.D. Ga. June 12, 2007); Anthem, 2018
WL 3960068, at *11.55
55 Even assuming that the credit monitoring offered is worth less to
class members than its retail price, the credit monitoring is certain­
ly worth more than its discounted, wholesale cost to Equifax. See

159a

-----------Tbe_C.o.ur.t_also_disagrees_with_the—objectors’.
contention that there is no value for fee purposes in the
comprehensive injunctive relief provided under the set­
tlement, including the requirement that Equifax spend a
minimum of $1 billion on data security and related tech­
nology. Courts routinely consider the presence of similar
business practice changes to be a factor in the fee analy­
sis. See, e.g., Anthem, 2018 WL 3960068, at *28 (manda­
tory minimum expenditure for cybersecurity was
“properly considered in determining an appropriate at­
torneys’ fees award”); Ingram, 200 F.R.D. at 689-90
(programmatic changes to reduce racial discrimination
supported an upward adjustment from the benchmark);
see generally Home Depot, 2016 WL 6902351, at *4 (two
years of enhanced cybersecurity measures was a valua­
ble class benefit).
The Court specifically finds that the injunctive re­
lief class counsel obtained here is a valuable benefit to
the class because it reduces the risk that their personal
data will be compromised in a future breach. That
Equifax may also benefit makes no difference. Similarly,
that Equifax agreed to the injunctive relief to avoid liti­
gation risk does not mean class counsel have no entitle­
ment to a fee; rather, Equifax’s motivation is what trig­
gers class counsel’s entitlement. See Poertner, 618 F.
Anthem, 2018 WL 3960068, at *7. And even valued at that cost, the
credit monitoring available to the entire class under the settlement
would far exceed what the objectors claim it is worth. Indeed, that
cost alone (several billion dollars at a minimum) would more than
justify the requested fee. See generally Waters, 190 F.3d at 1297
(class counsel are entitled to a reasonable fee based on the funds
potentially available to be claimed, regardless of the amount actual­
ly claimed); see also Poertner, 618 F. App’x at 629-30, n.2.

160a

App’x.at-629 (rejecting. a_similar objection bv Frank and
holding that the defendant’s business practice changes
were a settlement benefit because the changes were
“motivated by the present litigation”).
In short, the requested fee is well-justified under
the percentage method, and the objections to the fee are
overruled.
B. A Lodestar Cross-Check. If Done. Supports
The Requested Fee.
The Eleventh Circuit has authorized courts to use
the lodestar method as a cross-check on the reasonable­
ness of a percentage-based fee, but such a cross-check is
not required. See, e.g., Waters, 190 F. 3d at 1298. In fact,
a cross-check can reintroduce the same undesirable in­
centives the percentage method is meant to avoid and for
that reason courts regularly award fees without discuss­
ing lodestar at all. In re Checking, 830 F. Supp. 2d at
1362; Champs Sports, 275 F. Supp. 3d at 1350. In this
case, the Court does not believe that a lodestar cross­
check is necessary or even beneficial. Nonetheless, the
requested fee easily passes muster if a crosscheck is
done.
As of December 17, 2019, plaintiffs’ counsel spent
33,590.7 hours on this litigation. Class counsel docu­
mented the time expended in detailed records filed in
camera with the Court, and they personally reviewed
more than 21,000 time entries and excluded 3,272.9 hours
as duplicative, unauthorized, of insufficient benefit, or
inconsistent with the billing protocol that they estab­
lished at the outset of the litigation. Plaintiffs’ counsel’s
lodestar up to the final approval hearing, including the

161a

-.reviewed time, amounts to $22.816.985. Tn addition to
time spent through final approval, class counsel estimate
they will spend 10,000 hours over the next seven years to
implement and administer the settlement. This time has
an expected value of $6,767,200. The Court finds that this
estimate is reasonable. Class counsel’s current and fu­
ture lodestar thus totals $29,584,135.
When the lodestar approach is used in common
fund cases, courts typically apply a multiplier to reward
counsel for their risk, the contingent nature of the fee,
and the result obtained. Here, the requested fee repre­
sents class counsel’s lodestar (including future time) plus
a multiplier of roughly 2.62, which is consistent with mul­
tipliers approved in other cases. See, e.g., Columbus
Drywall, 2012 WL 12540344, at *5 & n.4 (noting a multi­
plier of 4 times the lodestar is “well within” the accepted
range and citing examples); Ingram, 200 F.R.D. at 696
(noting courts apply multipliers ranging from less than
two to more than five); Pinto v. Princess Cruise Lines
Ltd., 513 F. Supp. 2d 1334, 1344 (S.D. Fla. 2007) (multi­
pliers ‘“in large and complicated class actions’ range
from 2.26 to 4.5, while three appears to be the average”)
(internal quotations omitted).
No objector argues that a lodestar cross-check is
mandated, or even explains why this case warrants a
cross-check given the reasonableness of the percentage
fee being sought. Several objectors, however, dispute
various aspects of the cross-check analysis. None of the­
se objections have any merit.
One objector contends hourly rates should be
capped at $500 because most ordinary people earn mini-

162a

..mum. wagenr_less_than J$20an hour. The proper compar­
ison, though, is to the prevailing rates in the legal com­
munity. By that standard, class counsel’s rates are rea­
sonable. Class counsel supplied substantial evidence that
the prevailing rates for complex litigation in Atlanta and
around the country are commensurate with or even in
excess of the rates applied here and none of the objec­
tors have presented any evidence to the contrary. The
Court therefore finds class counsel’s rates are reasona­
ble and well supported, including specifically the hourly
rates charged by Mr. Barnes ($1050); Mr. Canfield
($1000); Ms. Keller ($750), and Mr. Siegel ($935).
Several objectors challenge class counsel’s time,
claiming it is inflated and duplicative, and demand that
the Court closely examine the time records and order
them to be produced for review by the class. A lodestar
cross-check, however, does not require that time records
be scrutinized or even reviewed. See, e.g., Goldberger v.
Integrated Res., Inc., 209 F.3d 43, 50 (2d Cir. 2000)
(“[U]sed as a mere crosscheck, the hours documented by
counsel need not be exhaustively scrutinized by the dis­
trict court. Instead, the reasonableness of the claimed
lodestar can be tested by the court’s familiarity with the
case.”) (internal citations omitted); In re Checking, 2013
WL 11319244, at *14 (declining to review billing rec­
ords). Nevertheless, based on its in camera review of a
sampling of class counsel’s records, its familiarity with
the litigation, class counsel’s declarations regarding their
line-by-line review of all entries to remove duplicative
and unnecessary time, and other factors, the Court finds
that class counsel’s time was reasonable and appropri­
ately spent. The Court also finds that ordering the rec-

163a

jor_ds..he_made public would needlessly require the voluminous records to be reviewed and redacted for privi­
leged and confidential material and serve no useful pur­
pose, particularly given the fact that a lodestar cross­
check is not required and litigation over specific time en­
tries would be a waste of resources for both the Court
and the parties.
One objector claims that estimated future time
cannot be considered. Yet, other courts have included
future time in lodestar calculations, including this Court
in the financial institutions track of the Home Depot data
breach case. See Home Depot, 2017 WL 9605207, *1
(N.D. Ga. Oct. 11, 2017), affd in part and rev’d in part
on other grounds, 931 F.3d 1065, 1082 (11th Cir. 2019).
Using a reasonable estimate also is appropriate. A cross­
check is not intended to involve “mathematical preci­
sion.” In re Rite Aid Corp. Sec. Litig., 396 F.3d 294, 306
(3d Cir. 2005). And, if the fee was lodestar-based, class
counsel would be entitled to file supplemental applica­
tions for future time. See Cassese v. Washington Mut.,
Inc., 27 F. Supp. 3d 335, 339 (E.D.N.Y. 2014). Excluding
such time thus would misapply the lodestar methodology
and needlessly penalize class counsel.
Finally, several objectors argue the proposed
multiplier is too high and one claims Perdue bars the use
of any multiplier. But class counsel have demonstrated
that the multiplier is reasonable and within the typical
range, and Perdue is irrelevant in a common fund fee
analysis. See Home Depot, 931 F.3d at 1084-85. In sum, a
lodestar analysis is not required, but a consideration of
the lodestar here only confirms that the requested fee is
reasonable.

164a

G.-----Reimbursement Q.f Class. Counspl *s F,vpenses.
The settlement agreement authorizes reimburse­
ment of up to $3 million in expenses that class counsel
reasonably incurred on behalf of the class. Class counsel
have incurred $1,404,855.35 in expenses through Decem­
ber 17, 2019, for such items as court reporter fees; doc­
ument and database reproduction and analysis; ediscovery costs; expert witness fees; travel for meetings
and hearings; paying the mediator; and other customary
expenditures. The Court finds that these expenses are
reasonable and were necessarily incurred on behalf of
the class. Class counsel are thus entitled to be reim­
bursed for these expenses. See, e.g., Columbus Drywall,
2012 WL 12540344, at *7-8.
Two objectors challenge class counsel’s expenses.
One says the total is simply “too much.” The other specu­
lates that some computerized research charges might be
overbilled and complains that the “miscellaneous” ex­
pense category is not further itemized. Such vague as­
sertions and speculation do not overcome the substantial
evidence in the record that all of the expenses were rea­
sonable. Moreover, the expenses are detailed in class
counsel’s in camera submissions to the Court.
D.

The Service Awards Are Appropriate.

Courts routinely approve service awards to com­
pensate class representatives for the services they pro­
vide and the risks they incur on behalf of the class. See,
e.g., Ingram, 200 F.R.D. at 695-96; Allapattah Servs.,
454 F. Supp. 2d at 1218; In re Checking, 2014 WL
11370115, at *12-13. The settlement agreement provides

165a

for a modest service award of $2,500 to each class repre­
sentative, who devoted substantial time and effort to this
litigation working with their lawyers to prosecute the
claims, assembling the evidence supporting their claims,
and responding to discovery requests. Simply put, the
class representatives were instrumental in achieving a
settlement benefitting the entire class. But for their ef­
forts, other class members would be receiving nothing.
The Court therefore finds that the service awards are
deserved and approves them for payment.
Objector Davis contends the longstanding prac­
tice of compensating class representatives for their ser­
vice is prohibited by two Supreme Court cases from the
1800s. The argument previously has been rejected out of
hand because the cases were decided before Rule 23 and
involve different facts and circumstances. See, e.g.,
Merlito v. Experian Mktg. Sols., Inc., 923 F.3d 85, 96 (2d
Cir. 2019). Davis also suggests that each class member
be required to document the specific amount of time
spent on the litigation, but he provides no basis to believe
the class representatives did not perform the services
described and the amount of time needed for such tasks
is necessarily substantial. Further evidence of the class
representatives’ service thus is unnecessary, particularly
given the modest sums involved. See, e.g., Home Depot,
2016 WL 11299474, at *1 (N.D. Ga. Aug. 23, 2016)
(awarding modest service awards to 88 class representa­
tives based on a similar description of their service by
their counsel).

166a

A. JJNDINGSREGARDING SERIAL OBJECTORS.
“Objectors can play a useful role in the court’s
evaluation of the proposed settlement terms. They
might, however, have interests and motivations vastly
different from other attorneys and parties.” Manual §
21.643. The Manual goes on to explain:
Some objections, however, are made for
improper purposes, and benefit only the
objectors and their attorneys (e.g., by
seeking additional compensation to with­
draw even ill-founded objections). An ob­
jection, even of little merit, can be costly
and significantly delay implementation of
a class settlement. Even a weak objection
may have more influence than its merits
justify in light of the inherent difficulties
that surround review and approval of a
class settlement. Objections may be moti­
vated by self-interest rather than a desire
to win significant improvements in the
class settlement. A challenge for the judge
is to distinguish between meritorious ob­
jections and those advanced for improper
purposes.
Manual § 21.643.
The Manual's guidance has been instructive in
evaluating the objections received in this case. To be
clear, the Court has considered in full the merits of all
objections, regardless of whether the objector is a repeat
player, and found them to be without merit. “The fact
that the objections are asserted by a serial or ‘profes-

167a

;ionalLobjector,_howey_er, may be relevant in determining the weight to accord the objection, as an objection
carries more credibility if asserted to benefit the class
and not merely to enrich the objector or her attorney.”
In re Syngenta AG MIR 162 Com Litig., 357 F. Supp. 3d
1094,1104 (D. Kan. 2018) (referring, in part, to objectors
and objectors’ counsel here George Cochran and Chris­
topher Bandas). There is sufficient evidence to conclude
that certain objectors here are of the “serial” variety.
This Court therefore finds, based on information
in the record and otherwise publicly available, that the
individuals identified below are serial objectors, that
they have unsuccessfully asserted many of the same or
similar objections in other class action settlements, that
their objections are not in the best interests of the class,
that there is no substantial likelihood their objections
will be successful on appeal, and that the class would be
best served by final resolution of their objections as soon
as practicable so that class members can begin to benefit
from the settlement:
•

Objector George Cochran, an attorney who ob­
jects on his own behalf, “is a serial objector to
class action settlements, with a history of at­
tempting to extract payment for the withdrawal of
objections.” Syngenta, 357 F. Supp. 3d at 1104.

•

Christopher Bandas, an attorney who represents
objector Mikell West, is recognized by federal
courts across the country as a “serial objector”
who “routinely represents objectors purporting to
challenge class action settlements, and does not
do so to effectuate changes to settlements, but

168a

——does_so_for his own personal financial gain; he has
been excoriated by Courts for this conduct.” CRT,
281 F.R.D. at 533; see also, e.g., Clark v. Gannett
Co., 122 N.E. 3d 376, 380 (Ill. Ct. App. 2018)
(Bandas has “earnfed] condemnation for [his] an­
tics from courts around the country. Yet, [his]
obstructionism continues.”). Moreover, Bandas
and his law firm are subject to a permanent in­
junction issued by a federal judge governing
their ability to object in class actions. Edelson
P.C. v. The Bandas Law Firm, 2019 WL 272812
(N.D. Ill. Jan. 17,2019).
•

Objector Christopher Andrews, although not an
attorney, by his own admission at the final ap­
proval hearing has filed objections in about ten
class actions. In Shane v. Blue Cross, No. 10-cv14360 (E.D. Mich.), the court found that “many of
[Mr. Andrews’] submissions are not warranted by
the law and facts of the case, were not filed in
good faith and were filed to harass Class Coun­
sel.” App. 1, H 65 & Ex. 7. That court also noted
that Mr. Andrews “is known to be a ‘professional
objector who has extorted additional fees from
counsel in other cases[.]”’ Id. Additionally, class
counsel have submitted an email from Mr. An­
drews that calls into question his motivation for
objecting in this case. [Doc. 900-1, Ex. 8].

•

Objector Troy Scheffler has previously objected
to a number of class actions and at least one court
has previously found that similar objections to the
ones he makes here “have no factual or legal mer­
it.” Carter, 2016 WL 3982489, at *13. He also has

169a

_ been paid to withdraw an objection in a similar
case. In re Experian Data Breach Litig., No. 15cv-01592, Doc. 335 (C.D. Cal. July 3, 2019) (ap­
proving payment of $10,000 to Mr. Scheffler and
his counsel to drop objection).
•

John Davis has a history of objecting in class ac­
tions and his involvement as an objector and class
representative has been criticized by other courts.
In Muransky v. Godiva Chocalatier, 2016 WL
11601079, at *3 (S.D. Fla. Sept. 16, 2016), a feder­
al magistrate judge denied an objection similar to
the one filed here by Mr. Davis and, in so doing,
labeled Davis and others as “professional objec­
tors who threaten to delay resolution of class ac­
tion cases unless they receive extra compensa­
tion.” See also Davis v. Apple Computer, Inc.,
2005 WL 1926621, at *2 (Cal. Ct. App. Aug. 12,
2005) (noting that Davis and Steven Helfand, an­
other serial objector who objected here, previous­
ly had “confidentially settled or attempted to con­
fidentially settle putative class actions in return
for payment of fees and other consideration di­
rectly to them” in apparent violation of court
rules.)

•

Steven Helfand has a history of improper conduct
in class action litigation. Id. In 2018, he was ac­
cused by the State Bar of California of, among
other things, filing an objection in the name of a
class member without being authorized by the
class member to do so, misleading a court and op­
posing counsel, settling an objection on appeal
without the client’s authorization, misappropriat-

170a

___ing the settlement proceeds, and other acts of
moral turpitude. Notice of Disciplinary Charges,
In the Matter of Steven Franklyn Helfand, Case
No. 17-0-00411 and 17-0-00412 (State Bar Court
of California; filed Sept. 24, 2018). Helfand did not
contest the charges and a default was entered
against him. Id., Order Entering Default (Jan. 15,
2019).
•

Theodore Frank, a lawyer and director of the
Hamilton Lincoln Law Institute, is in the business
of objecting to class action settlements and has
previously and unsuccessfully made some of the
same or similar objections that he has made here.
See Target, 2017 WL 2178306, at *6 (rejecting ob­
jection that an allegedly fundamental intra-class
conflict existed in a data breach case because class
members could assert claims under various state
statutes); Poertner, 618 F. Appx at 628-29 (reject­
ing objection that the proposed fee was unfair,
finding Frank had improperly limited the mone­
tary benefits to the class and excluded the sub­
stantial non-monetary benefits of the settlement).
The Court also finds that Frank disseminated
false and misleading information about this set­
tlement in an effort to encourage others to object
in this case and directed class members to object
using the “chat-bot” created by Class Action Inc.,
notwithstanding that it contained false and mis­
leading information about the settlement. These
actions are improper and further support a find­
ing that Frank’s objection is not motivated to
serve the interests of the class. See Manual §

171a

21.33 (“Objectors to a class settlement or their attorneys may not communicate misleading or inac­
curate statements to class members about the
terms of a settlement to induce them to file objec­
tions or to opt out.”).
Finally, the Court addresses the 718 “chat-bot”
generated forms submitted by Class Action Inc. on which
class members simply checked one or more of several
boxes indicating that the settlement was “unfair,” “inad­
equate,” “unreasonable,” or “unduly burdensome” and
had the opportunity to add a “personal note” to the
Court. The Court has considered the substance of these
objections (which are repeats of objections addressed
above) and rejects them in their entirety. Separately, the
Court rejects these objections as procedurally defective.
The objections were not submitted through the process
ordered by the Court and do not comply with the re­
quirement under Rule 23 that an objection “state wheth­
er it applies only to the objector, to a specific subset of
the class, or to the entire class and also state with speci­
ficity the grounds for the objection.” See Fed. R. Civ. P.
23(e)(5)(A).
Moreover, class counsel submitted information
that Class Action Inc. failed to accurately describe the
settlement both on its website and in promotions of the
chat-bot elsewhere, which may have prompted users of
the site to object based on inaccurate and incomplete in­
formation about the benefits available under the settle­
ment. The Court notes that class counsel subpoenaed
Reuben Metcalfe, the CEO of Class Action Inc., for a
deposition, but Mr. Metcalfe failed to appear. The Court
also notes that Mr. Metcalfe represented to class counsel

172a

_that„he had not even read the settlement agreement or
notice materials before falsely telling class members that
the settlement provided only $31 million to pay claims.
[Doc. 939-1, H 36]. Therefore, based on the uncontested
record, the Court accepts the facts as presented by class
counsel on this point, and finds that Class Action Inc. and
Mr. Metcalfe promoted false and misleading information
regarding the terms of the settlement in an effort to de­
ceptively generate objections to the settlement.
VI.

THE COURT’S TREATMENT OF OTHER
PENDING MATTERS.
A. Motions To Strike Declarations Of Robert
Klonoff. Geoffrey Miller And Harold Daniel.

Several objectors moved to “strike” [Docs. 872,
890, 909, 918] the Declarations of Robert Klonoff [Docs.
858-2, 900-2], Geoffrey Miller [Doc. 900-3], and Harold
Daniel [858-3] submitted by class counsel. Plaintiffs op­
pose these motions [Docs. 887, 932, 946]. While the Court
has found the declarations helpful, as noted above, the
Court has exercised its own independent judgment in
resolving the matters addressed in the declarations, ren­
dering the challenges to the declarations moot. Regard­
less, the motions lack merit. All three of the proposed
experts are wellqualified, Daubert does not govern at the
final approval stage, and, even if it did, each of the decla­
rations passes muster under Daubert,56
56 Similar motions to strike at the final approval stage filed by
Frank’s organization have also been rejected in other pending class
actions. See Briseno v. Conagra Foods, Inc., No. ll-cv-05379-CJCAGR, Doc. 695 (C.D. Cal. Oct. 8, 2019); In re Samsung Top-Load
Washing Machine Marketing, Sales Practices and Prods. Liab.
Litig., No. 17-ml-2792-D, Doc. 208 (W.D. Okla. Nov. 18, 2019). See

173a

______Professor Klonoff is a prominent law professor
and teacher of civil procedure; former Assistant to the
U.S. Solicitor General; the author of relevant academic
publications and the leading casebooks on class actions
and multi-district litigation; was the Associate Reporter
for the American Law Institute’s class action project;
and was appointed by Chief Justice Roberts for two
three-year terms as the sole academic member to the
Advisory Committee on the Rules of Civil Procedure, a
position in which he took the lead on the proposed
amendments to Rule 23 that became effective on Decem­
ber 1, 2018. [Doc. 858-2, Hf 4-12]. Because of his exper­
tise, other courts have specifically accepted and relied
extensively upon Professor Klonoff s opinions regarding
proposed attorneys’ fee awards and other class action
issues. See, e.g., Syngenta, 357 F. Supp. 3d at 1115; In re
AT&T Mobility Wireless Data Services Sales Tax Litig.,
792 F. Supp. 2d 1028, 1032 n.3, 1034-35, 1037-38, 1040,
1042 (N.D. Ill. 2011); the National Football League
Players Concussion Injury MDL; the ChineseManufactured Drywall MDL; and the Deepwater Hori­
zon MDL. (See Doc. 858-2, ! 10) (listing cases).
Professor Miller is the co-author of several lead­
ing empirical studies of attorneys’ fees in class action lit­
igation and a frequent expert witness on issues relating
to class actions and attorneys’ fees. [Doc. 900-3, U 1]. One
objector cites to a study that he authored. [Doc. 880 at
also Target, 2015 WL 7253765, at *4 (“even if the affidavit con­
tained impermissible legal conclusions, the Court is capable of sep­
arating those conclusions from Magistrate Judge Boylan’s helpful
and insightful factual descriptions of the settlement process in this
case.”).

174a

12-15. Doc. 876 at 18-19]. Professor Miller is the Stuyvesant Comfort Professor of Law at NYU Law School, and
a member of the advisory committee for the American
Law Institute’s Principles of the Law project on Aggre­
gate Litigation, which, among other topics, addressed
questions of attorneys’ fees in class actions and related
types of cases. [Doc. 900-3 1111 2-3]. His research articles
on class action cases, especially in the area of attorneys’
fees, have been cited as authority by many state and fed­
eral courts. [Doc. 900-3 HIT 4-6].
Harold Daniel served as the President of the
State Bar of Georgia and the Lawyers Club of Atlanta.
[Doc. 858-3, H 2], He was a member Standing Committee
of the Federal Judiciary of the American Bar Associa­
tion. [Id.]. He also has been qualified and has served as
an expert witness on the issue of attorneys’ fees in nu­
merous courts, including this Court. [Id., H 10].
At the final approval stage, the weight of authori­
ty from the circuits makes clear that district courts have
discretion to use “whatever is necessary ... in reaching
an informed, just and reasoned decision.” Mars Steel
Corp. v. Cont’l Bank N.A, 880 F.2d 928, 938 (7th Cir.
1989). Final approval is not a trial on the merits, and the
Court need not be a gatekeeper of evidence for itself.
Further, the issues on which the experts opine are both
relevant and inherently factual in nature, not disputed
legal principles, and the declarations are helpful as to
these matters. Moreover, the methodology the experts
used—applying their expertise gained through years of
experience to questions of fairness and reasonableness—
is more than sufficient to satisfy Rule 702 and Daubert.
See, e.g., Kumho Tire Co., Ltd. v. Carmichael, 526 U.S.

175a

137, 152 (1999) (recognizing that a district court has
“broad latitude” to allow an expert whose testimony is
based on “professional studies or personal experience”);
Primrose Operating Co. v. Nat’lAm. Ins. Co., 382 F.3d
546, 561-63 (5th Cir. 2004) (affirming admission of testi­
mony from a fee expert, stating the “fair and reasonable
compensation for the professional services of a lawyer
can certainly be ascertained by the opinion of members
of the bar who have become familiar through experience
and practice with the character of such services”); Freed
by Freed v. Merrill Lynch, Pierce, Fenner & Smith, Inc.,
2005 WL 8156040, at *2-3 (S.D. Fla. Aug. 2, 2005) (reject­
ing Daubert challenge to an expert who testified as to the
reasonableness of an attorneys’ fee based on his experi­
ence as a litigator, finding the methodology was reliable);
Yowell v. Seneca Specialty Ins. Co., 117 F. Supp. 3d 904,
910-11 (E.D. Tex. 2015) (declining to strike affidavit from
fee expert because it satisfied Daubert requirements).
Finally, the Court again emphasizes that, with re­
gard to all of the matters addressed in this Order it has
performed its own independent legal research and analy­
sis and made up its own mind. The pending motions to
strike [Docs. 890, 909,
918] are therefore denied. The Court previously denied
[Doc. 951] objector Shiyang Huang’s motion to strike
[Doc. 872].
B. Oppositions To The Scope Of The Release
By Proposed Amicus Curiae The State Of
Indiana And The Commonwealth Of Massa­
chusetts.
The State of Indiana, through the Indiana Attor­
ney General, submitted a selfstyled amicus curiae brief,

176a

requesting that the Court modify the release in the set­
tlement in several respects, purportedly to “safeguard its
sovereign and exclusive authorities to enforce Indiana
law.” [Doc. 898]. The Commonwealth of Massachusetts
makes a similar request. [Doc. 923]. The gist of these re­
quests is that the two states believe the release cannot be
used as a bar to claims they are pursuing in separate en­
forcement actions against Equifax in Indiana and Massa­
chusetts state courts. Indiana cites several cases in ap­
parent support for its position that a class action “cannot
impede a separate action by government actors acting in
an enforcement capacity.” [Doc. 898, at 5]. Massachu­
setts says its claims were not and could not have been
asserted by any class plaintiffs in this case. The states’
requests are denied for the following reasons.
First, the Court concludes that Indiana and Mas­
sachusetts lack standing to object to the settlement be­
cause they are not members of the settlement class. Se­
cond, nothing in the settlement prevents Indiana or
Massachusetts from pursuing enforcement actions in
state court, which they both already are doing. Third, the
Court does not have the power to grant the primary re­
lief the states seek, which is a modification of the settle­
ment, see Cotton, 559 F.2d at 1331, and any suggestion
by Indiana or Massachusetts that the Court reject the
settlement altogether is not in the best interests of the
147 million class members. It would make no sense for
this Court to reject this historic settlement—one that
provides substantial relief to a nationwide class and is
supported by the Federal Trade Commission, Consumer
Financial Protection Bureau, and 50 other Attorneys
General—and subject all class members to the risks of

177a

further litigation simply because two states seek the opportunity to obtain additional relief for their own resi­
dents.
To the extent they move for specific relief from
this Court, request that the Court issue an advisory
opinion, or request that the Court refuse to approve the
settlement, the requests by Indiana [Doc. 898] and Mas­
sachusetts [Doc. 923] are hereby denied.
C. Miscellaneous Pending Motions.
The Court has carefully considered all timely filed
objections. As a housekeeping matter, and for clarity of
the record, the Court addresses several motions filed by
objectors. The Court previously denied [Doc. 851] the
Motion to Reject Settlement by Susan Judkins [Doc.
824], and the Motion to Reject Settlement by John
Judkins [Doc. 825], The Court also denied [Doc. 853] the
Motion to Enforce Settlement by Lawrence Jacobson
[Doc. 837], and Motion to Deny the Settlement by Beth
Moscato [Doc. 841]. And the Court denied [Doc. 873] the
Motion to Telephonically Appear at Fairness Hearing by
Shiyang Huang [Doc. 852]. These motions were primari­
ly further objections to the settlement couched as “mo­
tions” and, again, the Court has considered all timely
filed objections. For similar reasons, the Court hereby
denies the Motion for Court Order Setting Deadline to
Pay Settlement Fee to Petitioning Parties by Peter J.
LaBreck, Elizabeth M. Simons, Gregory A. Simons,
Joshua D. Simons [Doc. 789]; the Motion to Remove
Class Counsel, the Steering Committee, and Legal Ad­
ministration, the Named Plaintiffs and Defense Counsel
by Christopher Andrews [Doc. 916]; the Motion to Re-

178a

move Class Counsel, the Steering Committee, and Legal
Administration, the Named Plaintiffs and Defense CourF
sel for Misconduct by Christopher Andrews [Doc. 917];
the Motion to Strike Response to Doc. 903 [Doc. 935];
the Motion to Strike Equifax’s Response to Doc. 903
[Doc. 936]; and the Motion to Strike Plaintiffs’ Untimely
Filings [Doc. 949]. Any other motions and requests for
specific relief asserted by objectors are also denied.
For the reasons set forth herein, the Court here­
by (1) GRANTS final approval of the settlement; (2)
CERTIFIES the settlement class pursuant to Federal
Rules of Civil Procedure 23(a), (b)(3) and (e); (3)
GRANTS in full Plaintiffs’ request for attorneys’ fees of
$77.5 million, reimbursement of expenses of
$1,404,855.35, and service awards of $2,500 each to the
class representatives; and (4) otherwise rules as specified
herein.
SO ORDERED, this 17 day of March, 2020.
/s/Thomas W. Thrash
THOMAS W. THRASH, JR.
United States District Judge

179a

APPENDIX C
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-10249-RR
D.C. Docket No. l:17-md-02800-TWT
In re Equifax Inc. Customer Data Security Breach Liti­
gation
SHIYANG HUANG,
THEODORE H. FRANK,
DAVID R. WATKINS,
MIKELL WEST,
GEORGE W. COCHRAN,
JOHN WILLIAM DAVIS,
Movants-Appellants,
ALICE-MARIE FLOWERS,
HARALD SCHMIDT,
CHRISTOPHER ANDREWS,
Movants,
BRIAN F. SPECTOR,
JAMES MCGONNIGAL,
RANDOLPH JEFFERSON CARY, III,
ROBIN D. PORTER,
WILLIAM R. PORTER, et al.
Plaintiffs-Appellees,
versus
EQUIFAX INC,

180a

DOES 1 THROUGH 50. INCLUSIVE,
EQUIFAX INFORMATION SERVICES LLC,
a foreign limited liability company,
EQUIFAX INFORMATION SOLUTIONS, LLC,
DOES 1 THROUGH 10, et al.,
Defendants-Appellees.
Appeals from the United States District Court
for the Northern District of Georgia
ON PETITIONS FOR REHEARING AND PETI­
TIONS FOR REHEARING EN BANC
BEFORE: MARTIN, GRANT, and BRASHER, Circuit
Judges.
PER CURIAM:
The Petitions for Rehearing En Banc filed by Appellants
Shiyang Huang, David R. Watkins, Theodore H. Frank,
and John W. Davis are DENIED, no judge in regular
active service on the Court having requested that the
Court be polled on rehearing en banc. (FRAP 35) The
Petitions for Panel Rehearing are also denied. (FRAP
40)

ORD-46

181a

APPENDIX D

___

Plaintiffs’ Rule 28(j) Letter (11th Cir. Nov. 4,2020)
November 4, 2020
Hon. David J. Smith
Clerk of the Court
Eleventh Circuit Court of Appeals
Elbert P. Tuttle Courthouse
56 Forsyth St. NW
Atlanta, GA 30303
Re: Shiyang Huang, et al., v. Brian Spector, et al., No.
20-1021+9
Dear Mr. Smith:
Objector Davis cites Muransky v. Godiva Chocolatier, Inc., Nos. 16-16486 & 16-16783 (11th Cir. Oct. 28,
2020) (en banc), as supplemental authority for the argu­
ment first made in his reply brief that settling plaintiffs
must prove standing by a preponderance or some other
unidentified evidentiary standard.1 Setting aside Davis
waived this argument by not making it earlier,
Muransky provides no benefit to him here.
In Muransky, this Court applied Spokeo for the
unremarkable proposition that "a party does not have
standing to sue when it pleads only the bare violation of a
statute." Slip Op. 2. In contrast, Plaintiffs do not base
their standing on a bare statutory violation, but rather
have pled common law injuries—both directly and
through imminent risk of identity theft—that the district
1 Plaintiffs responded to a similar argument from Huang and An­
drews. Pis. Br. at 24-27.

182a

court held supported legally cognizable claims under
Georgia law. Br. at 26-27. These allegations establish
standing, as Muransky recognizes. Slip Op., at 18-19 n.3
(noting that "anyone who properly pleads a material risk
of identity theft would have standing.").
Muransky is silent on the issue Davis raises,
namely that an evidentiary showing by settling parties is
required under Article III. Indeed, the Court expressly
declined to consider "the manner and degree of evidence"
needed to demonstrate standing at the class settlement
stage. Id. at 12 n.l. Accordingly, neither Muransky nor
any other decision of this (or any other) Circuit has ever
mandated that settling parties provide evidence of stand­
ing beyond that in the pleadings, or that courts conduct a
separate evidentiary inquiry to confirm Article III juris­
diction. Such a requirement would not only be unprece­
dented, but also would be unnecessary and undercut a
principal benefit of settlement for the parties and
Court—eliminating continuing litigation.
Finally, contrary to Davis's claim, Plaintiffs did
not "deliberately" decline to prove standing. Because ex­
isting law does not impose an evidentiary requirement,
Plaintiffs had no need to offer evidence. If this Court de­
cides to impose such a requirement, Plaintiffs will easily
meet it by offering whatever evidence is required.

Respectfully,
s/Norman E. Siegel
Norman E. Siegel

183a

APPENDIX E
Plaintiffs’ Rule 28(j) Letter (11th Cir. Apr. 22, 2021)
April 22,2021
VIA CM/ECF
Hon. David J. Smith
Clerk of the Court
Eleventh Circuit Court of Appeals
Elbert P. Tuttle Courthouse
56 Forsyth St. NW
Atlanta, GA 30303
Re:

Shiyang Huang, et at., v. Brian Spector, et
al.,No.20-102I9, Response to Fed. R. App. P. 28(j)
Submission of April 21, 2021 from Shiyang
Huang

Dear Mr. Smith:
Objector-Appellant Huang continues to argue
that this Court’s jurisprudence requires Plaintiffs to
prove their standing allegations with evidence. Neither
Tampa General nor any other decision has ever imposed
such a requirement in a case akin to this one.
The Fifth Circuit considered and rejected the
same argument by BP in In re Deepwater Horizon, 739
F.3d 790, 804-07 (5th Cir. 2014), explaining: “BP has cit­
ed no authority—and we are aware of none—that would
permit an evidentiary inquiry into the Article III stand­
ing of absent class members during class certification
and settlement approval under Rule 23.” Id. at 805-06.
According to the Fifth Circuit, Rule 23 allows only lim­
ited merits inquiries and thus “[i]n the absence of any
motion for summary judgment or trial predicated upon ...

184a

Article III standing ... it would be premature and improper for a court to apply evidentiary standards'corre~
sponding to those later stages of litigation.” Id. at 806-07.
The court also reasoned that requiring “class members
to prove their claims prior to settlement under Rule 23(e)
would eliminate class settlement because there would be
no need to settle a claim that was already proven.” Id. at
807.
Regardless, the circumstances here do not justify
creating a new evidentiary rule. The trial court denied
Equifax’s Rule 12(b)(6) dismissal motion on injury and
causation, applying a more rigorous analysis than re­
quired under Article III. Likewise, no objector has cred­
ibly challenged the truth of Plaintiffs’ standing allega­
tions. See Lujan v. Defenders of Wildlife, 504 U.S. 555,
561 (1992) (proof of standing is needed, even at trial, only
if the facts are “controverted”); Grayson v. K-Mart
Corp., 79 F.3d 1086, 1099 (11th Cir. 1996) (evidentiary
hearing not required for class certification).
Finally, Huang’s citation to Cordoba!s reminder
that “at some point before it can award any relief, the
district court will have to determine whether each mem­
ber of the class has standing,” 942 F.3d 1259, 1274-75,
establishes Judge Thrash proceeded correctly here. See
R.1029 at 29-35 (finding that all class members suffered
the same injury from the Equifax breach and share a
common claim for damages).
Respectfully,
s/Norman E. Siegel
Norman E. Siegel
Co-Lead Class Counsel

185a

APPENDIX F
U.S. Const, art. Ill, §§1-2
Section 1
The judicial power of the United States, shall be vested
in one Supreme Court, and in such inferior courts as the
Congress may from time to time ordain and establish.
The judges, both of the supreme and inferior courts,
shall hold their offices during good behaviour, and shall,
at stated times, receive for their services, a compensa­
tion, which shall not be diminished during their continu­
ance in office.
Section 2
The judicial power shall extend to all cases, in law and
equity, arising under this Constitution, the laws of the
United States, and treaties made, or which shall be made,
under their authority; —to all cases affecting ambassa­
dors, other public ministers and consuls; —to all cases of
admiralty and maritime jurisdiction; —to controversies
to which the United States shall be a party; —to contro­
versies between two or more states; —between a state
and citizens of another state;—between citizens of differ­
ent states; —between citizens of the same state claiming
lands under grants of different states, and between a
state, or the citizens thereof, and foreign states, citizens
or subjects.
In all cases affecting ambassadors, other public ministers
and consuls, and those in which a state shall be party, the
Supreme Court shall have original jurisdiction. In all the
other cases before mentioned, the Supreme Court shall

186a

have appellate jurisdiction, both as to law and fact, with
such exceptions, and under~su'chn~egulaf-ions-as4-he-Con-gress shall make.
The trial of all crimes, except in cases of impeachment,
shall be by jury; and such trial shall be held in the state
where the said crimes shall have been committed; but
when not committed within any state, the trial shall be at
such place or places as the Congress may by law have
. directed.

